<html>
<title> - FENCING THE BORDER: CONSTRUCTION OPTIONS AND STRATEGIC PLACEMENT</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                    FENCING THE BORDER: CONSTRUCTION
                    OPTIONS AND STRATEGIC PLACEMENT

=======================================================================

                             JOINT HEARING

                               before the

                        SUBCOMMITTEE ON ECONOMIC
         SECURITY, INFRASTRUCTURE PROTECTION, AND CYBERSECURITY

                                 of the
                     COMMITTEE ON HOMELAND SECURITY
                          [Serial No. 109-92]

                                with the

   SUBCOMMITTEE ON CRIMINAL JUSTICE, DRUG POLICY, AND HUMAN RESOURCES

                                 of the
                     COMMITTEE ON GOVERNMENT REFORM
                          [Serial No. 109-254]

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 20, 2006

                               __________

    Printed for the use of the Committees on Homeland Security, and 
                           Government Reform
                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     
  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html


                     U.S. GOVERNMENT PRINTING OFFICE
41-325 PDF                 WASHINGTON DC:  2009
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�0900012009

                               __________
                     COMMITTEE ON HOMELAND SECURITY


                   Peter T. King, New York, Chairman
Don Young, Alaska                    Bennie G. Thompson, Mississippi
Lamar S. Smith, Texas                Loretta Sanchez, California
Curt Weldon, Pennsylvania            Edward J. Markey, Massachusetts
Christopher Shays, Connecticut       Norman D. Dicks, Washington
John Linder, Georgia                 Jane Harman, California
Mark E. Souder, Indiana              Peter A. DeFazio, Oregon
Tom Davis, Virginia                  Nita M. Lowey, New York
Daniel E. Lungren, California        Eleanor Holmes Norton, District of 
Jim Gibbons, Nevada                      Columbia
Rob Simmons, Connecticut             Zoe Lofgren, California
Mike Rogers, Alabama                 Sheila Jackson-Lee, Texas
Stevan Pearce, New Mexico            Bill Pascrell, Jr., New Jersey
Katherine Harris, Florida            Donna M. Christensen, U.S. Virgin 
Bobby Jindal, Louisiana                  Islands
Dave G. Reichert, Washington         Bob Etheridge, North Carolina
Michael McCaul, Texas                James R. Langevin, Rhode Island
Charlie Dent, Pennsylvania           Kendrick B. Meek, Florida
Ginny Brown-Waite, Florida

   Subcommittee on Economic Security, Infrastructure Protection, and 
                             Cybersecurity


                Daniel E. Lungren, California, Chairman
Don Young, Alaska                    Loretta Sanchez, California
Lamar S. Smith, Texas                Edward J. Markey, Massachusetts
John Linder, Georgia                 Norman D. Dicks, Washington
Mark E. Souder, Indiana              Peter A. DeFazio, Oregon
Mike Rogers, Alabama                 Zoe Lofgren, California
Stevan Pearce, New Mexico            Sheila Jackson-Lee, Texas
Katherine Harris, Florida            James R. Langevin, Rhode Island
Bobby Jindal, Louisiana

                               Ex Officio

Peter T. King, New York              Bennie G. Thompson, Mississippi
?

                     COMMITTEE ON GOVERNMENT REFORM


                      Tom Davis, Virginia, Chairman

Christopher Shays, Connecticut       Henry A. Waxman, California
Dan Burton, Indiana                  Tom Lantos, California
Ileana Ros-Lehtinen, Florida         Major R. Owens, New York
John M. McHugh, New York             Edolphus Towns, New York
John L. Mica, Florida                Paul E. Kanjorski,,Pennsylvania
Gil Gutknecht, Minnesota             Carolyn B. Maloney, New York
Mark E. Souder, Indiana              Elijah E. Cummings, Maryland
Steven C. LaTourette, Ohio           Dennis J. Kucinich, Ohio
Todd Russell Platts, Pennsylvania    Danny K. Davis, Illinois
Chris Cannon, Utah                   WM. Lacy Clay, Missouri
John J. Duncan, Jr., Tennessee       Diane E. Watson, California
Candice S. Miller, Michigan          Stephen F. Lynch, Massachusetts
Michael R. Turner, Ohio              Chris Van Hollen, Maryland
Darrell E. Issa, California          Linda T. Sanchez, California
Jon C. Porter, Nevada                C.A. Dutch Ruppersberger, Maryland
Kenny Marchant, Texas                Brian Higgins, New York
Lynn A. Westmoreland, Georgia        Eleanor Holmes Norton, District of 
Patrick T. McHenry, North Carolina       Columbia
Charles W. Dent, Pennsylvania              ------
Virginia Foxx, North Carolina        Bernard Sanders, Vermont
Jean Schmidt, Ohio                       (Independent)                  
Brian P. Bilbray, California         
                                     
                                     
                        David Marin, Staff Director
                      Lawrence Halloran, Deputy Staff 
                                   Director
                         Teresa Austin, Chief Clerk
                      Phil Barnett, Minority Chief of 
                              Staff/Chief Counsel

   Subcommittee on Criminal Justice, Drug Policy, and Human Resources

                     Mark E. Souder, Indiana, Chairman   
Patrick T. McHenry, North Carolina   Elijah E. Cummings, Maryland
Dan Burton, Indiana                  Bernard Sanders, Vermont
John L. Mica, Florida                Danny K. Davis, Illinois
Gil Gutknecht, Minnesota             Diane E. Watson, California
Steven C. LaTourette, Ohio           Linda T. Sanchez, California
Chris Cannon, Utah                   C.A. Dutch Ruppersberger, Maryland
Candice S. Miller, Michigan          Major R. Owens, New York
Virginia Foxx, North Carolina        Eleanor Holmes Norton, District of 
Jean Schmidt, Ohio                       Columbia                       
Tom Davis, Virginia
                                     
                                     

                               Ex Officio

Tom Davis, Virginia                  Henry a. Waxman, California
                        Marc Wheat, Staff Director
                          Michell Gress, Counsel
                       William Collum, Acting Clerk
                       Tony Haywood, Minority Counsel

                                 (III)



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Mark E. Souder, a Representative in Congress from 
  the State of Indiana...........................................     1
The Honorable Daniel E. Lungren, a Representative in Congress 
  from the State of California, and Chairman, Subcommittee on 
  Economic Security, Infrastructure Proection, and Cybersecurity.     5
The Honorable Loretta Sanchez, a Representative in Congress from 
  the State of California, and Ranking Member, Subcommittee on 
  Economic Security, Infrastructure Protection, and Cybersecurity     4
The Honorable Elijah E. Cummings, a Representative in Congress 
  from the State of Maryland, and Ranking Member, Subcommittee on 
  Criminal Justice, Drug Policy and Human Resources..............     6
The Honorable Norman D. Dicks, a Reprsentative in Congress from 
  the State of Washington........................................    22

                               Witnesses
                                Panel I

The Honorable Duncan Hunter, a Representative in Congress from 
  the State of California........................................    13
The Honorable Silvestre Reyes, a Representative in Congress from 
  the State of Texas.............................................    10
Accompanied by:
  The Honorable Steven Pearce, a Representative in Congress from 
    New Mexico...................................................     9

                                Panel II

Mr. Kevin Stevens, Senior Associate Chief, Customs and Border 
  Protection:
  Oral Statement.................................................    25
  Prepared Statement.............................................    26

                               Panel III

Mr. Douglas Barnhart, President of Douglas E. Barnhart, Inc., VP 
  of Association of General Contractors..........................    47
Mr. T.J. Bonner, President, National Border Patrol Council:
  Oral Statement.................................................    59
  Prepared Statement.............................................    62
The Honorable Steve King, a Representative in Congress from the 
  State of Iowa..................................................    45
Mr. Carlton Mann, Chief Inspector, Office of Inspections & 
  Special Reviews, Office of Inspector General, Department of 
  Homeland Security:
  Oral Statement.................................................    64
  Prepared Statement.............................................    66
Mr. Art Mayne, Specifications Writer, Merchants Metals:
  Oral Statement.................................................    52
  Prepared Statement.............................................    54
Mr. Don Williams, Roadrunner Planning & Consulting, Consultant to 
  Power Contracting, Inc.:
  Oral Statement.................................................    49
  Prepared Statement.............................................    51

                             For the Record

Mr. Art Mayne submitted:
  A White Paper from the Chain Link Fence Manufacturers Institue 
    How Anti-Intrusion, Anti-Climb Chain Link Fencing Systems Can 
    Help Protect American's Borders..............................    56
The Honorable Ginny Brown-Waite, a Representative in Congress 
  from the State of Florida:
  Prepared Statement.............................................    83



    FENCING THE BORDER: CONSTRUCTION OPTIONS AND STRATEGIC PLACEMENT

                              ----------                              


                        Thursday, July 20, 2006

             U.S. House of Representatives,
                    Committee on Homeland Security,
                         Subcommittee on Economic Security,
              Infrastructure Protection, and Cybersecurity,
                                           with the
                    Committee on Government Reform,
                          Subcommittee on Criminal Justice,
                          Drug Policy, and Human Resources,
                                                    Washington, DC.
    The subcommittees met, pursuant to at 2:07 p.m., in room 
2118, Rayburn House Office Building, Hon. Mark E. Souder, 
chairman of the Criminal Justice, Drug Policy, and Human 
Resources Subcommittee presiding.
    Present: Representatives Souder, Lungren, McHenry, Schmidt, 
Cummings, Linda Sanchez, Norton, Loretta Sanchez, Dicks and 
Thompson.
    Staff Present: J. Marc Wheat, Staff Director and Chief 
Counsel; Dennis Kilcoyne, Counsel; Jim Kaiser, Counsel; Scott 
Springer, Congressional Fellow; Mark Fedor, Congressional 
Fellow; and Kimberly Craswell, Clerk.
    Mr. Souder. Subcommittees will come to order.
    This is a generally unorthodox hearing, in a sense. It was 
sponsored by two different subcommittees, the Subcommittee on 
Criminal Justice, Drug Policy, and Human Resources of the House 
Government Reform Committee as well as the Border Subcommittee 
of the Homeland Security Committee; and we are not in either of 
our rooms. We are in the Armed Services Committee room that we 
are going to function where it makes most sense under the 
committee rules where it best applies.
    The Homeland Security rules are that opening statements are 
done by the chairman and ranking member of the subcommittee 
plus the chairman of the full committee or ranking member of 
the full committee if they are there.
    We are also going to follow some of the guidelines in how 
we do the witness panels in Homeland Security. Some of the 
witnesses will be sworn in, like the Government Reform 
Subcommittee requires in our bylaws.
    I am going to start with my opening statement.
    Good afternoon and thank you all for coming today for our 
hearing on Fencing the Border: Construction Options and 
Strategic Placement. I would like to thank chairman Dan Lungren 
of the Subcommittee of Economic Security, Infrastructure 
Protection and Cybersecurity for sponsoring this very important 
joint hearing. This represents our first formal inquiry into 
this pressing subject. It is vital that we approach it as 
seriously and thoughtfully as we can.
    Though the question of whether we should have more border 
fencing has occasionally generated more heat than light, the 
fact is that this proposition is more or less settled in 
Congress. The immigration bills passed by both Houses call for 
a substantial expansion of fencing, at least 380 miles in the 
Senate bill and at least 700 miles in the House bill. So in our 
hearing today we seek to move beyond the question of whether to 
expand the fence and on to question of what kind of fencing, 
where should it go, what kind of challenges we should 
anticipate, and so forth.
    While many are understandably impatient to secure our very 
porous southwest border, the fact is that we don't get many 
chances to do it right, and we had better be prepared in this 
as thoroughly as possible. To do that, many questions have to 
be asked and many obstacles have to be foreseen and overcome. 
Through this hearing, we seek to make a significant step 
forward in that process.
    From the Pacific coast along San Diego to the southernmost 
tip of Texas along the Gulf of Mexico, the southwest border is 
over 2,000 miles long. Much of the terrain is unfriendly, 
though not impassable, to human beings. A variety of 
topography, from mountains to hot deserts, can make for very 
dangerous journeys, though obviously not hazardous enough to 
sway the estimated nearly one million immigrants who are in our 
country illegally from Mexico every year.
    In addition, there are many urban and semi-urban areas 
along the border which, when there is little or no fencing, 
allow many immigrants to blend into the local population 
immediately after making illegal entry. Near San Diego, Yuma, 
Nogales, Douglas, El Paso, Del Rio, Laredo and Brownsville are 
many opportunities for immigrants, with the aid of spotters and 
human smugglers, to make their way into this country in 
violation of our laws and sovereignty.
    Since the threat of illegal entry along the southwest 
border has long existed, it is not surprising that fencing the 
border has become an historical part of seeking an effective 
solution. In 1991, the Office of National Drug Control Policy 
decided it needed a comprehensive picture of southwest border 
security, given that the majority of illegal drugs entering the 
country cross the Southwest border.
    The result was delivered in January 1993, and was entitled 
Systematic Analysis of the Southwest Border. This exhaustive 
report covered far more ground than we can touch on today, but 
it did contain critical analysis and proposals regarding the 
subject of fences on the southwest border. The study concluded 
that aliens attempting to illegally enter from Mexico had shown 
remarkable resourcefulness in overcoming and destroying 
obstacles in their path, including single layer-fences. For 
this reason, one of the top recommendations was to erect 
lighted, three-layer fences in urban areas and for at least a 
mile on each side of every port of entry. The long-term 
strategy behind the expanded fence concept was to deflect 
immigrants away from urban areas where they blend in quickly 
with the local population. The immigrant flow, it was hoped, 
would then head to more rural areas where border patrol would 
have a tactical advantage over them.
    At the time of the study, perhaps the worst situation for 
border security existed in the San Diego sector. Estimates were 
that some 6,000 illegal immigrants were crossing the border 
there every night. Consequently, an effort was launched to 
fence the border adjacent to San Diego with the first layer 
consisting of 14 miles of 10-foot-high steel plates welded 
together. These were nothing more than surplus landing mats 
used by the military since World War II for the quick 
construction of airplane landing strips in remote locations. 
Though this first layer was demonstrably helpful in some 
respects, by itself it was not enough to adequately discourage 
determined immigrants. It also came with environmental costs, 
as those who breached the fence and sought to evade detection 
were often pursued by border patrol agents in environmentally 
sensitive areas.
    Fencing the border in precise areas proposes particular 
challenges. On December 16, 2005, the U.S. House of 
Representatives passed a new immigration bill, H.R. 4437. More 
specifically, the Hunter amendment, House Amendment 648, 
mandates the construction of 854 miles of double-layer, 
security-specific fencing--not vehicle barriers--including 
lights and cameras, along the southwest border.
    It requires the Secretary of Homeland Security to provide 
at least two layers of reinforced fencing, the installation of 
additional physical barriers, roads, lighting, cameras sensors, 
at five specified locations. Moreover, on May 17, 2006, the 
Senate voted 83 to 16 on S. 2611 to construct, within 2 years, 
370 miles of triple-layer fencing and 500 miles of vehicle 
barriers in areas along the Southwest border that DHS 
determines are most often used by smugglers and illegal aliens 
attempting to gain illegal entry.
    These proposals demand serious investigation into the 
construction options in the challenges that may arise.
    I have visited nearly every sector of the Southwest border 
at least once, many multiple times, have been exposed to 
something new and unexpected every time. One thing I learned is 
that the challenges which we will confront as we expand the 
fencing are almost more complex and varied than we will expect. 
Fencing must be altered with respect to water rights, livestock 
and wildlife mitigation, environmental concerns, recreational 
interests, irrigation infrastructure, floodplain consequences 
and so on. And there are ever-present problems of topography 
and soil composition, which can cause enormous headaches for 
contractors. For instance, we may determine that there are some 
remote areas needing fencing which are miles away from any road 
needed for transporting construction equipment and materials.
    The likely and dramatic increase of fencing along the 
southwest border is complicated and not without controversy. 
This hearing seeks to initiate a constructive dialogue with the 
Federal departments and agencies that will be responsible for 
the construction of all approved fencing and its integration 
into a sound border security strategy.
    We have an excellent line-up of witnesses today. Our first 
panel consist of Congressman Duncan Hunter, who will address 
the history of the California fence and share his insight in 
what lessons it can teach us. He will be joined by Congressmen 
Steve Pearce and Silvestre Reyes.
    Panel II will feature Mr. Kevin Stevens of Customs and 
Border Protection to inform us on many aspects of all current 
fencing along the Southwest border.
    Panel III will feature Congressman Steve King of Iowa; Mr. 
Douglas Barnhart, who is President of Douglas Barnhart, 
Incorporated, as well as Vice President of the Association of 
General Contractors; Mr. Carlton Mann, Chief Inspector of the 
Office of Inspections and Special Reviews of the Department of 
Homeland Security, Office of Inspector General; Mr. Art Mayne, 
specifications writer for Merchants Metals; Mr. Don Williams of 
Roadrunner Planning and Consulting, who is a consultant for 
Power Contracting, Inc.; and Mr. T.J. Bonner, who is President 
of the National Border Patrol Council.
    Mr. Souder. Now yield to the ranking member on the Homeland 
Security Subcommittee, Ms. Sanchez.
    Ms. Loretta Sanchez of California. Thank you, Mr. Chairman; 
and thank you to the witnesses for being before us today and 
for your testimony.
    I am sure you have all heard much about border security 
over this past year. It certainly is a topic that many of us 
have been taking a look at for quite some time.
    Last year in the fall--this past fall, we actually spent a 
lot of time on the Homeland Security Committee, Chairman King 
and subcommittee Chairman Lungren, on the Homeland Security 
bills to improve our Nation's border security. It was called 
H.R. 4312. We marked up that legislation in Homeland Committee; 
and while we did not agree on every issue or every amendment, 
we did establish substantial points of consensus.
    For example, section 107 of that bill identified the clear 
need for more border patrol agents and required the Secretary 
of Homeland Security to act quickly to hire and train 2,000 
additional border patrol agents every year from fiscal year 
2006 to fiscal year 2010, as authorized under this section 5202 
of the Intelligence Reform and Terrorism Prevention Act of 2004 
which we passed.
    Additionally, in section 302 of the bill--I am speaking of 
the one that we marked up in the fall--funds were authorized to 
add 8,000 additional detention beds every year from fiscal year 
2006 to fiscal year 2010, again, as dictated in the 
Intelligence Reform and Terrorism Prevention Act of 2004, which 
the Congress passed.
    Unfortunately, neither the administration nor the 
Republican leadership of this Congress kept the promise that 
they made in that Intelligence Reform and Terrorism Protection 
Act of 2004 to make necessary increases to protect our border.
    The administration and the leadership of this Congress now 
want us to forget about border patrol agents, detention beds, 
immigration agents that I think would actually help to improve 
our border security. Now they want us to forget about all the 
time that they voted against critical increases. So here we are 
talking about a fence, a one-size-fits-all solution to a very 
difficult, complicated, multifaceted problem.
    Building a fence on the southern border of the United 
States will only push illegal activities and border crossings 
to other areas. That is what we have seen, time and time again. 
And while we are spending billions of dollars over the next 
years to build that southern fence, what are we going to do 
about the northern border? Or about our ports like Miami, where 
people come in every day and nothing is stopping them? We 
cannot hope that just building a fence is going to solve this 
immigration problem.
    I hope that today we will discuss the reality of our 
Nation's border security challenges and the need for the 
increases in border patrol agents and detention beds and 
immigration agents so that we can truly address the security 
that we need, not just at the southern border but at our ports, 
at our airports, at our maritime ports and on the northern 
border.
    Thank you, Mr. Chairman. I yield back.
    Mr. Souder. Thank you.
    I now recognize Chairman Lungren.
    Mr. Lungren. Thank you very much, Mr. Chairman.
    I would like to join in this bipartisan spirit of 
consideration of matters here and express my appreciation to 
you for inviting our subcommittee to join with you on this 
important meeting today, particularly in this room. I hope 
Chairman Hunter will be here to join us, because I would like 
to congratulate him on this room. You can tell how long ago one 
was a chairman by the size of their portrait here, and I am 
just thinking if the portraits get any larger we going to have 
to start painting the ceiling, sort of like the Sistine Chapel. 
But it is a nice room in here that Armed Services has.
    This seems hard to believe, but 20 years ago I was a floor 
manager on the Republican side for the Simpson-Mazzoli bill as 
we tried deal with an immigration bill at that time and thought 
we had a bipartisan bill and a balanced solution. In my 
judgment, it wasn't because--not because of the bill but 
because of the lack of enforcement, and that is not Democrat or 
Republican. That has been Democratic and Republican 
administrations and Democratic and Republican Congresses. And 
so we are trying to deal with that problem once again.
    Fence projects in San Diego, El Paso and other cities along 
the southern border have demonstrated that border barriers work 
in deterring illegal entry, improving the quality of life in 
border communities and facilitating border enforcement actions. 
I do not in any way believe it is the silver bullet. There is 
no silver bullet in this. We have to have a comprehensive 
approach. But I happen to believe that, with the work of 
Congressman Hunter and Congressman Reyes, that we have proven 
that a key border enforcement tool is the fence.
    Along with additional fencing, appropriate staffing and 
resources and technology are essential for a complete border 
security system. I am not convinced we have to reinvent the 
wheel. I am convinced that there are some off-the-shelf 
technologies and off-the-shelf pieces that could be put 
together if we integrate this to create, in some cases, a 
physical fence, in some cases, a virtual fence that would allow 
us to do a far better than job than we have done.
    If anybody is going to say we are going to ever perfectly, 
totally, hermetically seal our border, they are wrong, but that 
should not be an excuse for us to fail to do a better job. And 
we can do a better job.
    In less than a year, both bodies of Congress have passed 
legislation that require additional fencing along the Southwest 
border. While I have some serious concerns with some of the 
limitations in the Senate legislation, namely that it includes 
only half the fencing of the House bill and that it requires 
consultation with Federal, State and local officials in Mexico 
before beginning any construction along the border, and the 
problem I see with that is not that we ought not to reach out 
to our friends on the other side of the border but that we put 
in legislation that we are prohibited from acting unless we get 
a foreign government to agree to it.
    I am surprised the Senate would give veto power to a 
foreign government. They have trouble enough with the veto 
power the President has.
    But I do believe that both the Senate and the House having 
fencing in their bills represents a paradigm shift. A survey 
conducted in January 2005, shows the majority of the American 
people support additional infrastructure along our border, and 
that is not just Americans in the southwest as some might 
expect. The survey showed the 74 percent in Alabama and 
Mississippi and 65 percent in New Jersey support that position. 
This is a position the American people have come to support, 
and it seems to me it is something that we ought to make sure 
is implemented.
    The debate in Congress has matured to recognize the 
national security importance of fencing and a shift in 
determining where fencing is most appropriate and what type. So 
I am looking forward to the testimony today.
    It is great to welcome our colleagues who represent 
districts on or near the southwest border. As I said before, 
Congressman Hunter has worked tirelessly. I remember a quarter 
century ago when he started talking about a fence, took him a 
while to get that in; and I remember when Congressman Reyes was 
working with Border Patrol and was one of those who led the 
fight to see that we could install fencing in the El Paso area, 
not every single centimeter of the 1,960 mile southern border 
but in those parts where it does make sense.
    Congressman Pearce represents one of the most open areas 
along the border, a little different there than it is in San 
Diego or El Paso. That is in the metropolitan areas, those open 
areas.
    So I hope that all of you will be able to provide important 
testimony on appropriate security measures along this unique 
corridor; and I look forward to the other panels, particularly 
the representative of the Border Patrol as we go forward on 
this.
    I thank you, Mr. Chairman.
    Mr. Souder. Yield to the ranking member of the Criminal 
Justice, Drug Policy Subcommittee, Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman; and I want 
to thank you for holding this joint hearing today on the issue 
relating to proposed expansion of the border fence to prevent 
illegal entry into the United States from Mexico.
    The Government Reform and the Homeland Security Committees 
share oversight responsibilities with respect to the agencies 
and initiatives that we will discuss today, and I look forward 
to exploring the important matters before us with our 
colleagues who serve on the Homeland Security Subcommittee on 
Economic Security, Infrastructure Protection and Cybersecurity.
    As ranking member of the Government Reform Subcommittee on 
Criminal Justice, Drug Policy, and Human Resources, I take a 
particular interest in the ramifications of border security for 
illegal drug trafficking. Nearly all of the cocaine and heroin 
consumed in the United States originates south of the border, 
predominantly in Colombia. Drugs from Colombia that are 
destined for the west, Midwest and parts of the eastern United 
States are smuggled along routes that cross the United States-
Mexico border. Recently, we have also seen a large increase in 
the amount of methamphetamine originating in Mexican super 
labs.
    Given that more than 20,000 Americans lose their lives to 
illegal drugs, drug abuse each year, Mr. Chairman, the drug 
problem alone justifies our interest in securing our southern 
border. The alarming possibility that terrorists might be able 
to exploit weaknesses in border security the same way that 
people who smuggle drugs and humans do further justifies this 
interest.
    But protecting Americans from threats that originate beyond 
our borders requires a comprehensive strategy. I note that the 
topic of today's hearing is framed narrowly in terms of, 
``construction options and strategic placement'', of an 
expanded fence along the southern border. Essentially, we are 
talking about how to implement a provision in still-pending 
House-passed legislation, a provision that would mandate a 
major expansion of fencing on the southern border. It is 
important to discuss whether this proposal would be effective 
before going forward with it.
    In that regard, I think it is necessary to observe that 
addressing the problems of illegal immigration and border 
insecurity requires consideration of more than the composition 
and placement of a proposed fence. More than half of illegal 
immigrants in the United States today are individuals who 
entered the United States legally but who overstayed their 
visas. As we all know, the 9/11 hijackers entered the United 
States on legitimate student visas and attacked us from within 
our borders.
    Jose Padilla, convicted of plotting terrorist acts in the 
United States, was an American citizen who reentered the United 
States from Pakistan at Chicago's O'Hare airport. The so-called 
millennium bomb suspect convicted of plotting an attack on Los 
Angeles International Airport was apprehended in the United 
States-Canada border. And Canada has been a major source of 
marijuana and a key transit country for the illegal importation 
of other illicit drugs, precursor chemicals for meth and other 
contraband. It is clear then that an expanded fence on the 
southern border addresses only part of the problem.
    Moreover, any strategy that focuses too narrowly on putting 
up physical barriers to entry is destined to fail if the 
initiatives for entering the United States illegally are not 
addressed directly and effectively. Certainly we know that the 
great majority of illegal immigrants who cross the southern 
border do so to pursue livelihoods that will allow them and 
their families to escape the grip of extreme poverty. A bigger, 
better fence will accomplish little if we fail to address the 
market for undocumented workers.
    As the Coalition for Immigration Security, comprised of 
former high-ranking DHS officials, argue in a recent statement, 
and I quote, some have portrayed the immigration debate as one 
between those who advocate secure borders and those who 
advocate liberalized employment opportunities. This is a false 
dichotomy. The reality is that stronger enforcement and a more 
sensible approach to the 10 to 12 million illegal aliens in 
this country today are inextricably interrelated. One cannot 
succeed without the other. Without reform of laws affecting the 
ability of temporary migrant workers to cross our borders 
legally, our borders cannot and will not be secure. Indeed, the 
existing fence that has had the effect of simply rerouting 
traffic to more remote areas, it has not reduced the volume of 
illegal traffic. Moreover, the fence has been breached in many 
areas by tunnels, ladders and blowtorches.
    Finally, Mr. Chairman, individuals who attempt to cross the 
border are determined. They do so at enormous risk to their own 
safety, and many die making the effort. I am concerned about 
the very real possibility, if not likelihood, that expanding 
the fence may increase the risk of starvation, rape and murder 
facing those who cross the border illegally. Those who are not 
deterred will become increasingly dependent upon profit-minded 
coyotes and criminal traffickers in order to cross the border 
in remote areas or to penetrate a fortified fence in more 
populated areas.
    With that, Mr. Chairman, I look forward to hearing from our 
witnesses; and I thank you.
    Mr. Souder. As you heard, we have two votes. Let me just 
briefly do two committee process things. I ask unanimous 
consent that all members have 5 legislative days to submit 
written statements and questions for the hearing record. Any 
answers to written questions provided by the witness also be 
included in the record.
    Without objection, so ordered.
    I also ask unanimous consent that all exhibits, documents 
and other material referred to by members may be included in 
the hearing record and that all members be permitted to revise 
and extend their remarks; and, without objection, it is so 
ordered.
    The subcommittee issued previously a border report. We have 
held hearings in San Diego, two in Arizona, one in Las Cruces, 
New Mexico, one in El Paso. The purpose of this particular 
hearing is to focus as one part of a larger immigration debate. 
But I agree, as all of us do, that it takes a comprehensive 
approach.
    I appreciate your patience, Mr. Reyes and Mr. Pearce. If 
you can come back after the vote, we will go right to your 
testimony.
    With that, the subcommittee stand in recess.
    Congressman Pearce, is it my understanding you can't come 
back down to try to do your testimony?
    Mr. Pearce. Yes, I would shorten it greatly. I do have a 
commitment in the Senate.
    Mr. Souder. Subcommittee is reconvened for Mr. Pearce's 
statement. We will insert your full statement in the record.

 STATEMENT OF THE HONORABLE STEVEN PEARCE, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW MEXICO

    Mr. Pearce. Thank you very much, Mr. Chairman.
    The issue is vitally important in the Second District of 
New Mexico. As you know, we have about 180 miles of very open 
border. Columbus, New Mexico, lies on the border with Paloma, 
796 residents. Basically, we are on the front Lines of the 
border question.
    Too often, we want to talk about immigration and we put 
border security, illegal immigration and legal immigration into 
the same discussion and it makes it somewhat more difficult to 
arrive at a conclusion. But, as far as border security goes, 
the law enforcement officers and the district attorneys in my 
district have been uniformly agreeing that a fence per se will 
do very little good. We already face the prospect of ranchers 
in that remote area putting up their fence, and at night the 
fence simply goes away and disappears into Mexico. Without 
constant monitoring, the belief is that we will face the same 
problem with a fence of any sort. If we are going to do 
constant monitoring, then the idea is why don't we use the 
constant monitoring and that is the greatest deterrent.
    We are finding already with the Border Patrol being 
augmented by the National Guard that just the presence of the 
National Guard is beginning to decrease the flow of activity at 
the border. We know that increased presence would work. We 
think that the vehicle barrier, that is the 4-inch pipe that is 
cemented into the ground, laid across the border, that is more 
permanent and does not disappear overnight, that has been 
proven.
    But, basically, what the National Guard is bringing right 
now is increased technology, new surveillance techniques that 
the Border Patrol does not have, increased presence and 
increased ability to interdict.
    Many of the times Border Patrol agents in the Second 
District tell me these are the guys in the field, that they 
have 2 to 3 hours in the field each day. The rest of their time 
is on paperwork.
    So as we move through the next 2 years, keep in mind that 
the Federal law enforcement training facility is actually in 
the Second District, the Southern District of New Mexico, and 
they are well on a path to have the 10,000 additional agents 
trained in if not the next 2 years then certainly by the third 
year. So we believe that the increased presence of the vehicle 
barrier, a graded road right along the border and new 
technology would be more than adequate, would forestall the 
requirement to sit and monitor a fence day in and day out.
    Border security is an absolute must. We cannot leave this 
session this year in my opinion without achieving something 
significant on border security. I just don't think in the wide 
open spaces, and especially the Southern District of New 
Mexico, that a fence will do what we expect and want it to do, 
and we will invest several years in chasing that particular 
technology.
    That summarizes all that I had, and I have given the 
chairman thanks for the ability to go ahead and testify.
    Mr. Souder. Mr. Reyes, are you going to be able to return?
    Mr. Reyes. I will be back, yes.
    Mr. Souder. Thank you very much.
    With that, the subcommittees stands in recess.
    [Recess.]
    Mr. Souder. Subcommittees will come to order.
    I now move to Congressman Silvestre Reyes from the 16th 
District of Texas. We look forward to your testimony.
    Mr. Reyes. Thank you, Mr. Chairman.
    As my colleague from California was saying, this is a 
beautiful, beautiful room. And I will be honest with you. I am 
more comfortable up there sitting, and this is a different 
perspective from down here. But I would be happy to defer to my 
chairman if he wants to go first.
    Mr. Hunter. I want to listen to Silve Reyes' remarks, but, 
first, Mr. Chairman, just to say that he sat in a hearing like 
this in 1996 when we proposed a fence in San Diego. As a Border 
Patrol chief from El Paso, and I think the greatest Border 
Patrol Chief in our history, Mr. Reyes sat there with the 
Director of INS, who was opposed to his position, and other 
folks from the administration, from the Clinton administration 
hounding him.
    I had an opportunity to ask him if he thought that the 
border fence would work in San Diego, with certain people just 
glaring daggers at Silve Reyes. So this guy who was on active 
duty--not like an admiral who is retired and comes in and tells 
you what to do when there is no danger or pressure--said I 
think the fence will work, and it did work.
    We built that fence. We pulled border murders down from 10 
a year to zero. We pulled down the drive-through drug smuggling 
from 300 drug trucks a month ramming that border to zero. We 
pulled down smuggling of narcotics and people by more than 90 
percent. The fence did work. It took us a while to get it up; 
and, as you know, we just got this waiver to finish smugglers 
gulch, that last gap in the San Diego border fence.
    I guess my best--my real job here is to introduce Silve 
Reyes. But, Mr. Chairman, let me just tell you I think the 
greatest Border Patrol chief that this country has ever had, 
Silve Reyes.

STATEMENT OF THE HONORABLE SILVESTRE REYES, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Reyes. Well, that is a tough act to follow; and my mom 
always told me when something like that happens just shut up 
and sit down and don't say anything because you can only go 
downhill from there.
    But I really appreciate the comments of a very good friend 
and colleague and fellow Vietnam veteran, I might add. We have 
been friends a long time, and I think the feelings are mutual 
and reciprocal in terms of the esteem and high regard that I 
hold for my good friend, my chairman, Duncan Hunter. So I 
really appreciate those comments.
    I will tell you, back when that situation happened, it was 
a situation that was tough. Because when you come here to 
testify--and I see some of my former colleagues in uniform 
here, and they are going to be testifying. Back when I was a 
chief, you had certain parameters that you were told you were 
going to stay between those lines.
    This was across the line, but when a Member of Congress 
asks you for your opinion you give it, and so I was happy to do 
that, about the very issue that we are talking about this 
afternoon. So I appreciate the invitation to be here and be 
here with you all that I consider friends and talk about the 
issue of border security.
    As you know, Mr. Chairman, this hearing is one of a series 
that has been scheduled by the House leadership for July and 
August on border security and immigration. Regrettably, I 
maintain that these hearings are more about politics than 
policy; and I believe--strongly believe--that the American 
people would be far better served if Congress were trying to 
work out a compromise on comprehensive border security and 
immigration legislation with the Senate. I think that is what 
we ought to be doing.
    But as a 26\1/2\ year veteran of the United States Border 
Patrol and a Member representing a congressional district on 
the U.S.-Mexico border, I believe that I have a responsibility 
to share my experience with my colleagues, with the hope that, 
almost 5 years after a terrorist attack on September 11th, 
Congress and this administration will finally do what needs to 
be done to secure our borders and to keep our country safe.
    In fact, I have testified, as my good friend mentioned, on 
issues of border security and border enforcement many times 
before Members of Congress. Over 11 years ago, as my chairman 
said, while I was still chief at the El Paso sector of the 
Border Patrol, I testified before the Judiciary Committee on 
the issue of border security and the strategy that we 
implemented in El Paso, which was known as ``Operation Hold the 
Line.''
    At that time, in response to a question that was asked by 
my good friend--although at the time I was wondering if he was 
my good friend, putting me on the spot like that--but I 
testified that border fencing can be an essential tool for 
curbing illegal entries in communities like El Paso and San 
Diego and other densely populated areas. Urban areas of the 
border region need special kinds of tools such as barriers and 
fencing.
    Since being elected to the Congress almost a decade ago, I 
have consistently supported and continue to support Mr. 
Hunter's efforts to facilitate construction of a border fence 
in the San Diego area. Unfortunately, however, there are--my 
opinion--no one-size-fit-all solutions for border security. 
That is why I am in opposition to the provision in this bill 
for a 730-mile border fence that is in H.R. 4437, as well as 
some other provisions for fencing 2,000 miles on the southern 
border and 3,000 plus miles on the northern border, because I 
think it wastes money. I think it is not good investment of 
taxpayer dollars.
    I also believe very strongly that if you want to know what 
works in that particular area, as my friend from New Mexico 
mentioned, you go on the chief of that sector. In fact, I have 
recommended many times that what we ought to be doing is 
holding field hearings, bringing in the chief of that area and 
saying, what do you need? If it is fencing, the chiefs will 
tell you. If it is something else such as technology, some 
other kind of infrastructure support, construction and things 
like that, they ought to be given that opportunity.
    Not that headquarters people don't know what they are 
talking about, but the person that is in charge of the area 
that you are trying to address is the best one to tell you what 
he or she needs in that area.
    I think that it is important for us to remember that 
instead of investing--and the latest figure that I have, the 
figure that--and this is a figure that is contested by 
different people, but $2.2 billion, which is what we figure 700 
miles of triple fencing will cost, with that same $2.2 billion 
you can recruit and train and equip and provide the technology 
support to double the United States Border Patrol.
    The Border Patrol today has about 12,000 agents. You can 
hire another 12,000 along with the vehicles, the equipment, the 
technology to support them, the radio communications, equipment 
to be able to double that force.
    As a former chief I can tell you, boots on the ground, an 
individual there with the proper force multiplier such as 
cameras that can see in day and nighttime operation, sensors, 
both infrared and magnetic and other sensors that are available 
today, in today's technology arsenal, unmanned air vehicles can 
be very, very useful and very helpful to the enforcement 
presence along that border region.
    So I think that is a much better investment of taxpayer 
dollars.
    I believe that when we are talking about a strategy, when 
we are talking about investing and when we are talking about 
what works, let's listen to people like Chief David Aguilar, 
the national chief of the Border Patrol, who we had--much to 
the credit of my chairman here, we had him testify in our 
committee; and he was asked several times, will a fence work? 
And he testified that he would rather spend the money on other 
things.
    Just a couple of weeks ago when we were in Laredo, the same 
question was asked of Chief Garza, who was in charge of the 
Laredo sector, about fencing; and he said, sure, there are some 
areas in the heavily populated areas where we both have 
mentioned already where fencing is a good idea, but certainly 
fencing all through the Laredo sector was not money well spent.
    So I am here to share with you and provide the benefit of 
26\1/2\ years as a Border Patrol agent, the last 13 years as a 
chief in both south Texas, in McAllen and El Paso, where I had 
responsibility and jurisdiction over west Texas and all the 
State of New Mexico, so I know the area that my friend 
Congressman Pearce was talking about. I very much appreciated 
his testimony, and I promised him that I would give him my 
testimony, because I think we have to work together.
    I think we have to understand that there is an obligation 
that we all share that we have to do a good job in protecting 
this country, especially 5 years after 9/11. I find it 
unconscionable that we are still wrestling with this issue 5 
years after September 11, and when we continue to have 
information that our country is still under the threat of 
terrorism.
    So I am pleased to be here. I am particularly honored to be 
here with my good friend and chairman, Duncan Hunter, because I 
know in his heart he wants to do what is right. I know 
sometimes politically we don't agree, but I am hoping that 
working together, finding out what is best by talking to the 
chiefs that are in those sectors, that we will come up with a 
solution that we can all support.
    So, with that, Mr. Chairman, I appreciate the opportunity. 
I will be happy to answer any questions.
    Mr. Souder. Thank you very much.
    Mr. Souder. Now I would like to recognize the chairman of 
the Armed Services Committee. Thank you for letting us your use 
room today. I appreciate it very much. I look forward to your 
testimony. Mr. San Diego, you are the father of the fences.

 STATEMENT OF THE HONORABLE DUNCAN HUNTER, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Hunter. Thank you, Mr. Chairman. I hope we can get a 
strong endorsement from my colleague for the 700-mile Silvestre 
Reyes fence.
    Mr. Reyes. Please--I want to be reelected.
    Mr. Hunter. And I might mention one other thing about 
Silvestre Reyes. I think of all the Members of Congress he by 
far he has been to Iraq more than 10 times.
    Last time we were there together we had the unique 
experience as Congressmen of being mortared into the church. We 
had a couple of mortars coming into the lodge; and our escort 
officer said, quick, get into this building. We rushed into it. 
It was an old Saddam Hussein movie theater. He said, no, get 
all the way inside.
    We opened up the doors, and it was surreal. We walked in, 
and they were having a 400--about 400 GIs were in there having 
a big Baptist revival. So we sat through the church service. I 
think it was very instructive for us. We asked if we could 
leave; and they said, no, you have to wait until the mortar 
attack was finished. We were kept there by the attack.
    Mr. Chairman, let me tell you why I think--first, why I 
have explained that the first section of the Silvestre Reyes 
fence has been so good, but I want to give you the genesis of 
that fence, too, from the analytical point of view.
    San Diego was then a no mans land when we built that fence. 
It was so bad we had armed gangs roaming the area between 
Tijuana and San Diego, some of them with automatic weapons; and 
they would accost the people coming in illegally. They would 
often rape the women. They would rob people, because people 
typically have cash on them when they are coming north. They 
brutalized people.
    It was so bad that Joseph Wambaugh, the best-selling 
author, wrote the book Lines and Shadows about the San Diego 
undercover team who dressed like illegal aliens and hung out on 
the border waiting to be attacked or confronted by the gangs. 
They would obviously be well-armed, and they would confront the 
gangs and either have shoot-outs or arrests. It was that bad 
when we built the fence.
    The Sandia Laboratory in New Mexico came up with the idea 
of doing a triple fence, and the reasoning was this. They said, 
you are not going to be able to interdict people coming across 
the border or narcotics--and their thing was directed mainly 
toward--it was done under the funding for the narcotics 
interdiction program--unless you have an impediment. They said 
you can't just have people. You have to have an impediment.
    So their first design was a fence that was right on the 
border, then a Border Patrol road, then a second fence, which 
was really kind of the stopper, the primary fence, then a 
second Border Patrol Road and finally a third fence.
    The point was, by having those impediments, you would--as 
long as you had a few people manning those fences and driving 
between them, patrolling between them, a smuggler would have to 
come across the first fence, go across the Border Patrol road 
on American soil. If you only had one fence, he could sit in 
Mexico with impunity, and he could cut a hole with his welding 
gear, and there is nothing you could do about it. If he had to 
come over on American soil, cross the first Border Patrol road, 
sit down with his welding gear, cut a hole, proceed through 
there, go to the next, cross another Border Patrol road and cut 
another hole, then if you had a minimum of manning on the 
border you would be able to interdict him; and, in fact, that 
is what has happened where we have the triple fence.
    In fact, the Clinton administration, we passed the law 
that, in 1996, that said you have to have a fence, you have to 
build a triple fence in that first 14 miles. They said, you 
know, we really would rather not have to build a triple, will a 
double fence do? And we had a meeting with him, and I talked 
with Silvestre. I said, let's try it. We did with the 
stipulation that if it worked we wouldn't have to put the third 
layer in which would cost more money and require more land 
being taken. And the double fence worked. It was that good, and 
it works today.
    Now the reason that I disagree with my colleague and I 
think it is good to send it across urban--or desert areas as 
well as the city areas is this.
    Right now, you have got people who are going to cross--come 
into the Arizona desert; and if we have the same number of 
deaths we had last year, we will have about 400 people die of 
dehydration or sunstroke in the desert. The figure that my 
brother gave me the other day--and you may know my brother is a 
well-known humanitarian who goes out and puts out water in the 
desert to keep people from dying of thirst--the figure he gave 
me the other day was 77 people had died so far up to about a 
week ago in the desert and had been found by the Border Patrol.
    So if you have only the urban areas fenced and you have the 
desert unfenced you are going to going to continue to have 
people to go across. Coyotes, they tell abandoned people, once 
they have gotten their cash from them, the road is only 2 miles 
to the north; and it may be 20 miles to the north. So the sun 
comes up and you see this group of people out desperately 
trying to find the road or find the guy that was supposed to 
pick them up. They can't find them, and they end up dying in 
the desert.
    So you have a need. You have a need to have a secure 
border. When Sandia Laboratory did an analysis of how you 
secure a border, you can secure it with personnel, but they 
found that it was so massively labor intensive, if you have no 
impediment whatsoever, you have to have more personnel. They 
predicted that if we had the impediment, that is, if we had the 
border fence, we would be able to pull people off that section 
of the border, and we would be able to do the job with fewer 
people.
    Now I remember one time the San Diego sector was so bad--
and primarily that first 14 miles--I think it was the number 
one smuggling corridor in America where most of the narcotics 
were smuggled and most of the people were smuggled. It was so 
bad at one time--and, Silvestre, correct me, correct me if I'm 
wrong--but I think 25 percent of the entire Border Patrol in 
the United States was in the San Diego sector.
    Mr. Reyes. Close.
    Mr. Hunter. Is that roughly accurate?
    We have been able--since we have been put the fence in, we 
have been able to pull border patrolmen off that sector. 
Because you have the impediment. So the initial analysis by 
Sandia that by having a fence allows you to effectively 
leverage your personnel is, I think, accurate.
    I think because you have so many people now coming across 
in the desert--and let me give you one other example. We have 
the Yuma testing range in Yuma. In fact, we are going to be 
holding our hearing out there on how the National Guard is 
doing in backing up the Border Patrol and supporting them here 
in a week or two. But there is 37 miles of Yuma testing range 
which coincides with the border.
    We have had to stop, according to the military, a lot of 
training and testing at the Yuma testing range because you will 
get reports that people have come through, come across, come 
across the border from Mexico. You don't want them to get hurt, 
so you stop the training and the testing.
    This is where we are training folks that are going to Iraq 
and Afghanistan. That is where we test important equipment. 
Both the Air Force and Marines have lost millions of dollars of 
training time each year.
    I think also there is probably a health problem and an 
accident problem that relates to that, but that is another 
reason to have that fence on that 37 miles of border.
    If that testing range was in the interior of the United 
States--let's say it was up by Salt Lake City, and you had 
people wandering into the testing range. The first thing you do 
is what? You would fence it.
    So what I went to do, I think the 700 miles of fence, the 
first section between Calexico, California, and, Douglas, 
Arizona, which is the area in which most of the people who day 
of dehydration and sunstroke will die this year, our language 
in our bill provided for that to be sewed up first. And the 
first thing we require--because we knew we couldn't have a 
fence in that 392 miles quickly. But when we put this thing 
together and it was adopted on the floor in an amendment, it 
provided for interlocking cameras to be in place by May 31st; 
and we did that because that is the start of the hot season. We 
figured if we had those in place at least you would have 
cameras that could pick up people coming across and you could 
move Border Patrol out very quickly to those areas. They could 
intercept them. So the cameras would help provide interception 
and then have the fence done by the end of the year.
    Now just one thought. I know that--and I agree very 
strongly with Silvestre Reyes--that Border Patrol chiefs have 
lots of insight, and they know in many cases how to custom-make 
an interdiction operation in their particular area. But as I 
recall, except for Silvestre Reyes, who was from El Paso, when 
we got the San Diego fence in, as I recall, we didn't have much 
support from the San Diego sector. So you would have folks say, 
well, at San Diego, we talked to Border Patrol people in San 
Diego. They don't think the fence is going to be good. But it 
took a guy from El Paso to stand up for this thing under 
enormous political heat and support it.
    So I think the fence is good.
    And there is one last reason why I think you have to have 
it. I think in this age of terrorism you have to know who is 
coming across our border and what they are bringing with them.
    We have got a criminal population of about 250,000 people 
in Federal, State and local jails, many of whom move back and 
forth across the international border. Those folks don't care 
about a guest worker program, they don't care about any type of 
regulation that regulates the front door of our country, they 
only care about being able to move back and forth. Like the 
criminal gangs that used to exist in San Diego, they use that 
border region where they could go south if pursued from the 
north and go north if pursued from the south. They use that as 
a safe haven.
    You are going to have--no matter what kinds of policies we 
have over the years with respect to immigration, you are going 
to have that criminal population; and we have now a terrorist 
population to be concerned about.
    So I think the fence is well-advised. I have seen figures 
that say it is going to cost up to $3 million a mile, $4 
million a mile. I remember when we got the first 14 miles of 
fence we had a bid for $1.4 million a mile. That ended up being 
a lot more money because we ran into environmental problems. We 
now have an environmental waiver, and we couldn't solve 
Smugglers Canyon or Smugglers Gulch for some 6 years because of 
environmental problems and the courts that were inclined to 
keep us from building that border fence.
    So I think the fence is proven to have worked in San Diego. 
I think because you have people going across the desert in 
large numbers, many of whom are dying in the desert--if you had 
400 high school kids a year drowning in a canal, the first 
thing you do is fence the canal. You wouldn't care if the canal 
was in the country or in the city. You would put that 
impediment up.
    I think that having a fence, if we put--if we accompany 
that fence with sensors and we accompany it with a modicum of 
personnel, we will gain great leverage from having either a 
triple fence or a double fence.
    So put me down as a strong proponent of the fence and put 
my good friend, Silve, down as undecided.
    Mr. Souder. Thank you very much.
    Before yielding to Chairman Lungren to begin the questions, 
let me point out again that this subcommittee--this is one of 
many hearings we have held on the southwest border in San Diego 
and places in Arizona.
    Thank you very much. Before beginning to yield, let me 
point out I have been to a lot of the places in Arizona and New 
Mexico, in Texas at multiple locations. In addition to the 
northern border, we've been north at Blaine, Washington, in 
Detroit, in Niagara Falls, Buffalo and upstate New York and in 
upstate Vermont looking at both borders over a period of 5 
years, that is in addition to Homeland Security. Obviously, it 
is a complex problem, but when you're dealing with the complex 
problem, you have got to separate into unit we are covering 
today is the fencing unit.
    I would like to yield to Chairman Lungren.
    Mr. Lungren. Thank you very much. And our subcommittee is 
going to be holding a hearing up on the northern border up on 
the State of Washington. I would be interested, Congressman 
Reyes, I was not one that immediately jumped to support of the 
fence concept that Duncan Hunter had when I was here the first 
time around. I thought we might try some other things. I was 
down and I remember the soccer field we used to have down there 
as well as the other parts and was on the Immigration 
Subcommittee at that time, but I am convinced from the 
experience we had in San Diego that he was right and you were 
right at that time.
    My question is why do you have--agreeing with you that I 
don't think it makes sense to do the whole border, why do I 
detect some reluctance on your part to support the idea of 
replicating the San Diego experience in other parts of the 
southern border?
    Mr. Reyes. And I don't. At the time I was chief, I 
advocated that there was a strip right outside of El Paso in 
the New Mexico side called Sunland Park where trains would come 
right adjacent to the border from here to that wall right 
there. We had a tremendous problem with these criminal gangs 
that burglarized the trains. They would pop the air hose. It 
would come to a stop, and they'd dump the merchandise, and it 
would be stolen back into Mexico.
    So I advocated very strongly for a fence in that area. I am 
not opposed to fencing. I am opposed to using fencing as a 
solve all for the whole border. At that time I was advocating 
for that fence. I was asked by a number of reporters how much 
fencing do we need, and at the time I guessed probably less 
than--less than 10 percent of our border needs to be fenced. My 
thinking is in the heavily populated areas, you remember that 
the chairman here mentioned the Yuma testing facility and it 
was 37 miles, I think. I am all for that to fence that, fence 
that area. And that is why I am saying go to the chief, get his 
recommendation, his or her recommendation, look at what the 
enforcement challenges are.
    I agree with my colleague from New Mexico, Congressman 
Pearce, that what in some of those areas where it is easy for 
narcotics smugglers to drive across the border because there 
are those areas that that is happening right now, bury those 4-
inch pipes with a 1-inch cable where they are not able to do 
that. If you do that and if you slow them down with a physical 
barrier and then you have the cameras, that is why I advocate 
technology. You have the cameras that will tell you what is 
going on. You have a sensor. You have a camera and you have an 
infrastructure deterrence, that is all you need.
    I just find it a waste of money to put either a double or 
triple fence in the areas that Steve Pearce was talking about 
because it is totally unnecessary. You can have sensors out 
there that are--that alert the Border Patrol that can--that you 
can monitor with cameras that you can--you can have agents 
strategically placed that will respond to those areas and catch 
people that are trying to enter that area illegally.
    Mr. Lungren. Let me ask you because of your experience in 
the past, and I know your continuing relationship with people 
who are in what we now call CBP, are you satisfied that we have 
integrated the equipment that is already available to CBP in 
ways to create virtual fences where that may make sense?
    Mr. Reyes. We haven't done a good enough job to give now 
CBP, formally Border Patrol, the technology and the equipment 
that is available to do exactly this, to have technology out 
there, such as cameras that can see in the day and the night, 
that sensors that alert those cameras to focus in a specific 
areas where Border Patrol units can respond to, we have not. I 
mean, the equipment is available, the technology is available, 
but we haven't provided that kind of support as a Congress.
    Mr. Lungren. I know you mentioned boots on the ground, and 
I support--we all support here, I think, increased number of 
Border Patrol personnel but man, the only way we succeed on the 
battlefield is not only boots on the ground, but with our 
application of technology. I mean, that is where we lead the 
world, and I just don't think we are leading the world on our 
southern border. And I support the idea of a fence, but I 
support the idea of a virtual fence, and I support the idea of 
a physical fence where necessary.
    Mr. Reyes. Exactly.
    Mr. Lungren. And I don't know. I have just heard enough 
things that suggest to me that, you know, cameras aren't that, 
I mean, that is not rocket science, and some of the software 
necessary needed to integrate these systems is not rocket 
science. Where are we on that?
    Mr. Reyes. Because we haven't funded and we haven't 
prioritized my way, in my opinion, the way we should. When I 
came to Congress here 10 years ago, almost 10 years ago, I felt 
very confident that with my experience I would be able to 
convince individuals like Duncan Hunter that I have known for 
20 years, I guess Lamar Smith, Henry Bonilla, Charley Rangel, 
who I first met because he was heading a task force on 
narcotics trafficking when I was chief in McAllen.
    I figured it would be easy to convince them that we ought 
to be hiring between 1,000 and 1,500 agents a year till we get 
to a threshold of about 20,000, re-evaluate and see where we 
need to be. I also, having used the equipment, figured it would 
be easy to convince Members of Congress with the authority to 
put cameras out that I know work and worked 10 years ago, so 
the technology has gotten much better now.
    Sensors that we use, the technology where the sensor goes 
off and the camera is looking this way, but that sensor goes 
off and it turns and investigates where that sensor went off; 
all of these things that have been available, we haven't done. 
I mean, I have tried time after time after time to put that 
kind of technology, to put those kinds of resources into 
different bills and have been basically voted down.
    The overriding reason is always resources. We don't have 
the money. Well, I'll tell you what, we didn't have the money 
prior to September 11th to do a better job of screening 
passengers and look what it cost us. It cost us over $300 
billion plus over 3,000 lives. I just think as a Congress, we 
owe it to the American people to do a better job of putting 
those resources out there. I have been infuriated that we are 
building whole neighborhoods in Iraq. We are providing brand 
new garbage trucks and we don't prioritize the same kind of 
technology for our border communities. We don't need garbage 
trucks, but we do need this kind of infrastructure support and 
spending those $2.2 billion on additional Border Patrol agents 
just makes sense.
    Mr. Souder. Mr. Cummings.
    Mr. Cummings. Thank you very much. I want to thank both of 
you for your testimony. And I wanted to talk to you very 
briefly, Congressman Hunter, and you know, I have often stated 
in my political career that we have one life to live and this 
is no dress rehearsal and this is the life. And that so many--
and this immigration issue is a very, very difficult one and 
very complex, when you look at the fact that people are trying 
to get to America for a better life. And they have that one 
life to live and when they are well willing to risk it, that 
says a whole lot.
    But having said that, I am wondering when we look at the 
tunnel, first of all, and I want to thank you for something 
else. I have never heard such a great explanation of the 
fencing, the triple fencing, double fencing and it makes sense 
what you said. It makes a lot of sense.
    But there are some things that concern me.
    First of all, we have not addressed the issue--you all did 
not address and maybe address it before I got here, but San 
Diego has had some tunneling problems; is that correct?
    Mr. Hunter. Yeah.
    Mr. Cummings. Now, how do we deal with the tunneling 
problem as it relates to the fencing? Does that mean we have to 
dig deeper, do the walls have to be thicker? How is that 
affected by the things that you all said, and you may want to 
address that also Mr. Reyes.
    Mr. Hunter. We have got some capability to detect tunnels. 
Some of it is--is open technology. Some of it is classified 
technology. And we found you know as you know we discovered 
recently a big tunnel in San Diego. But if you look at the 
tunnel we found in San Diego, costs arguably millions of 
dollars to dig and that has been a response to the fact that 
they can't do what they did in the old days, which was just to 
drive over with drug trucks, for example, 300 a month were just 
going right through the sage brush and ramming the border, and 
when we put the fence up, that stopped that. So you--so like 
crime the smuggling industry, and it is an industry can never 
be totally eliminated.
    What you can do like crime is make it extremely 
inconvenient. So when in the old days, a cocaine smuggler who 
could simply get in a pickup with a load of cocaine in the back 
of that truck and just put it in third gear and roll off right 
over Ota Mesa, he is now stopped by the double fence. So he's 
now got to invest a lot of money, get a warehouse on this side, 
a warehouse on this side and go through a very laborious 
process of digging a tunnel and have it, perhaps, for a very 
short period of time before it is discovered.
    So he's got to make a very massive investment, and that is 
kind of the definition of law enforcement is you make crime 
very inconvenient. You can never totally wipe it out. But I 
think to a large degree, the tunnel and the tunnels that we 
found and we found them in Texas, also, to some degree, there 
is a reflection of the success of the fence that you can't just 
go across anymore.
    So we have to keep working on those and we have got 
technology that we have been using to go after tunnels.
    Mr. Reyes. When I was first appointed chief in McAllen, 
which is in south Texas, and I got to McAllen sector, one of 
those common ways that smugglers were using to introduce 
narcotics into our country through south Texas was to fly it 
in. They would fly it below the radar screen, which meant 
flying low at night without lights. It wasn't unusual. My 
officers would tell me that they'd be out on operations along 
the river, and they would hear these aircraft that would come 
in, they couldn't see them because they didn't--they ran 
without lights but they would come in and drop their cargoes 
off just north of our checkpoints, which were about 50 miles 
north of the border.
    We solved that by putting up the aerostat balloons with a 
radar that looked down and we could detect and that problem 
stopped just like that. They stopped doing that.
    It is like a game of chess. You see what the smuggler is 
doing. You counter that and then they are going to do something 
else. It's not hard to figure that if we find a virtual fence 
and a combination of different resources on the southern 
border, to stop people from smuggling either people or 
narcotics, that will render the seacoast vulnerable. I mean, 
they will start coming up with fast boats along the gulf coast 
and along the southern California coast and try to get around 
that way, which means then we will have to beef up the Coast 
Guard and maybe give them assets to be able to address that.
    But that is going to go on as long as it is profitable for 
people to smuggle narcotics and as it relates to people, I 
think the solution is much simpler and I've been banging my 
head up against the wall telling you, my colleagues, that we 
ought to be enforcing employer sanctions. If you remove the 
magnet for why people are coming here, you are going to stop.
    In 1986, when the Immigration Reform and Control Act passed 
that everybody now derides the amnesty that we gave back then, 
but I will tell you, the most effective tool we had was the 
publicity that was generated to tell potential illegal entrants 
that they weren't going to be able to get a job because 
employers were going to be checked.
    Well, what happened? We passed the law but we didn't give 
INS Border Patrol the resources to enforce it. Where we had the 
resources along the border region because I did employer 
sanctions work. My agents did that. It worked very effectively. 
The reason people today say that employer sanction has never 
worked is because we never gave them the resources. If I had 
been President Bush several months back when he announced the 
National Guard going to the border, I submit to you it would 
have been much more effective and it would have been 
dramatically more meaningful if he had said that he was 
directing the Secretary of Homeland Security to identify 1,000 
officers that were going to fan out around the country and 
start enforcing employer sanctions. That one aspect would have 
been much more effective than the 6,000 or 10,000 or 8,000 
National Guard troops that he did announce, which, by the way, 
are also absurdly expensive at a time when we can't afford.
    Mr. Hunter. Let me, if I could respond to that last point 
that was made. I support employer sanctions, but we still need 
to have a fence and we still need to have roads and lights and 
sensors and lots of border patrolmen, which I also support, and 
the reason for that is this: No matter how we adjust what I 
would call the front door with our immigration policy, the idea 
of having a--having a way where an employer can verify if his 
people are legally in the United States and having sanctions 
for people who willfully abuse that and willfully break the law 
and don't--and ignore the law on that, you are still going to 
have this massive population, 250,000 criminal aliens, quarter 
of a million in Federal, State and local penitentiaries, who 
come across and could care less about whether they are employed 
or not. They come across to commit crimes and they do move back 
and forth across the border.
    Additionally, we have learned one thing, and that is that 
everybody watches television. Around the world they watch 
television. And people around the world now know that if you 
want to get into the U.S. illegally, you don't come through 
L.A. International Airport no more. You come across the land 
border between the U.S. and Mexico, or perhaps the land border 
between the U.S. and Canada.
    Now if you have a virtual fence only that is cameras, the 
virtual fence only works if you have a response force very 
close by that can move very quickly, and Mr. Chairman, I would 
ask that the Sandia Report that was done by our national 
laboratory, the guys who design our nuclear weapons 
incidentally, that that be included into the hearing because I 
think it is very instructive and that they looked at this 
thing, and they said you have to be able to slow people down 
physically.
    You have to have an impediment, and if you have the 
impediment, that gives that much more leverage to your people, 
to your border patrolman. So you don't need as many patrolman, 
and I think if you look at the numbers of Border Patrol that we 
had in the San Diego sector, 25 percent of the entire force for 
the entire Nation was in this sector, that is only about 15 
miles, because we didn't have the impediments. When we put the 
impediments in place, the fence, we were able to pull border 
patrolman out of there and leverage them, the other place where 
sensors don't work.
    So sensors only work where you have a force that can 
immediately come in. The other place they don't work when we 
watch the so-called Banzai attacks that was the name given by 
the National Guard where thousands of people on a given signal 
would come across the border at once. You'd have 25 border 
patrolman waiting to catch some people. They would each catch a 
person or two and the thousands of others would rush by them 
and hit the freeways and get into cars or disappear into the 
brush, and so there were ways for people unless you have the 
impediment, and Sandia looked at this carefully, the idea of 
having only sensors or only cameras with the responsive force 
does not work.
    And I know we all like sensors. We all like cameras. But 
when we have a place like an important military base and we 
don't want people to come on to that base, we always have a 
fence.
    Mr. Souder. Mr. Dicks.
    Mr. Dicks. As I think the gentlemen knows, I serve as the 
ranking Democrat minority member on the Appropriations 
Committee. And we had a hearing just the other day, and I think 
for the--for my time here, I wanted to just mention this 
because all of the great efforts in El Paso and in San Diego 
have created a disaster in Arizona. And a disaster to our 
national parks and wildlife refugees. Let me give you a few of 
the facts here.
    Mr. Hunter. We thought you were going to complain about 
Washington.
    Mr. Dicks. We have got a problem up there.
    Illegal cross border trafficking activities cause 
significant impacts on the department of interior, forest 
service and tribal lands. Interior has four bureaus with law 
enforcement responsibilities on the southwest border totaling 
755 miles or 38 percent. I think, what is it, 1,949 miles on 
the border. So there are seven fish and wildlife refugees on 
the southwest border, totaling 162 miles or 8 percent. There 
are 1.1 million acres of Federal wildlife acres of refugees 
along the border which provide habitat for endangered species, 
migratory birds and wildlife. There are 8 national park units, 
a total of 1.2 million acres on the southwest border totaling 
354 miles or 18 percent.
    There are 155 miles of public land managed by the Bureau of 
Land Management, or 8 percent in the southwest border area. 
Land impacted within 100 miles of the border that are managed 
by BLM include 3.7 acres, million acres in Arizona, 1.8 million 
acres in New Mexico, and 3.3 million acres in California. There 
are five Indian reservations in the southwest border, totaling 
75 miles. There are two national forests. Portions of the 
Cleveland National Forest are within 5 miles of the Mexican 
border. The Coronado National Forest, Arizona has 60 miles of 
common border with Mexico. And let me just talk a little bit 
about the environmental degradation that is occurring on the 
border as we speak. And I don't think people fully recognize 
this, this is why I am trying to take my time here today to 
point out the environmental consequences on the border which 
are very severe.
    During the last 10 years, many formally pristine areas 
along the border lands have been extensively degraded by 
unprecedented levels of undocumented immigration and the 
increasingly intensive enforcement efforts of the Border 
Patrol. This degradation began when the Border Patrol started 
to focus its operations as immensed on major border cities such 
as San Diego, California and El Paso, Texas purposefully 
shifting undocumented immigration and other illegal activities 
to less patrolled and more remote areas, as has been mentioned 
here, especially lands along the Arizona border.
    As a result, the once negligible levels of immigration 
across Arizona's formidable desert and mountains rapidly 
increased. By 2003, agents and the border patrols, Tucson 
sector alone had apprehended more than 365,000 migrants 
attempting to illegally enter the United States.
    This high level of human traffic has taken a heavy toll 
throughout the Arizona border lands, especially in the easily 
scarred western deserts where migrant and drug smugglers have 
created miles of illegal roads, abandoned scores of vehicles, 
damaged rare desert springs and wetlands and left behind huge 
amounts of trash. The Border Patrol has attempted to deter 
illegal immigration within Arizona by applying the same tactics 
used in the major border cities.
    Adding thousands of additional agents bolstering off-road 
vehicles and air patrols and constructive and extensive 
infrastructure of fences, walls, lighting systems and roads. 
These actions have only resulted in further degradation to the 
already stressed national natural environment.
    And some would say that a number of these species which are 
endangered need to have the land on both sides of the border. I 
mean, I know it strikes one as well, just build a fence all the 
way across the southern border and we will take care of this 
problem, but there would be a lot of other consequences to 
doing that, and one of them is in the environmental area.
    And so as the ranking Democrat on the Interior 
Appropriations Subcommittee, which has responsibility here, I 
want to point out to my colleagues that this is a major 
environmental issue and if you guys want to comment, I would be 
delighted.
    Mr. Hunter. If we could, maybe if Larissa from my staff, 
our border lady, could put our poster up, I have got a poster 
that shows my good colleague the before and after of a--of the 
border fence in San Diego County. There it is beforehand and--
put the first one up there and get it up high where they can 
see that. That is a segment about 3 miles east of the Pacific 
Ocean, and that as you can see, all of those trails that have 
been hammered into the ecosystem there by the smugglers and 
also lots of trash thrown there. And if you look, take a look 
at that my good colleague, and now take that down, Larissa, 
that is the same stretch with the--with the fence in place. It 
looks a lot nicer.
    Doesn't have any trash and you can see that the trails have 
started to heal. In fact, we have got a--we have got a 
marshland, an estuary just north of that where the trails by 
the smugglers have been pounded so badly that environmentalists 
say it will take hundreds of years for those trails to heal.
    So stopping the smuggling, whether it's people or narcotics 
by having a fence has had a salutary effect on the----
    Mr. Dicks. What you have done is save San Diego and as the 
Congressman from San Diego, I am sure you are quite proud of 
that, but what has happened is you have shifted all of the 
traffic out to these desert areas, and now we are destroying 
Arizona and New Mexico and the public land out there.
    Mr. Hunter. That is why we want to help them with a fence. 
Then we are going to head to Washington State.
    Mr. Reyes. Well, the comment that I wanted to make was I 
originated the policy of deterrence away from apprehension 
which is what created the first picture.
    And when I wrote my after-action report, that is one of the 
things that I made a recommendation is that as we are--as we 
effectively managed the heavily populated areas because when I 
got El Paso, we were--we were seeing 10,000 entries a day, 
10,000 and that is that is tremendous in a 20-mile area. When I 
implemented operation Hold a Line, those entries went down to 
less than 500. In fact, most days they were around 200 entries, 
which is a lot more manageable.
    Congressman Hunter made mention of the Banzai charges. We 
had those in El Paso. We solved that by putting the agents 
right on the border and it, believe it or not, it took a couple 
of months, but you reeducate people that you are not going to 
come through and then whatever force you are coming, you are 
going to respond equally and it's not going to be acceptable 
and you do because today El Paso is dramatically different, 
just like that picture there of San Diego.
    But the point that I wanted to make is that we have never 
followed through and the fault goes right here, if we want to 
see whose fault it is, all we have to do collectively, as 
Members of Congress, is look in the mirror, because we have 
left the patrol, the Border Patrol in a lurch by demanding a 
comprehensive long-term strategy that involves all the things 
that I have already testified to. By not having chiefs come and 
tell us or us go ask them what is it that will work in your 
area, and yes, by protecting the border.
    And, you know, one other part of this thing that hasn't 
been said, and I will say it, is that we have got to put 
pressure on Mexico to help with their end of the border. Now 
the conversations that I have had as a member of the 
interparliamentary is that today they are much more willing to 
help and we have got to keep that pressure. The new 
administration, the past administrations have not been required 
to come up and step up and work with us on their side of it.
    Let me tell you. The cities of El Paso and Juadis, that is 
an area that has almost 3 million people. I will tell you. It 
is a better managed border today than the chaos that I found 
prior to September 1993. You go on either side of the border 
and the residents of those two cities tell you that that border 
is better managed today.
    Now are there economic implications, and have other things 
been impacted? Yeah. But you have to do stepping stone, 
stepping stone-type process to make sure that as the flow 
shifts, two things very important. One, the flow is not going 
to shift in the same numbers. In other words, when I stopped 
the 10,000 entries in the 20-mile section between Juadis and El 
Paso, 10,000 people didn't rush out to New Mexico to go through 
that area.
    It was significantly reduced, and I am talking about better 
than 9,000 decided, you know, I am just going to--I am just 
going to stay in Juadis and not go back and forth. So there are 
those kinds of consequences, but we simply, as a Congress, have 
to--if we are really serious and I submit it is deadly serious 
with the threat that we are facing with terrorism, we have to, 
on a bipartisan basis, we have to be serious about that and 
give the Border Patrol, the Customs and Border Patrol today the 
tools that they need and the support that they require by 
working with Mexico to come up with these solutions.
    It's in everybody's best interest.
    Mr. Souder. I thank the gentleman from Texas.
    We are going to move ahead to the second panel. I didn't 
get a chance to question on the first panel either. Chairman 
Hunter had to leave at 4 o'clock.
    Mr. Reyes. I have one request. I would like to submit my 
prepared text for the record, and I know Chairman Hunter also 
had a prepared text that he wanted to go into the record.
    Mr. Souder. Yes, we will be happy to submit both for the 
record. Also he referred to the Sandia Report, which is 700 
pages. We will get an update on that. Thank you very much for 
participating.
    Mr. Lungren. I just want to mention the pictures that Mr. 
Hunter have are very instructive about before and after, but as 
a southern California native, I must say in a manner of full 
disclosure the after picture looks like it was taken in 
December, and the before picture looks like in August and while 
the fences helped a great deal, I don't think it greened up the 
setting there.
    Mr. Souder. Thank you very much.
    Our second panel, Mr. Kevin Stevens, Senior Associate Chief 
of Customs and Border Protection here on behalf of CBP and if 
you will remain standing.
    [Witness sworn.]
    Mr. Souder. Let the record show that witness responded in 
the affirmative.

STATEMENT OF KEVIN STEVENS, SENIOR ASSOCIATE CHIEF, CUSTOMS AND 
                       BORDER PROTECTION

    Mr. Souder. Thank you very much for your patience with the 
vote and along with the first panel. I look forward to your 
testimony and to questions as to what the Border Patrol has 
done in the fencing area in the Marlboro states.
    Mr. Stevens. Thank you, Chairman Souder.
    Chairman Souder, members of the subcommittee, I appreciate 
the opportunity to testify before you today on behalf of Custom 
and Border Protection and the Border Patrol. I am Kevin 
Stevens. I am the senior associate chief for Southwest Border 
Operation for the Border Patrol. I've been in the patrol for 26 
years. I've been a field agent both on the southwest border and 
on the Canadian border. I've been a field commander, tactical 
officer, and I've been a strategic planner, and in my present 
position, I am responsible for strategic planning and 
deployment of resources to the southwest border on behalf of 
the Border Patrol.
    I have, as a field commander and a field agent, I have 
lived the issues. I am very familiar with fences. I was the 
patrol agent in charge of the Nogales Border Patrol in Arizona 
for 2\1/2\ years, and I understand the dynamics of tactical 
infrastructure of technology, the proper mix of personnel and 
technology as it is employed.
    And I understand both the strengths and the weaknesses of 
fencing and other tactical infrastructure.
    The long and the short of it for me is that border security 
is about counterterrorism. Border security is about preventing 
narcotics from coming across the border. Border security is 
about preventing criminals and people who will do us harm from 
entering the United States.
    Border security is about maintaining our economic security 
and facilitating trade. Border security is about preventing 
us--preventing diseases from crossing the border and coming to 
this country that can harm us, either diseases carried by 
people, plants, animals.
    Border security is an all-threats issue. I have heard of a 
lot of things discussed today related to the issues related to 
a chaotic border to include the environmental issues.
    Border security is a major step towards resolving many of 
those. Those issues are mitigated by virtue of a controlled 
border.
    In our planning, as we have moved forward, the key elements 
of border control have been, and continue to be that we must be 
able to detect the entries when they occur. We must be able to 
identify the threat and classify it. We have got to know who 
we've got coming across, what they are doing and where they've 
headed. We have got to have the capability to respond and 
effectively respond to intrusions and bring them to appropriate 
law enforcement resolutions.
    Meeting the elements of border control will require this 
appropriate mix of personnel, infrastructure technology, rapid 
mobility, and enforcement capability. The mix of those 
different components of the border control or border security 
mix will depend on the terrain, the activity levels. Urban 
environments are going to require a different mix of those 
sources than maybe the more remote or rural environments.
    Where we have the tactical advantage, and I have heard that 
mentioned already today, we may be able to apply a different 
mix of the resources. But ultimately, the goal is to make our 
officers and our agents as effective and efficient as possible 
in as safe a border environment as we can provide for them to 
gain, maintain and expand control of our Nation's borders as 
rapidly as we are able to do so.
    I am not going to spend a significant amount of time 
talking because I would expect you have many questions for me 
as a strategic planner and responsibility for the southwest 
border of the country for the border patrols operation. And a 
lot of what I probably would have talked about has been 
discussed in a variety of levels today. So with that, I am 
going to close out with we are committed to securing this 
Nation's borders. We understand what it is going to take to do 
so. And I open it up to questions.
    [Prepared statement of Kevin Stevens follows:]

                  Prepared Statement of Kevin Stevens

    Chairman Lungren, Chairman Souder, Ranking Member Sanchez, Ranking 
Member Cummings, and other distinguished Members of the subcommittees, 
it is a privilege and an honor to appear before you today to discuss 
our latest efforts along the border, which include the critical role 
tactical infrastructure has in assisting the Department of Homeland 
Security (DHS), and especially U.S. Customs and Border Protection 
(CBP), in our mission of securing our Nation's borders.
    Our immigration system is broken. Every day, thousands of people 
try to enter our country illegally. Most of these people are coming to 
America to work and provide a better life for their families. Our 
strong economy creates the demand for these workers and the migrants 
happily supply the labor. After all, in their home countries, they make 
only a fraction of what they could make in the United States. This 
demand for cheap labor creates tremendous pressure at the border--
making our job to secure the border very difficult.
    To most effectively secure our border, we must reform our 
immigration system to relieve this pressure. We need comprehensive 
immigration reform that provides additional resources for border 
security, establishes a robust interior enforcement program, and 
creates a temporary worker program.
    We are taking significant steps to secure the border--more than any 
other time in our history. Since 2001, funding for border security has 
increased by 66 percent and we have apprehended and sent home more than 
6 million illegal aliens. On May 15, President Bush announced his plan 
to increase the number of CBP Border Patrol Agents by 6,000 by the end 
of 2008. This will bring the total number of Border Patrol Agents to 
over 18,000, doubling the number of agents since the President took 
office in 2001. These additional agents will serve as a tremendous 
resource and will go a long way in helping us secure the border.
    As interim measure, until CBP can hire and train these additional 
Border Patrol Agents, the President ordered the Secretary of Defense to 
work with our Nation's Governors to deploy up to 6,000 National Guard 
soldiers to the Southwest Border. Since the President's Oval Office 
address, DHS and CBP have worked closely with the Department of Defense 
and National Guard Bureau to get these soldiers integrated in our 
efforts to secure the border. We are calling this mission Operation 
Jump Start.
    As of July 18, there are over 3,800 National Guard troops on duty 
for Operation Jump Start and in the four Southwest Border States. These 
troops are making a difference. Over the last several weeks, the 
National Guard has contributed to over 1,200 alien apprehensions and 
helped seize over 12,200 pounds of Marijuana. Even if this infusion 
were not occurring, there would be hundreds of National Guard troops 
assisting DHS in our counter-narcotics mission. The Guard troops have 
also allowed us to move 183 Border Patrol Agents from the back offices, 
where they were performing essential support functions and logistics 
jobs, to the front lines. These Agents are now working every day on the 
border to detect and apprehend illegal aliens, and seize narcotics and 
other contraband.
    The National Guard soldiers currently are, or will be, supporting 
the Border Patrol with logistical and administrative support, operating 
detection systems, providing mobile communications, augmenting border-
related intelligence analysis efforts, building and installing border 
security infrastructure, and providing training. However, law 
enforcement along the border between the ports of entry will remain the 
responsibility of Border Patrol agents. The National Guard will play no 
direct law enforcement role in the apprehension, custodial care, or 
security of those who are detained. With the National Guard providing 
surveillance and logistical support, Border Patrol agents are free to 
concentrate on law enforcement functions of border enforcement. The 
National Guard engineering and technology support of tactical 
infrastructure has been a tremendous force-multiplier, expanding the 
enforcement capacity of the Border Patrol while freeing up additional 
agents who were performing some of these support tasks.
    The Border Patrol has a history of nearly two decades working with 
National Guard and Reserve units to leverage their unique expertise, 
workforce, technology, and assets, in support of our mission and as a 
force-multiplier. We're proud to work shoulder-to-shoulder with our 
National Guard colleagues. They have given us a tremendous jumpstart on 
our long-term plan to secure the border--the Secure Border Initiative.
    As I mentioned earlier, National Guard support will be an 
immediate, short-term measure that allows DHS to increase our 
deterrence and border security capabilities, while DHS trains 
additional Border Patrol agents and implements the Secure Border 
Initiative (SBI), which is a broad, multi-year initiative that looks at 
all aspects of the problem across the board--deterrence, detection, 
apprehension, detention, and removal. SBI, as envisioned by the 
Secretary and Commissioner, addresses the challenges we face with 
integrating the correct mix of increased staffing, greater investment 
in detection technology and infrastructure, and enhanced coordination 
with our partners at the Federal, state, local, and international 
levels for every segment of our Nation's borders. CBP Border Patrol's 
component of SBI, named SBInet, will integrate multiple state of the 
art systems and traditional security infrastructure into a single 
comprehensive border security suite for the department. Under SBI, DHS 
wants to create a common operating picture for agents, via the use of 
integrated sensors and other interoperable technologies and systems. 
The technologies will help agents detect, identify and respond to 
illegal activities.
    There is no stretch of border in the United States that can be 
considered completely inaccessible or lacking in the potential to 
provide an entry point for a terrorist or terrorist weapon. Stretches 
of border that in the past were thought to be impenetrable, or at least 
highly unlikely locations for entry into the United States, have in 
recent years, become active illegal entry corridors as other routes 
have been made less accessible to smugglers. We must consider all 
available information, including the vulnerability of our Nation's 
borders, when determining future infrastructure requirements and asset 
deployments.
    SBI undertakes an integrated approach to the continuum of border 
security and future deployments of personnel, infrastructure and 
technology. The deployment of the various components will be risk 
based, considering, for example, current intelligence, operational 
environment and field commander's requirements. Under this approach, 
one portion of the border may require more technology in relation to 
personnel, while another portion may require more tactical 
infrastructure improvements than either personnel or technology. SBI 
will not be a `one-size-fits all' deployment.
    One part of SBI, is the placement of Tactical Infrastructure (TI), 
such as fencing, vehicle barriers, high intensity lighting, and road 
improvements. These infrastructure elements act as a force multiplier, 
helping agents to secure the border, with speed and flexibility of 
personnel redeployment made possible by shortened response times. TI 
elements are critical for the U.S. Border Patrol to achieve the proper 
balance between personnel, technology, and border infrastructure. But, 
TI alone will not secure the border.
    We recognize the challenges that lie ahead. Our goal is nothing 
less than to gain, maintain, and expand operational control of our 
Nation's borders through the right mix of personnel, technology, and 
tactical infrastructure. The assistance of the National Guard and our 
Federal, state, local, and tribal law enforcement partners, will 
greatly enhance our ability to effectively and efficiently protect our 
Nation's borders.
    The men and women of U.S. Customs and Border Protection face these 
challenges every day with vigilance, dedication to service, and 
integrity, as we work to strengthen national security and protect 
America and its citizens. I would like to thank you for the opportunity 
to present this testimony today. I look forward to responding to any 
questions that you might have.

    Mr. Souder. Before I start questioning, and don't start the 
clock, let me express, first, my disappointment because we had 
asked Customs and Border Protection to talk about fencing. They 
had lengthy discussions about talking about fencing. Yesterday, 
the Education Committee talked about work visas and how you do 
work permits and immigration. Judiciary is talking about all 
sorts of internal things. We have had multiple hearings talking 
about all of the types of electronics and other types of 
things.
    This hearing is about fencing. I was hoping that you would 
say something since that you have fencing in San Diego, fencing 
in El Paso, fencing in Nogales, fencing in multiple places, 
about what you have learned works and doesn't work in fencing.
    So if we could kind of start over here. Could you tell us a 
little bit about what you have learned, some of the costs that 
you have run in to, some of the difficulties why you would say 
in urban areas you know, why you use some kind of fencing in 
some areas. I would like to hear from Customs and Border 
Protection about what you have learned from fencing. Quite 
frankly, if you are not prepared to talk about it, we might as 
well go to the third panel.
    Mr. Stevens. I am prepared to talk about that. We have 
today, fencing about 75 miles of it across the--across our 
southwest border. It's placed in specific areas where we have 
heavy urban population. Where we have many people that will 
attempt to cross as pedestrians. Typically, a smuggler is going 
to attempt to exploit the urban infrastructure. The urban 
infrastructure provides the easy access, urban areas provide 
them with a tactical advantage and puts us at a significant 
tactical disadvantage. That, sir, is where we find pedestrian 
fencing to be extremely valuable, the pedestrian fencing in 
concert with the appropriate level of personnel, the 
technology, does, in fact, deter traffic away from those areas 
where we don't have the tactical advantage. They will move off, 
they will move off to areas where we have a greater tactical 
advantage over terrain and we can address it through a 
different mix. But the 75 miles of fence that we have today in 
place in specific strategic locations that are tactically 
employed to address the pedestrian dynamic places where people 
are going to want to cross is very successful for us.
    Again, we experiment, and successfully, with additional 
enhancements, even to our fencing. We have some areas where we 
have a single landing mat fence, for example, in Nogales, 
Arizona where I was the agent in charge, I had a single landing 
mat fence because at that time, that was all we had room to 
place. It is all the land that we had capability to deploy on. 
So we enhanced the fence with super structure on top of it to 
further deter and further slow down and delay the entry of 
people trying to come across the border.
    And in addition to our patrols, on the line we had our 
cameras overlooking the fence. On those cameras we deployed 
what we referred to as deterrence technology, high intensity 
lighting that could be turned on and turned off by the camera 
operators. If they supported somebody trying to come across the 
border, we were able to use the combination of that fence to 
delay them and deter them and the cameras to spot them and then 
the high intensity lighting to let them know that they'd been 
detected.
    And we found that we were able to manage the same area with 
that proper set of infrastructure support with far fewer Border 
Patrol agents per mile. The agents could respond and react to 
what was spotted by the cameras. Many of the people were 
deterred by the fact that they--while they were struggling to 
get over the fence or trying to get through it, we were able to 
let them know that they had been detected in doing so and then 
they would move off to areas that provided us with a greater 
tactical advantage. We were able to move agents out to those 
areas and expand our operations in support of that.
    San Diego, the same or similar situation, it was a 
significant overrun area. Chaotic border environment. We 
expanded our fencing capabilities. We expanded with single 
fence, double fence and triple fence, as was discussed earlier 
today. And we put lights in there, we put patrol roads, we put 
border toll road agencies in there. Initially it took more 
Border Patrol agents to bring it under control as the 
deterrence impact of the infrastructure took hold, then we were 
able to reduce the number of Border Patrol agents deployed to 
those areas. We are now moving forward with adding detection 
capabilities to that mix. And we are exploring again deterrence 
technologies, we refer to it, that will further support through 
the technology that is available to us or will become available 
to us the benefit that the fence brings us.
    We have fences in areas such as the Laredo sector even 
though the Laredo sector is along the Rio Grande River, the 
aliens will cross that river in some areas and they will move 
to come in. The--if it is problematic, again, in an area where 
once they have been able to breach whatever natural barrier is 
provided, if the time that they have to be able to move in to 
an urban center or an urban community is short and we don't 
have the tactical advantage, the pedestrian fence provides us 
the tactical advantage of time and the ability to respond more 
effectively and more efficiently to that.
    There are areas that we would look at today and say that 
possibly another solution set might be viable where mother 
nature has provided us with the barriers. But in those areas 
that where we have urban populations where we don't have the 
tactical advantage of time to react, the fencing structure and 
the fencing systems are absolutely viable and critical to our 
operations.
    Mr. Souder. I am still looking for a couple of things but 
let me ask some questions to see if I can draw some of this 
out.
    Is it fair to say that San Diego started as an urban fence 
but you continued to move east into less urban areas?
    Mr. Stevens. Chairman, it is. What we find, again, in an 
area where we have a larger population, if you will, of 
pedestrian traffic attempting to cross where they can access 
even in a not heavily urbanized area, if they move out to a 
certain distance and still want to cross afoot, then extending 
the fence out to that limit is important.
    Mr. Souder. So you felt that it also worked in the less 
urban areas if there was not a physical barrier, because 
doesn't the San Diego fence go all the way to the mountains.
    Mr. Stevens. Yes. In that area chairman, yes. Again, we are 
dealing with a major population center. The real key----
    Mr. Souder. Isn't it also true in El Paso that going 
towards New Mexico that with the exception of where the road 
comes up to the river you basically have fencing out until it 
goes to the mountains going north and west from El Paso it 
stops as it goes into the hills, and then the fence picks up 
again over where the road is by Sunnyland and goes out into the 
rural areas? In other words, it isn't just an urban fence that 
you currently have. It goes out into the rural areas as long as 
that is contiguous until you run into what was assumed a 
topography barrier?
    Mr. Stevens. Chairman, it's not necessarily based on 
topography in this case.
    Mr. Souder. Let us take the example of Nogales then. Why 
does the fence stop at each end in Nogales?
    Mr. Stevens. The fence stops at each end of Nogales because 
it is against--when we get beyond the ends of the fence, we get 
to the point where it's more likely that somebody is going to 
try to come across by vehicle, the time that it would take for 
them to cross the border and get into the community begins to 
become extended and we begin to achieve a tactical advantage of 
terrain. Not necessarily a physical barrier, but a tactical 
advantage of them not being able to get into the community 
infrastructure as quickly as they can from within the 
community.
    El Paso, there is a lot of community to be able to access 
even in what is deemed to be maybe suburban or rural areas. But 
once we get away from the area where--it is a matter of time 
for us, Mr. chairman. If they have the tactical advantage of 
time and can get to a road, can get to a community, can get 
into the smuggling infrastructure and escape us, then we need 
to delay them by whatever means possible. And if they are doing 
so on foot, then a pedestrian fence is appropriate.
    Again, it's not based specifically on terrain. It is based 
for us on time and tactical advantage that can be obtained by 
that.
    Mr. Souder. Would you say that certain kinds of fences have 
an easier--what have you learned starting with barbed wire 
fences, they clearly were cut and moved, for example, in 
Arizona, knocked down. That is kind of passe at this point. 
That in certain fences in San Diego and others, clearly they 
are cutting them on a regular basis. Have you evolved in your 
thinking of making fences that are more secure and less able to 
penetrate?
    Mr. Stevens. Yes. We have experienced with a variety of 
different fence styles. We began at one time, of course, we 
mentioned the barbed wire. There are areas where we use chain 
link fence for a period of time. That is easily cut through. If 
it's a chain link fence, particularly if it's applied directly 
at the border where they can sit on the Mexican side or the 
foreign side and cut it, then it's not going to work well for 
us.
    We moved in to utilizing what we have referred to as the 
landing mat fence, a structure using the landing mat material 
that the military provided us for a variety of reasons. One was 
it was free in terms it was donated to us by a fellow agency or 
department. And it was solid. Even with the landing mat fence 
as we have been able to get that in line, we have discovered 
that there are some issues with that. The landing mat fence, it 
is opaque. So if the landing mat fence is sitting in an area 
where you don't have it heavily patrolled or if you don't have 
cameras to look over the top of it to observe people and their 
activity, they have time. They have time sitting on the foreign 
side to be able to attempt to defeat it.
    Even with the landing mat fence, as they attempted to cut 
through it with torches and take actions of that nature, we 
discovered that by putting a small section of landing mat up, 4 
inches into the fence and filling it with cement, cutting 
torches wouldn't work. The landing mat fence is still viable as 
long as we apply the appropriate systems to it.
    Other things that we found were that people were climbing 
over the top of the landing mat fence depending on the height 
of it or, in some cases, they would put ladders up against it 
and come over the top. One of the things I experienced when I 
was in Nogales was people who were not really physically 
capable of climbing the fence on their own, they would get 
assistance to climb the fence and then not be able to handle 
their own weight when they came over the top of the fence and 
we would have people losing fingers on the fence, we would have 
people breaking ankles coming to the ground with compound 
fractures. That was among the things that we were faced that 
prompted us to place an additional structure on top of the 
fence that even with assistance, somebody who was not 
physically strong would not be able to negotiate the fence.
    It stopped those people from even trying and significantly 
delayed even the most able.
    Once we also applied an ability to let them know that they 
had been detected trying to breach that fence by using the 
deterrence technology, then that further improved the 
capability of that system.
    What we have found as we have moved forward we have 
experiments with what we call a Bollard style fence, which is a 
series of cement bollards set at very close intervals to one 
another. We can look through those and see the other side. 
There is some limited visibility that we found, but that was an 
effective though somewhat expensive process at the time. We 
found that it was useful in areas, for example, where we have 
water that is flowing and we don't want to impede the water 
flow, or we don't want to damage the land as a result of water 
backups. The bollard fence is very useful in those types of 
areas.
    And it is difficult to breach. They've got to chip away at 
the cement structure to make that happen. We have also moved to 
a system metal bollard built very much the same way, close 
interval to one another that we are finding it very useful. 
Again, we can see activity on the other side of it and we can 
observe what they are doing. It is difficult to tamper with and 
it's very good for water crossings and water flow areas that we 
are operating in.
    We use, in California, for example, a system of the landing 
mat material as the primary fence. We are deploying the cameras 
to get a better visibility of it. We have a lighted area that 
we can patrol in between the primary and the secondary fence. 
The secondary fence we will use the Sandia type fence which is 
expanded metal. Again, we can see activity. We can tell if 
somebody is tampering with that fence and we found that be a 
very viable fence as well.
    There are a wide variety of different types of systems that 
we can employ in single fences, multiple barrier systems, in 
one area we may move through where we put a particular landing 
mat system in place as a Sandia backup. If we have got low 
water, we will move to a Ballard for that purpose, long enough 
to get through that section and then revert back to the landing 
mat fence again when we move out from there.
    So we have experimented with a variety of different types 
of fence. We have found that some are more tamper resistant 
then others. But the long and the short for us is that a fence 
does, in fact, deter some and it definitely delays even those 
that won't be deterred giving us that tactical advantage that 
we wouldn't otherwise have without that system in place.
    Mr. Souder. Thank you. Mr. Cummings.
    Mr. Cummings. Thank you very much. Chief, let me ask you 
this. We have, in House Resolution 4437, an amendment that is 
part of the bill now that says it mandates construction of 854 
miles of double layer fencing. Are you familiar with that? You 
are familiar with--are you familiar with what was passed by The 
House?
    Mr. Stevens. Yes, I am, sir.
    Mr. Cummings. And were you consulted on that? In other 
words, were you consulted by the Republicans with regard to 
that amendment?
    Mr. Stevens. I can't say that I was personally consulted.
    Mr. Cummings. All right. Well, that is fine.
    Do you--can you look the American people in the eye and say 
that this is something that is needed and it is, in other 
words, in order to effectively stop folks from coming over on 
our southwest border, we need an 854-mile double layered fence. 
And is that the most practical use of our taxpayer dollars, in 
your opinion? I mean, you are on the ground; is that right?
    Mr. Stevens. No. I am here in Washington now.
    Mr. Cummings. No. No. But you were on the ground; is that 
right?
    Mr. Stevens. Yes.
    Mr. Cummings. And you spent some time when you first sat 
down talking about your experience, and I do admire you and I 
thank you for that experience.
    What I am getting at, though, is our President has 
consistently talked about Iraq, and when he talks about Iraq he 
says we ought to listen to the people who are on the ground. I 
want to listen to you on the ground. What is it that we need? 
You have to deal with this. You have got men and women who are 
risking their lives every day. We are the Congress of the 
United States of America, and it is our duty and our 
responsibility to work with you to help you do your job.
    Our constituents are screaming for help from--and all kinds 
of help saying look, protect our borders. And all I am asking 
you as one who has dedicated some 20 some years to protecting 
our borders, what is it that you would say to the Congress of 
the United States which is responsible, by the way, for 
allocating money, putting money out there to help you help us 
and our Nation, what is it that would best serve you? What kind 
of policies? This is your day.
    Mr. Stevens. We need, for border control, for border 
security, we need that appropriate mix. It's not about fences. 
It's not about Border Patrol agents. It's not about technology. 
It's about all of those things. And the appropriate mix must be 
determined by our planners and our field commanders. I don't 
want to sit here, sir, and give you a dollar figure or a mile 
figure for any of these components. I want to be very dependent 
on our field commanders. I was personally involved in 
establishing a planning process within the Border Patrol that 
would bring that information to us from our field commanders. 
And that information, even as it comes to us today, is revised, 
depending on the dynamics of the operation.
    But I would ask for the support to accelerate the effort to 
allow us to continue our gain, maintain and expand process 
using this proper mix, and not concern ourselves with whether 
it's 800 miles of fence or 300 miles of fence. That is not the 
issue in my mind as a planner. The issue is deploying the 
appropriate mix as our field commanders and our field planners 
deem appropriate to their strategic and tactical solution on 
the ground.
    Mr. Cummings. I want you to understand I am not asking you 
for dollar figures, and I really appreciate your being very 
candid and open with me on what you just said. But let me take 
it one step further so that we will be clear as to what you 
mean by the mix.
    And I realize it is fluid but can you just give me the 
elements of the mix? I realize that there may be one mix for 
one area there may be another mix for another. But just list 
the mix type things that you are talking about. Would one of 
them be, for example, making sure that employers are penalized 
and checked if they are employing people who you are trying to 
stop from coming across the border? Would that be one?
    Mr. Stevens. As a Border Patrol agent, I have experienced 
the angst, if you will, of being on the line and being 
frustrated by the fact that we look to border security, we look 
to border control when there is, in fact, a deeper issue at 
hand.
    If you are asking me to talk policy. If you are asking me 
to talk the political issues regarding illegal immigration that 
is--I definitely have an opinion about that.
    Mr. Cummings. Let me tell you what I am trying to do so 
you'll be very clear. I am not trying to play any games. What I 
am saying to you is that I just want to know--I have a job and 
these folks up here have a job. We are elected by over 600,000 
people each to serve and do those things in their best 
interests. You are an agent of those same people. And all I am 
asking you, as one who is paid by the Government of the United 
States of America, one who is our agent, one who is an expert 
who is on the ground who--and you may be in Washington now, but 
at one point, you were on the ground. We may not have as much 
access to information as you do, and all I am asking you is 
what will best allow us to help you accomplish what you 
accomplish every day.
    Your men are being--and women are being placed on the line 
and we are trying to figure out what is this mix. You keep 
saying a mix. And the only thing I want to know is what is a 
mix and Mr. Chairman, I would appreciate it if you would let 
him answer the question.
    Mr. Stevens. The mix, again, there is--what we are talking 
here philosophically is the mix what you are asking me for 
border security as an enforcement role. Are you asking me for a 
mix of a border policy and political decision?
    Mr. Cummings. Let me help you. You said fencing is one 
thing, is that right, things that help us keep people out of 
this country that should not be here. That is what I am asking 
for.
    Mr. Stevens. On the line for border security for border 
control, we need Border Patrol agents. We need response 
capability. We need vehicles. We need aircraft. We need 
tactical infrastructure. We need fences where they are 
appropriate. We need roads to be able to get to the people when 
they come across in areas where we don't have access today. We 
need air mobile capability to fly to those areas where we don't 
have, or maybe don't want to put roads. We need the technology 
solution. We need the ability to be able to detect that entry, 
as I mentioned earlier, to identify and classify the threat.
    The greatest threat today to a Border Patrol agent in a 
remote area of operation, in my mind, is the fact we identify 
the level of threat, we learn what we are up against at the 
point of interdiction. When we step up behind that bush to take 
those people into custody, that is when we learn whether these 
people are narcotic smugglers, criminals, how many there are, 
we need to have, again, that mix of enforcement resources, but 
enforcement force multipliers, the response capability that 
brings us that enforcement capacity to be more than a nuisance 
to smugglers on the border but an overwhelming enforcement 
force that they don't wish to come up against.
    Mr. Cummings. Thank you very much, and we thank you and the 
men and women who serve with you, because we know it is a very 
risky job, very dangerous and we just thank you very much.
    Mr. Souder. Chairman Lungren.
    Mr. Lungren. Thank you. Thank you very much for your 
service, Chief, and thank you for your children's service. From 
what I understand from your resume, you have a daughter that is 
in the Border Patrol?
    Mr. Stevens. I do, sir.
    Mr. Lungren. And you have a son that is serving in the 
Army?
    Mr. Stevens. In Iraq.
    Mr. Lungren. And you have a son that is serving in the 
Arizona Department of Corrections?
    Mr. Stevens. I do.
    Mr. Lungren. So you have family boots on the ground.
    Mr. Stevens. Yes, I do.
    Mr. Lungren. We thank you for that and we appreciate your 
service. A couple of things. You talk about the mix. Boots on 
the ground is part of the mix.
    Mr. Stevens. Boots on the ground is absolute.
    Mr. Lungren. Technology is part of the mix.
    Mr. Stevens. Bricks and mortar, tactical infrastructure, 
the fences, the vehicle barriers, the roads.
    Mr. Lungren. Let me ask you this.
    Mr. Dicks. Will the gentleman yield for 10 seconds?
    Do you have enough of those things you just talked about to 
do the job?
    Mr. Stevens. Today we do not.
    Mr. Lungren. Let me ask you a question on that then. How 
many cameras do you have in your inventory that are not 
deployed right now?
    Mr. Stevens. I would have to get back to you on that 
answer, sir.
    Mr. Lungren. You can you submit that for the record.
    Mr. Stevens. Yes, we will.
    Mr. Lungren. Can you tell me whether the Border Patrol has 
software which allows for--I don't know if I call it artificial 
intelligence, but allows, without you to be constantly 
monitoring it, to be able to detect through the cameras whether 
it's an animal versus a person versus a vehicle, identify 
particular objects of concern?
    Mr. Stevens. We have--I assume what you are--what you are 
describing is a camera that would identify the difference and 
then alert an operator?
    Mr. Lungren. Right.
    Mr. Stevens. No, we don't. Not today.
    Mr. Lungren. Are you aware if ICE has that?
    Mr. Stevens. I am not aware whether they do.
    Mr. Lungren. If you were aware--if it were the case that 
ICE had that and you were to make a request to have that 
transferred to Border Patrol, is that possible within your 
agency, your department?
    Mr. Stevens. Within the Department of Homeland Security? I 
would believe it is. It would depend on what ICE is presently 
using it for.
    Mr. Lungren. What if it's not using it? What if it's 
sitting on the shelf somewhere?
    Mr. Stevens. Then we would definitely make the request.
    Mr. Lungren. You said you had 75 miles of fencing right 
now. And you said that it would be the determination of those 
chiefs of the various sectors, their recommendations that would 
indicate to you to help you make a decision as to how many more 
miles it would be effective, correct?
    Mr. Stevens. Yes.
    Mr. Lungren. Has there been preliminary investigation of 
that and preliminary planning of that in anticipation of us 
passing some legislation in view of the fact that both the 
House and the Senate have mandates for additional fences?
    Mr. Stevens. Yes, we do have the preliminary information 
and have a pretty solid handle on what we think in today's 
information flow.
    Mr. Lungren. With that solid handle, can you tell me, is 
this primarily in the urban areas and if it is primarily in the 
urban areas, do you also have it extending in non-urban areas, 
that is, initial planning?
    Mr. Stevens. For fences specifically, yes, it is primarily 
in the urban areas and it does extend to some of the less urban 
areas where we have, for example, an issue of time. Tolerance 
to how deep we will allow them or can allow them to move inland 
before we need to take them into custody is a key issue. And if 
the tolerance to entry, even if it's a rural or remote area, if 
tolerance, distance wise, is very short, then that chief would 
employ that type of resource.
    Mr. Lungren. What lessons--I presume if you look at this in 
anticipation of the possibility that we are going to pass 
legislation and mandate that at least some fences be built, 
what lessons have you learned or what--I assume you have done 
an analysis of how effective or ineffective the San Diego 
fencing has been. Can you give us any idea of what lessons you 
have learned, that is the Border Patrol has learned from the 
experience in San Diego?
    Mr. Stevens. Yes. The San Diego experience has taught us 
that one, fences do work in these environments in the 
appropriate areas. It has taught us that in some cases we may 
need to go with the secondary fence in order to assure the 
deterrence impact.
    But one other thing that we have learned, and that is to 
make the most efficient use of our agent resources, the people 
that we train, pay and employ to do the job. The addition of 
the deterrence technology, the technology call systems is 
another benefit that allows us to reduce the number of agents 
we are using in a particular given area, give that agent more 
mobility and allow for expansion out to the more rural areas 
where we can use that agent to exploit the tactical advantage 
that times gives us.
    Mr. Lungren. Have you made any judgment with respect to the 
utility of unmanned aerial recognizance vehicles?
    Mr. Stevens. We have employed unmanned aerial recognizance 
vehicles. We initially employed in the Tucson sector during the 
time that I was there as an assistant chief. We found that any 
aerial platform is valuable to us and the UA system was a--and 
is a good system. We are employing them now as a result of 
those initial tests.
    What we found is that if we can establish the high ground, 
virtual or otherwise, that is a technology advantage we have 
that provides us the situational awareness to exploit the 
tactical advantages that the terrain will give us in those 
areas where we can employ it.
    Mr. Lungren. Thank you very much, Mr. Chairman.
    Mr. Souder. We heard earlier that the boots on the ground, 
so to speak, opposed to San Diego fence that you are now saying 
works and that while Congressman Reyes spoke out, in fact, the 
Border Patrol opposed the El Paso fence that now works. What 
was the experience in Nogales?
    Mr. Stevens. The experience in Nogales, Mr. Chairman, was 
that we believed it would work and when we employed it, it did 
work. By that time we had learned a valuable lesson and we 
turned the corner from what was previously a mindset of 
apprehending people as opposed to try to deter them.
    Mr. Dicks. How many people are coming across the border 
today? On an average day, what is the number?
    Mr. Stevens. I can tell you what we are apprehending in a 
year. At this point, I can't tell you with any certainty how 
many people are actually coming across the border, sir.
    Mr. Dicks. How many are you apprehending?
    Mr. Stevens. We arrested last year 1.2 million people.
    Mr. Dicks. 1.2 million.
    Mr. Stevens. Yes, we made 1.2 million arrests. I should 
clarify that point. The 1.2 million arrests were a variety of 
incidents, some people being apprehended more than once because 
there were multiple attempts.
    Mr. Dicks. Let's go back to the mix. You said you are 
short. I have been up here. I have had chance as a member of 
the Appropriations Committee to vote on a number of amendments 
to increase the funding that have been voted down, 
unfortunately, by the majority party and I try to approach this 
job in a very nonpartisan way, but I want to make that point. 
There have been efforts in the Congress to add money for border 
patrols, there have been for detention beds and immigration 
agents. All of these amendments have been voted down by the 
people who are now holding these hearings, which bothers me 
somewhat because if we had put them, if we had passed the 
amendments we might not be having these hearings today because 
you would have the resources necessary.
    Now, how much short, you know--and in fact the majority 
party voted for the Intelligence Reform Act of 2004 in which--
and they are now short 800 Border Patrol agents, 5,000 
detention beds and 500 immigration agents of the very bill that 
they passed.
    So not only have they--they have authorized it but when 
they cut down the funding--and we are in a tough financial 
situation. Everybody recognizes that. But they haven't funded 
these programs.
    And how short are you on border agents? How many are you 
short?
    Mr. Stevens. We have initial estimates that would take us 
upwards of 19 to 20,000, but these are only initial estimates 
and will&
    Mr. Dicks. How many do you have now?
    Mr. Stevens. We are around 12,000 now.
    Mr. Dicks. So 19 to 20,000. How many detention beds are you 
short?
    Mr. Stevens. I don't have a number on detention beds.
    Mr. Dicks. Can you give us one for the record? How many 
immigration agents are you short along the border?
    Mr. Stevens. Again I don't have that number. The detention 
beds and the immigration agents are with our sister agency ICE.
    Mr. Dicks. We have to get those from ICE. So you are at 
present about 7,000 to 8,000 agents short of what you need to 
do the job, is that correct?
    Mr. Stevens. Our initial calculations as they stand today 
but, again, sir, allow me to reiterate it is not just about 
agents.
    Mr. Dicks. How much are you short on technology?
    Mr. Stevens. We are still working through that. We have 
several miles, in fact several hundred miles of border that 
need to be surveilled. We need detection capability.
    Mr. Dicks. Do you have any numbers or estimates on that? 
How much?
    Mr. Stevens. I don't have those with me. We are still 
working those numbers to, again with, in conjunction----
    Mr. Dicks. Third amount was fencing. Are there ways of 
blocking----
    Mr. Stevens. Tactical infrastructure in general, which 
involves fencing, barriers, roads. It can be helicopter landing 
pads, it can be boat ramps. Tactical infrastructure is a 
variety of different systems that we employ. Forward operating 
bases fall within that. It depends on the tactical situation in 
the area. And also as we move forward, looking toward the 
Secure Border Initiative and SBInet, we intend to clarify 
working with industry partners the actual figures, the actual 
numbers and develop the final solution.
    Mr. Dicks. Now you heard my comments about the impact on 
the environment, on our parks and our wildlife refuges and BLM 
land. What is the strategy to try to minimize the impact on our 
national parks and our wildlife refuges which are also 
important to the American people?
    Mr. Stevens. We are working very closely with the 
Department of Interior, with our environmental partners. Just 
as a personal note, the Director of their enforcement entity 
was actually assigned for a period of time with Office of 
Border Patrol and assigned to my division when I was in 
operations planning and analysis for strategic planning. We 
partnered with them to identify where the greatest impacts and 
work together to mitigate the impacts. We recognize 
collectively that the chaotic border environment, particularly 
in our southwest border in these sensitive areas, is 
devastating to those lands.
    Our goal is to work with them to establish the systems that 
be that will allow us to reduce the traffic flow in those areas 
and ultimately allow those areas to recover.
    Again this gets into the different mix. The personnel, 
infrastructure and technology in those areas is going to vary 
depending on the tolerance for how far these people can go. We 
may have a day to apprehend them in a remote area, but that 
doesn't mean we want to take a day to apprehend them. We are 
going to employ the resources that allow us to apprehend them 
as close to the point of entry as is practical under the 
circumstances. Not necessarily right on the border, but as 
close to the point of entry as is practical.
    It will save the environment. It will save potentially 
their lives in these remote areas if we can catch them before 
they get into distress. And it will send a strong deterrence 
message that we are looking for. And so we are working very 
closely with our partners in the Department of Interior and 
other agencies involved for protecting our lands and 
understanding that, again, border security in those areas is as 
much about environmental protection as it is about the other 
categories that I mentioned in my opening remarks.
    Mr. Dicks. Thank you. Thank you, Mr. Chairman.
    Mr. Souder. What is the average salary of a Border Patrol 
agent? I don't want just the starting because if people get 
hired they are not going to be just starting. What would you 
say is an average salary? In other words, starting and ending, 
some kind of a approximation.
    What is the starting salary?
    Mr. Stevens. I don't have those figures with me. I can get 
that to you. I have got, I can get the entire schedule.
    Mr. Souder. I would like both an estimate of the starting 
and then if there can be some kind of an averaging. I know you 
get an aging, but I am looking for a rough figure. Also what 
the cost, any company that does a cost doesn't just look at the 
salary. They look at what are the benefits that go with that, 
the health costs, the pension costs. So we get an idea of if we 
plus up 8,000, if we plus up higher, what are the costs we are 
looking at? What are the trade-offs?
    Do you believe if you had more fences that you would have 
less agents like you have had now? In other words, I am not 
arguing less than 12,000, and personally I believe that 20,000 
will not cover the border, that you have to have lots of other 
things because I see lots of single unit, pretty much all 
single unit agents right now out in the middle of nowhere with 
drug trucks coming at them often heavily armed. It is not clear 
in these open areas, as we move into these open areas and away 
from the ports of entry, that they can actually engage or get 
enough support fast enough. At one point there was a group of 
seven SUVs that shot their way through with a Blackhawk on 
them. The Border Patrol managed to take down a number of those. 
But the lead vehicle got through with tons of narcotics, and 
this is a complex challenge. We don't put policeman on the 
street with just one to a car.
    Part of the reason we need to look at fencing and whether 
it is electronic or other types of air vehicles, to track, is 
that we are, as we make it harder, and the pressure gets 
greater, I am not arguing for a decline in the number of Border 
Patrol agents here. We are trying to figure out what can 
fencing do with gaps in those fencing so you can kind of manage 
the flow more, slow them down, look where you have the 
irrigation breaks, where you have to pull off of fish and 
wildlife, where the Rio Grande floods. Would you feel that if 
there was a higher than 780 miles of the border fenced you 
would need fewer agents than 20,000 or do you feel that you 
need the fence plus the additional 8,000 agents?
    Mr. Stevens. The fencing, and again I am reluctant to talk 
miles, but the fencing is part of that mix based on the 
calculations that we have today, would not replace but would 
augment the agents that we are looking for. I would not 
anticipate that we need fewer agents than what I have mentioned 
if we began to apply more fencing to the solution.
    Mr. Souder. And I have emphasized without the 700 miles you 
are going to need 30 or 40,000 agents because it is going to 
become more violent and more pressure.
    Have you looked at Neely's Crossing? Most of the maps and 
proposals I have seen, anybody that goes down there sees that 
the Rio Grande is not a free flowing river there. To the degree 
it is free flowing it is very shallow at Neely's Crossing, you 
have a gravel base. Maybe you can explain for the American 
people a little bit what we face there that when we do put up, 
as you have put up, barriers that they get knocked down and why 
and do you have proposals in particular for that area?
    Mr. Stevens. Yes. It is a unique coincidence that I began 
my career in Fort Hancock Station. I am familiar with that area 
specifically because I spent 4 years as a Border Patrol agent 
on the line out there. The river in that section of Texas is 
very shallow. It can be driven across in many spots, waded 
across in most.
    An area like Neely's Crossing where you have not much 
distance, again the entry point of the United States and the 
nearest road that somebody can access and begin to move out, 
Neely's Crossing is an example of a place where you don't see a 
lot of pedestrians trying to come across, but they will try to 
come across in vehicles as occurred in the incident that you 
are making reference to, Mr. Chairman.
    Mr. Souder. Where a truck attempted to cross with anywhere 
between 4 and 5 tons of marijuana? We sit here talking about 
street busts. We sit here talking about whether or not somebody 
can smuggle a little bit of chemical-biological-nuclear coming 
across. They have trucks coming across with 5 tons. Would you 
like to talk about the bulldozer on the other side that 
activated itself when I was out there 2 weeks ago?
    Mr. Stevens. I am not familiar with the bulldozer 
situation.
    Mr. Souder. There is a bulldozer in the woods on the other 
side that plows through our berms and knocks down some of the 
types of barriers we put up. Does this not suggest that this 
might want to be an area that is a priority?
    Mr. Stevens. Yes. And we are looking hard at what type of 
solution will be the appropriate solution out there.
    Any area where we are that is remote, they are going to use 
systems that are going to have, again, if a barrier, whatever 
system we place, is in place on the border and we don't have 
the detection capability to observe it to know if somebody is 
approaching it to tamper with it, then we are going to be at a 
disadvantage. As long as they can tamper with it to try to 
defeat it from the foreign side without our knowledge, that is 
going to be an issue and those are the things that we ask our 
field commanders to look at, what solution would work for this 
given area, and it varies significantly from area to area.
    Mr. Souder. The implication today has been that the rural 
areas aren't a good place to put a fence where I would tend to 
almost think the opposite because what one of the challenges 
you are facing there is that as we get better at interdiction 
at ports of entry in those intensive areas and more 
surveillance and so on, while we may not move the same 
numbers--although that is not clear from the illegal 
immigration from the United States, the rise in meth now coming 
across the border. They are coming through somewhere and as we 
saw in Arizona they weren't going through the Tohono O'Odham 
Indian Reservation and all of a sudden they are pouring through 
the Tohono O'Odham Reservation. Douglas, Arizona became the big 
news hotspot. What I understand from some of your numbers, New 
Mexico is starting to see the next rise. We are pushing them 
into the next zone if we squeeze a little in El Paso. The 
problem here is unless you have a holistic border question, 
that all you do is move to the next gap and in fact you put the 
most dangerous criminals and the drug runners and terrorists, 
anybody who is going to smuggle something; in other words, more 
high value contraband or humans into those high risk areas 
where we are weakest. Why wouldn't we be to some degree fencing 
there since that is actually probably our highest risk 
population? If you are immigration only question, then you have 
a little bit different strategy than when you look at in these 
open areas.
    We have had open testimony in our committee and in Homeland 
Security--I believe this was a Homeland Security hearing--from 
Mr. Garcia, when he was there, that New Mexico was the primary 
place where smuggling of Middle Eastern people occur. $30,000 
for a package was public testimony.
    That would to me suggest that that becomes a priority, that 
needs a mixing because when we squeeze one area we move to 
another. And to the degree you make it harder in those areas 
they will move back towards the urban areas. What is wrong with 
that scenario? Everything else seems to concentrate in urban, 
and we push them to the rural. We now wind up pushing them to 
the rural and they are harder to get at. Why wouldn't we try to 
do something where we can push them back towards the points of 
entry?
    Mr. Stevens. Mr. Chairman, I don't feel that they are 
harder to get in the urban areas than they are in the rural. 
The rural areas, provided we have the capability to deploy, we 
have the response capability, we have the access to the area, 
the reason that as a strategic planner and as a tactical 
planner--and again I am going to speak a generality here for 
purposes of this. As I mentioned earlier, it is going to depend 
even some rural remote areas we may look, depending on our 
tolerance, to how deeply we allow the entry to occur, to move 
to a different type of system. But in general terms, when 
people move to the remote areas, they are more likely not to 
come across on foot. They are likely to bring a vehicle, to try 
to cross in a vehicle. They are moving away from the urban hub 
that the smugglers are using as their infrastructure, as their 
staging areas. It becomes expensive for them to move out here. 
They tend to want to carry more people. A vehicle brings with 
it the ability to carry more people. It brings high speed 
access across the terrain, the ability to carry weapons, 
narcotics. The vehicles are used as weapons against our agents. 
So if we can get the vehicle out of the mix and make that not 
part of the equation, provide us with the vehicles, the 
aircraft, the response capability to respond effectively and 
efficiently, then we have placed ourselves in a tactical 
advantage where we don't necessarily have to fence or even be 
there on the line shoulder to shoulder trying to defend that 
line and we can more effectively use our available resources, 
our personnel resources in a mobile capacity.
    Mr. Souder. Mr. Cummings.
    Mr. Cummings. Just two real quick questions, Chief, and I 
want to thank you for your patience. Some of your Border Patrol 
agents have informed me that fences can potentially leave them 
vulnerable to ambushes at fenced gates. Are you familiar with 
that at all? Can you explain this phenomena? In other words, an 
ambush at a fenced gate, is that--are you familiar at all?
    Mr. Stevens. I can't say I am familiar with that particular 
dynamic. A fence on the border that doesn't provide us 
visibility to the other side of the fence either through 
cameras, technology or direct visibility does tend to put our 
agents in a position where if they don't know what is on other 
side, we experience a lot of rocking incidents as a result of 
that. They will stand on one side of a fence and lob rocks over 
the top at our agents. Our cameras help us with that to let the 
agents know you have got somebody there. That ambush capability 
exists anyplace where we don't know what we are walking into or 
driving into.
    And some styles of fences, again, that gets to the lessons 
learned, need to be augmented with the technological capability 
and in some cases the fence that we can actually have 
visibility through is critical to us.
    Mr. Cummings. And just as we close out here, I just want to 
make sure I am clear what you are saying. It sounds like you 
are saying something similar to what Mr. Reyes said. First of 
all, apparently fences are needed everywhere, is that accurate? 
Along the border?
    Mr. Stevens. I would say that is accurate.
    Mr. Cummings. And they are various based upon the terrain 
and the circumstances surrounding the area. You have--you need 
certain things, so a fence can be one of the most effective and 
efficient tools to achieve your goals at some points but at 
other points it may be something, a combination of things that 
don't include a fence, is that correct?
    Mr. Stevens. Yes, that's correct.
    Mr. Cummings. And one of the things that Mr. Reyes said is 
that some of the best people to talk to are the Border Patrol 
commanders--I think that is the word he used--who are--since 
you have had the experiences you had, would you say that is 
accurate? In other words, folks who actually deal with that 
area, does it make sense to say OK, how do we help you be most 
effective and efficient and provide you with what you need for, 
so that you can achieve what we have asked you to do?
    Mr. Stevens. Yes. The field commanders--ultimately, it is 
the Border Patrol agent on the line who is going out there 
every day who knows the solutions and will provide the input to 
our command, and our command will put these resources together 
and let us know what is needed. And yes, the field, there is 
the chiefs, I call them the field commanders because we have 
agents in charge as well that we depend on very heavily for the 
information, but the chief patrol agent in a given area we 
consider the ultimate strategic and tactical authority for the 
determination of what is needed to perform the mission of the 
Border Patrol in that area.
    Mr. Cummings. To his credit Chairman Souder has spent a 
phenomenal amount of time on this issue. And one of the things 
he said, and this shall be my last question, one of the things 
he said just about 7 minutes ago was something to the effect 
that if we do not have 700 or so miles of fencing, that instead 
of needing 20,000 agents--and I am not trying to put words in 
his mouth, this is what I remember--we would probably need 
30,000.
    Mr. Souder. Or 40.
    Mr. Cummings. Or 40. We will deal with the 40, 30 to 
40,000.
    Do you agree with that? You are on the ground. Well, you 
were on the ground.
    Mr. Stevens. Again I can't say that specific to fences. I 
can say that if we don't have the technology, the tactical 
infrastructure to support our agents, yes, the number of agents 
we would need would be significantly higher.
    I liken it to, and I may be dating myself here but if we 
try to do it with without technology and tactical 
infrastructure, we are going to be playing a game of red rover 
where we have to stand our agents on the border and that is not 
a good use of a highly trained Federal officer.
    Mr. Cummings. Thank you very much.
    Mr. Souder. I thank you for your testimony today and thank 
each of the agents. There is an incredible frustration among 
American people on all fronts right now. One is in spite of the 
dedication of agents in the field, the fact is that illegal 
immigration has not declined, that in spite of the incredible 
efforts of the agents in the field, whether it is--and you 
don't include the ports of entry, just in between the ports of 
entry--we have seen a rise in illegal narcotics coming through 
particularly that border.
    And we just had testimony 2 weeks ago in Colorado from DEA, 
as we had in Washington, that crystal meth has gone from 65 
percent to 80 percent. As I go down to the border I continue to 
hear from Customs and Border Protection as well as from ICE 
that they are not finding it and yet we have the same agencies 
in Washington and at field hearings telling us, well, it is 
Mexican crystal meth coming across the border.
    Clearly, the border is not working. Clearly there needs to 
be an internal as well as an external and we are working--and I 
didn't mean to say that that wasn't part of the solution. But 
you can't have every agency pointing to the other agency saying 
you have got to do this part because quite frankly while the 
border is hard, internal enforcement will be incredibly hard.
    Most of the people that I have been trying to work with, 
how you would do a work permit if you did it? You try to look 
at employer sanctions. A high percentage of these people aren't 
even in an above ground economy or they are contract people 
working for subcontractors or working in a cash economy. It 
isn't any magic solution there either.
    Plus if we do do work permits and you don't have the border 
security you are just going to have more pour in after. It has 
got be multi-faceted.
    And one thing we are trying to do here is focus on how much 
would fencing vis-a-vis other costs and how much fencing would 
help, because I believe if you just say oh, the administration 
takes a position, oh, with this much more, we are going to seal 
it, and then as we work internally we are going to have a 
repeat. Only we are going to then come back to the Border 
Patrol and you will say, you said you were going to fix this 
and you will need--yes, it needs to be blocked, but we all here 
know--and this is very important for the record that what comes 
out of the Department has to be cleared by OMB and the 
administration. What comes from a sector chief, if they want to 
be promoted, has to reflect the opinions of their superiors. 
What is on the ground is the attitude as far as fencing is not 
necessarily in agreement with the official positions. I am not 
saying that it has to be everywhere. That is something we are 
debating because there is different costs and certainly there 
needs to be technology and certainly you need more agents. And 
I commend every one of them because it is not the most exciting 
job in the world all the time. It is a very frustrating job. 
People go right back in again and you have to face the same 
people.
    So we thank every person in the agency and thank you for 
your testimony. We are all frustrated, but I know the 
individual agents are at least as frustrated as the politicians 
and the American people because its a tough challenge. Thank 
you very much.
    Mr. Stevens. On behalf of our agents, thank you.
    Mr. Souder. If the third panel could come forward and once 
against thank you very much for your patience. Congressman 
Steve King of Iowa is the first witness. Normally he would have 
been in the first panel with the other members but because this 
is a very specific fencing panel, he agreed and has been very 
patient to give his testimony here.
    The second witness is Douglas Barnhart, who is President of 
Douglas E. Barnhart, Inc., as well as Vice President of the 
Association of General Contractors. Mr. Carlton Mann, Chief 
Inspector of the Office of Inspections and Special Reviews of 
the Department of Homeland Security's Office of Inspector 
General. Mr. Art Mayne, Specification Writer for Merchants 
Metals. Mr. Don Williams of Roadrunner Planning and Consulting, 
who is a consultant for Power Contracting, Inc., and Mr. T. J. 
Bonner, who is President of the National Border Patrol Council, 
frequent witness both to Homeland Security and to our 
committee.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that all the witnesses 
responded in affirmative. Once again thank you for your partial 
or full statements already in the record, any documents you 
refer to. You have heard a lot of discussion already. We will 
start with Mr. King. Thank you for coming. Thank you for your 
leadership on the fence question.

  STATEMENT OF THE HONORABLE STEVE KING, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF IOWA

    Mr. King. Thank you, Mr. Chairman. I appreciate the 
privilege to be here and also the privilege to hear the 
testimony this afternoon. As a member of the Judiciary 
Committee and also the Subcommittee on Immigration, I came here 
to speak about the necessity and the practicality of a fence 
and in fact a wall. And I had one brought along that was a 
design that I put together.
    But to lay a little bit of background for that, first would 
be we are needing to stop at the border first people, and that 
would be migrants, the general definition of the term, then 
illegal drugs, then terrorists, then criminals. And that is 
kind of the four categories we are working with here. And I 
have been on the border four times in the last year, sometimes 
a guided tour from the Border Patrol. Sometimes I go down there 
alone and simply show up at certain places to see what I can 
learn. I have been known to sit down there until 2:30 in the 
morning--at least my body clock--listening to Border Patrol 
agents who would only talk to me in obscure places where their 
identity could be confidential, and I will certainly keep it 
that way.
    I believe that we need to mark the border first, miles and 
miles of border that aren't even identified. And it is 
important for two reasons, and one of them is symbolism. 58 
percent of Mexicans believe they have a right to come to the 
United States, 46 to 48 percent want to come here, 56--excuse 
me, 58 percent believe they have a right to come here. And so 
we should at least get a fence on the border.
    I put in first there, a 10-foot high chain link fence and I 
put a sign on the other side, Don't Enter Here. But here is how 
to apply for citizenship. That is the first important thing.
    But I want to focus this--I am a problem solver. I spent my 
life in the construction business, building things, designing 
things and making things work and not getting paid unless they 
do. And my view is we should start with the idea of 100 percent 
efficiency. My constituents want to stop all illegal 
immigration. So the testimony about getting down to tolerable 
levels doesn't sit very well with me. And I am looking for a 
100 percent solution here. I don't submit we get it all the 
first year with the first mile of fence, but I believe we need 
to build one.
    As I watched them build vehicle barriers, the vehicle 
barriers with the 5 by 5 steel bar at headlight level, that is 
good to keep vehicles off that are smuggling drugs across, but 
doesn't keep the 50-pound pack of drugs that get thrown through 
the fence, put on the back and carried across the deserts by 
the burros in groups of 10 or 12 or even up to 100. They will 
find a way. 11,000 people a day, 4 million a year perhaps, and 
it is always going to be an estimate, but according to DEA 
about 3 weeks ago their number, $65 billion worth of illegal 
drugs, $65 billion. That is a powerful, powerful force. And 
whatever we might do to shut off the jobs magnet, which I 
support, that will not shut off the force of that commerce, the 
illegal business of $65 billion worth of illegal drugs.
    So as I sit on that border, sit there in the night and 
listen to us being infiltrated and contemplate what it takes, 
my view is this. We should do whatever is necessary to force 
all traffic through the ports of entry.
    If we can do that, then we can look at the manpower and the 
technology necessary to do even a better job at the ports of 
entry. But I think we need to force the traffic through the 
ports of entry. And being a problem solver, I have designed 
this wall, I hoped to just construct it for you here and give 
you a look at what it looks like.
    This represents the desert floor, just a little sand here 
and a little dirt and kind of thing that I work in. And then we 
have--back in my neighborhood we have a company that builds a 
lot of different machines, grade trimming machines and slip 
form machines. As I looked at this, if we can pour concrete in 
a slip form we can just sock a trencher into the ground and 
then, as we pull that trencher along, we will have a slip form 
built right into the trencher and we can pour concrete right in 
the trench and shape a notched footing and it would look like 
this, Mr. Chairman, and ranking member. And from the end. And 
it would be about 5 feet in the ground. This will be the bottom 
of it and then we will have a notch in the top about 16 inches 
so we can drop in pieces of precast concrete panels.
    And so as we dug the trench this way we pour the concrete 
in behind it, it would flow in right behind the trencher and in 
a couple of days it would be cured so you could begin to build 
a wall.
    And now, you just simply drop it in, one panel at a time. 
This would be about 10 feet wide, and a little over, about 
13\1/2\ feet long and 6 inches thick of concrete panel. They 
weigh about 9,800 pounds. You pick them up with a crane, lift 
them up and just drop them in.
    Just this simply. One at a time. And in fairly short order, 
end up with a--you end up with a wall that would be quite 
effective and relatively economical compared to a number of the 
other models that I have seen.
    Because of visibility and time I won't build the rest, but 
you can see how this goes. But I sat down and run this by 
engineers I work with and priced this through other contracting 
companies and of course we do the kind of work, the structural 
concrete work, flat concrete work, earth moving work and pipe 
work so this is something that I have a background in.
    But then as another piece of solving this issue I would put 
a little wire right on top and, provided it stays in there for 
this demonstration purpose, you can see what a section of this 
would be like.
    Now, this isn't going to work everywhere down on the border 
because we know we have mountains and we know we have rocky 
places. But we also have hundreds of miles where it lays real 
good and one could lay a lot of this fence in and set it up 
quickly. I call it fence, or call it a wall. Roughly maybe you 
could build a mile a day of it but the costs that I put 
together--and it is not with the road. It is not with anything 
except building the concrete and putting the panels in--would 
run about $1.3 million a mile. And this is one of the 
components I think that we need to have to be looking at 
seriously for a solution, a solution to the problem we are 
trying to get to, 100 percent solution, and it is frustrating 
to me to know that there hasn't been a business case made that 
I can see for other types of alternatives.
    And as I listened to the testimony here earlier, the answer 
to do you take more or less people if you had a fence as well, 
it wouldn't take less. Certainly it would take less or you get 
more good out of those that are working out there. And I am for 
expanding the Border Patrol and giving them all the technology 
that they need. But I am for 100 percent solution, one that we 
can make a business case for and a business model for. And 
today, if you take the $1.9 billion the President has asked to 
add to our budget on our southern border, that comes to $8 
billion to protect our southern border. That is $4 million a 
mile.
    And a lot of that is personnel and depreciable machinery 
and equipment that goes in down there. This would be a one-time 
investment of $1.3 million a mile. It would stand there for 
perhaps 100 years if it was necessary, and if we did that, that 
single one-time investment, that means either it takes fewer 
people to enforce the border or those that we do have that 
enforce the border can be more effective.
    But I believe our focus needs to be--and the other piece 
would be as we push people out around the end of our Border 
Patrol they do go through the more remote areas.
    And I go and look at those areas and you find track after 
track of people and I have sat down there in the dark and 
listened to them infiltrate around me. You will not stop this 
human traffic unless you put a fence and a wall there. The 
force of humanity that wants to come here looking for a better 
job is miniscule in comparison to the powerful force of the $65 
billion worth of illegal drugs, and they will find a way to get 
across that desert. They have people that are carrying drugs 25 
miles across the desert and more today, 50-pound packs of 
marijuana on their backs. They will get there if we don't shut 
that off and direct them through the ports of entry.
    And I agree with the earlier testimony that they will come 
on boats and try to come in another way. Well, let's raise 
their transaction costs and let's keep the drugs and illegals 
and the terrorists out of America.
    This is one component to the overall plan, not the whole 
solution by any means, not the solution for every mile by any 
means, but I think it is a solution for many of the miles that 
we should consider, and I simply conclude my testimony at that 
point and be open for any questions, and thank you for the 
privilege to testify before your committee, Mr. Chairman and 
Ranking Member.
    Mr. Souder. Thank you.
    Mr. Barnhart.

    STATEMENT OF DOUGLAS BARNHART, PRESIDENT OF DOUGLAS E. 
   BARNHART, INC., VICE PRESIDENT OF ASSOCIATION OF GENERAL 
                          CONTRACTORS

    Mr. Barnhart. Thank you, Mr. Chairman, and ranking member 
for the opportunity to be here. My name is Douglas Barnhart, 
CEO of the Barnhart Corporation, which was incorporated in 
February 1983 in San Diego, California and has constructed 
various projects for the Federal Government since that period 
of time. Barnhart is ranked 90th in the engineering news record 
of the top 400 contractors in the Nation and has revenue in 
excess of a half a billion a year.
    My company and I have extensive experience working for the 
Federal Government on both military and civilian projects and 
have experience working on structures on the U.S.-Mexico 
borders, such as the Calexico border crossing station, which we 
constructed.
    I am here today to provide a realistic cost estimate for 
the construction of the fence on the U.S.-Mexico border and 
provide a time line for the construction process. At the same 
time I would like to highlight some of the potential problems 
that might be encountered.
    Presented today is the final accumulation of knowledge 
gained in preparing three estimates for the border fence 
construction. In preparing the estimate of cost we, my 
estimators, utilized local knowledge of the climate conditions, 
local industry capability, as well as work experiences gained 
during construction of projects such as at the Calexico border 
station. This local experience was combined with Barnhart 
historical cost data and cost scheduling information provided 
by trade contractors all located in the southern California-
Arizona area to develop an expected cost of performance.
    In final preparation for the cost I personally went to the 
border with my Vice President of Estimating and Preconstruction 
to view the fence and talk to U.S. military personnel that were 
present and discuss maintaining the current fences.
    Scope of work considered for pricing purposes were rough 
and fine grading for 40 linear miles of 20-foot wide all 
weather road, composition of the road consists of 12 inch thick 
recycled class 2 aggregate base, which is very similar to the 
road conditions observed during my site visit.
    Labor costs to install government furnished materials for 1 
fence line with 14 feet high steel mesh with a 2.5 foot 
overhang concrete work associated with 7 feet deep, 2-foot 
diameter flagpole footage complete with a fence post PVC 
sleeve--which actually turns out to be a fairly important 
component in maintenance, and 1 foot wide 4 feet below grade 
wall to provide below grade entry barrier.
    The scope does not include a fence, lighting, surveillance 
cameras, buried motion detectors, landscaping agency permits 
and fees, design fees, underground storm drainage. If required 
these could add significant costs.
    Permits for building structures on new alignments are 
always time consuming. I know from my agency experience 
building a highway on a new alignment can take 7 to 12 years 
just to get through the environmental process.
    Dependent on the project delivery method utilized, design 
fees and contract plans and specifications may be required.
    To accommodate the differentiation in terrain along the 
vast border I included some contingencies, for instance, in 
areas where the slope to the fence dictates it will be 
necessary to add a secret swale to prevent water run off from 
washing out the fence. If we do get--it does rain in the desert 
and when it rains you do get washouts. At the ends of the swale 
rock rubble will be needed to disseminate the water energy 
before it is released into natural water channels. The estimate 
of costs includes the linear foot costs for this work, but 
until each side is investigated it is impossible to estimate 
exactly how much of this will be required.
    As for schedule, in discussion with U.S. military 
personnel, I was informed that the past rate of progress of the 
fence erection was about 100 to 110 linear feet per day. At 
this production rate it will take over 7 years to construct 40 
miles of fence utilizing the 5-day workweek. To obtain an 
acceptable schedule, a multi-prime format was considered with 
division of the work into 10 4-mile segments.
    The work would be surveyed to establish horizontal and 
vertical control points for each segment. Road construction 
would proceed followed by fence construction. I think that is 
also important because you have to establish the work platform 
to build fences and those sorts of things. Such an approach 
would result in significant but bondable work segments for 
local trade contractors and would reduce the overall 
construction time to 6 months or less depending on the workweek 
utilized.
    There are other significant factors to consider in this 
construction. Mobilization of the workforce and materials to 
the site will be difficult in remote areas. Having constructed 
in Calexico I know security of materials is a consideration.
    To combat losses, a mobile erection platform system is 
anticipated, which will also serve for transportation of 
materials to and from a construction base operation center.
    While remote areas can expose your workforce to dangers, I 
had no personal security issues during the construction of 
Calexico border crossing station, our current project I have 
going in Calexico today. So I have considered none in this 
estimate.
    As noted in the attached border fence expansion budget 
estimate report, the price for fence construction is estimated 
to be $1,441,687.82 per mile. Add to this government furnished 
materials, which the thing I got from the government was 1998 
pricing and is inadequate. We updated that to what we thought 
current dollars would be and it works out to 675,000 per mile.
    Thank you for the opportunity to testify before your 
subcommittee on criminal justice, drug policy and human 
resources.
    Mr. Souder. Thank you very much for the time you put into 
this, and we will insert and make sure that the materials you 
referred to as supplement will be in the record as well.
    Mr. Mayne, thank you for coming.
    Mr. Williams is next, excuse me.

 STATEMENT OF DON WILLIAMS, ROADRUNNER PLANNING & CONSULTING, 
             CONSULTANT TO POWER CONTRACTING, INC.

    Mr. Williams. Hello. My name is Don Williams, and I am the 
general manager of Roadrunner Planning and Consulting, 
consulting for Power Contracting, and I would like to say it 
has been very interesting and my actual formal statement will 
really be addressing some rapid deployment issues that we will 
be talking about.
    On behalf of Roadrunner Planning and Consulting, I would 
like to thank the subcommittee for the opportunity to share our 
experience and knowledge gained from consulting on the 
installation of the 4-mile permanent vehicle barrier project in 
both Yuma, Arizona and Columbus, New Mexico. Roadrunner is a 
consultant to the contractor that is doing the actual 
installation work along the border.
    As a consultant we have been deeply involved in the 
implementation of this innovative approach which has allowed 
this 4-mile section to be completed in record time in a cost 
competitive manner.
    We have also been involved in looking at new innovative 
ways to expedite installation of the 3 layered fence system 
proposed for strategic locations along the border.
    We have had a firsthand opportunity to visit many locations 
along the border and have major environmental issues, limited 
access and washout areas that have created ease of access into 
the United States.
    During those visits, we have evaluated the locations from a 
constructive building standpoint, considering the 
accessibility, soil conditions, topography, equipment needs, 
raw material delivery challenges and comprehensive rate of 
production. And all times, we viewed the overall proposed 
project from a common sense feasibility perspective.
    During our observations, we were extremely sensitive to the 
environmental issues surrounding PVB installation in this 
proposed fence project.
    We had an opportunity to meet with some of the wildlife 
officials to discuss ways to limit equipment and manpower. This 
approach did and would lessen the total footprint needed for 
construction and thus reduce the overall environmental impact 
during the course of installation of PVBs in fencing.
    By using a common sense innovative approach and available 
technology, the government can accomplish this necessary 
project with minimal environmental impact.
    A specific example of the attention given to the 
environmental environment during construction was the 
monitoring plan which was put in place to protect the flat 
tailed horn lizard during installation in the Yuma Arizona.
    This plan included awareness training of installation crews 
to increase their conscious understanding and knowledge of the 
species and the continued effort to stay inside of the 
designated work areas. This approach was enhanced and enforced 
by a flat tail horn lizard biological monitor. This individual 
was onsite daily and worked just in front of the installation 
crews.
    I would like to expand a moment on each of the previous 
mentioned areas we evaluated.
    Access. In many cases, access roads are underdeveloped and 
are usually impassable. The building of access roads to 
facilitate the movement of equipment and construction process 
would be costly. The Army Corps of Engineers has identified a 
system which we have utilized specializing equipment to install 
the PVB system in a timely effective manner.
    This provides the ability for rapid deployment of the 
proposed fence and would eliminate the need and the cost to 
develop access roads to these locations. This would allow the 
deployment of the PVB system and the 3 layered fence system in 
the most remote areas along the border in the most cost 
effective manner and also very environmentally friendly.
    Next would be soil conditions. We have found a wide range 
of soil conditions from silty sand to caliche rock. Whatever 
system is used it must have the flexibility to be installed in 
these wide range of soils. The variation in the soil types may 
be the most significant challenge this project faces as it 
pertains to constructibility. The Army Corps has utilized a 
system that will work in any and all soil conditions along the 
Southwest border.
    Topography. The topography of this region is extremely 
diverse and as a result creates a huge challenge. Washout areas 
also create significant construction challenges. We are 
researching methods which may be used to permanently fill these 
washout areas and eliminate the potential for further washouts. 
For such a solution to be economically feasible and practical, 
it would have to lend itself to the creation of a road for 
Border Patrol personnel to travel along and also allow the 
construction/installation of border fence and PVB in concurrent 
lines rather than huge drive-arounds which are presently under 
construction.
    Equipment needs. The method of installation would determine 
how much and what type of equipment is needed to complete this 
project.
    Roadrunner recommends that each area be evaluated for the 
most feasible application and ability to address the access 
problems.
    Further, the solution with the smallest footprint and the 
ability to address access should be considered in the deciding 
factor.
    Raw material delivery challenges. The delivery of raw 
material to the most remote areas will also be challenging. The 
areas we visited such as Ajo/Why, Arizona are mountainous and 
have limited road access. It is anticipated that the process 
used in these types of areas must be self-contained and only 
need limited resources to install the PVBs, fences and fill 
mentioned for the washouts.
    It is my hope that I have shared with you some of my 
experiences as it pertains to construction options and 
strategic placement for the PVBs and the fences. Thank you very 
much.
    [Prepared statement of Mr. Williams follows:]

                   Prepared Statement of Don Williams

    On behalf of Road Runner Planning & Consulting (RRPC), I would like 
to thank the sub-committee for the opportunity to share our experience 
and knowledge gained from consulting on the installation of the four 
mile Permanent Vehicle Barrier (PVB) project in both Yuma, AZ and 
Columbus, NM. Road Runner is a consultant to the contractor that is 
doing the actual installation work along the border.
    As a consultant, we have been deeply involved in the implementation 
of this innovative approach which has allowed this four mile section to 
be completed in record time and in a cost competitive manner. We have 
also been involved in looking at new and innovative ways to expedite 
the installation of the three-layer fence system proposed for strategic 
locations along the border.
    We have had a first hand opportunity to visit many locations along 
the border that have major environmental issues, limited access and 
wash-out areas that have created easy access into the United States. 
During those visits, we evaluated the location from a constructability 
standpoint-considering the accessibility, soil conditions, topography 
equipment needs, raw material delivery challenges and comprehensive 
rate of production. At all times we viewed the overall proposed project 
from a common sense feasibility perspective.
    During our observations, we were extremely sensitive to the 
environmental issues surrounding PVB installation and this proposed 
fence project. We had an opportunity to meet with some of the wildlife 
officials to discuss ways to limit equipment and manpower. This 
approach did and would lessen the total foot-print needed for 
construction and thus reduce the overall environmental impact during 
the course of installing PVB's and fencing. By using a commonsense, 
innovative approach and available technology, the government can 
accomplish this necessary project with minimal environmental impact.
    A specific example of the attention given to the environment during 
construction was the monitoring plan which was put in place to protect 
the Flat-Tailed Horned Lizard during installation in Yuma, AZ. This 
plan included awareness training of installation crews to increase 
their consciousness, understanding and knowledge of the species and the 
continued effort to stay inside of the designated work areas. This 
approach was enhanced, and enforced, by a ``Flat-tailed Horned Lizard 
Biological Monitor.'' This individual was on site daily and worked just 
in front of the installation crews.
    I would like to expand a moment on each of the previously mentioned 
areas we evaluated.

ACCESS:
    In many cases, access roads are underdeveloped and are usually 
impassable. The building of access roads to facilitate the movement of 
equipment and construction process would be costly. The Army Corps of 
Engineers has identified a system which utilizes specialized equipment 
to install the PVB System in a time-effective manner. This provides the 
ability for the rapid deployment of the proposed fence and would 
eliminate the need, and cost, to develop access roads to these 
locations. This would allow the deployment of the PVB system and three-
layered fence system in the most remote areas of the Southwestern 
border in the most cost effective and environmentally friendly manner.

SOIL CONDITIONS:
    We have found a wide range of soil conditions from silky sand to 
caliche rock. Whatever system is used,it must have the flexibility to 
be installed in these wide ranges of soils. The variations in soil 
types may be the most significant challenge this project faces. as it 
pertains to constructability. The Army Corps has utilized a system that 
will work in any and all soil conditions along the Southwest border.

TOPOGRAPHY:
    The topography of this region is extremely diverse and, as a 
result, creates a huge challenge. Wash-out areas also create 
significant construction challenges. We are researching methods which 
may be used to permanently fill these wash-out areas and eliminate the 
potential for future wash-outs. For such a solution to be economically 
feasible and practical, it would have to lend itself to the creation of 
a road for Border Patrol personnel to travel along and also allow for 
the construction/installation of the Border Fence and PVB in concurrent 
lines rather than the huge drive-arounds which are presently under 
consideration.

EQUIPMENT NEEDS:
    The method of installation will determine how much and what type of 
equipment is needed to complete this project. Road Runner recommends 
that each area be evaluated for the most feasible application and 
ability to address the access problems. Further, the solution with the 
smallest foot-print and the ability to address access should be the 
deciding factors.

RAW MATERIAL DELIVERY CHALLENGES:
    The delivery of raw material to the most remote areas will also be 
challenging. The areas we visited such as Ajo and Why, AZ are 
mountainous and have limited road access. It's anticipated that the 
process used in these types of areas must be self contained and only 
need limited resources to install the PVB'S, fence and fill mentioned 
for the wash-outs.
    It is my hope that I have shared with you some of my experience as 
it pertains to the construction options and strategic placement of the 
PVB's and fences.
    I am open for questions.

    Mr. Souder. Thank you very much.
    Now Mr. Mayne.

STATEMENT OF ART MAYNE, SPECIFICATIONS WRITER, MERCHANTS METALS

    Mr. Mayne. Thank you, Mr. Chairman, for the opportunity to 
speak to the subcommittee on this critical issue of border 
fence. My name is Art Mayne. I have been involved as a 
specification expert in the security field for over 25 years. I 
write specifications for a wide variety of fencing and other 
security products. I am employed by Merchants Metal, a leading 
manufacturer of fencing products. In addition, I am a member of 
the Technical Committee of the Chain Link Fence Manufacturing 
Institute, CLFMI, and I am active in the Construction 
Specification Institute, CSI, and other professional groups.
    My experience with enhanced security goes back to the 
1980's and 1990's when I taught perimeter security at the 
Physical Security School started by the Navy in Norfolk, 
Virginia. At the Physical Security School, I instructed 
security professionals from the Pentagon, the FBI, and also the 
CIA.
    As a result of my long involvement with the designing 
security fencing and other security systems, I have an in-depth 
knowledge of a vast--of a wide variety of security fence 
products, including chain link, expanded metal, ornamental and 
welded wire mesh.
    I am here today representing the CLFMI and my company, 
Merchants Metals. But I want to make it clear that the views I 
am expressing are my own based on years of experience with 
comprehensive security technology.
    Each of the many fencing opportunities available to secure 
American borders have advantages and drawbacks, and I would 
like to briefly share with you my views regarding these 
products.
    Fencing products such as welded mesh, which I have a sample 
here and I will be happy to let anyone take a look at it, and 
also expanded metal, offers a very high level of security and 
deterrence and have been used successfully in certain security 
applications.
    However, both are rigid product. They are very rigid and 
that means a costly grading and landscaping is required prior 
to installation.
    Landing mesh, which has been among the first material used 
for border fencing because of their high strength, these have 
been effective in limited areas. One of the drawbacks, however, 
is that the material is costly and difficult to work with.
    In addition, like other rigid products, installation can be 
costly, particularly in irregular terrain. Each panel must be 
attached to supporting posts at each of these points with bands 
and bolts necessary to attach the panels, provides additional 
opportunity for breaching the system.
    Security grade chain link fence is another option 
available. It is much more flexible than the landing mesh, 
welded mesh or expanded metal, and this results in a lower site 
preparation and installation costs.
    In contrast to landing mesh it offers the advantage of 
being a see-through material, which we heard earlier is a very 
critical area that the Border Patrol--one of the areas that 
they really appreciate.
    On the negative side, chain link does not in itself have 
the strength of some of the other options, although its 
strength can be augmented by the use of cables and other 
devices. Also chain link fence does not provide the deterrent 
to tunneling that rigid metal products can provide if installed 
below ground.
    In conclusion, I have worked with these various metal fence 
options. In my opinion, a border fencing system using a 
combination of security grade chain link fences augmenting 
where necessary by welded mesh, expanded metal, or landing mats 
would be the most cost effective solution.
    A recent survey of fencing manufacturers and professional 
fence installers indicated that the approximate cost for a 
security grade chain link fence, border fence built to 
recognized specification would be $525,000 per mile for 
material and 775,000 miles for installation.
    This reflects a much faster installation product than for 
rigid fence products. A full description of this type of border 
fence is set forth in the white papers on security fencing, 
which I am submitting for the record now.
    [Prepared statement of Mr. Mayne follows:]

                    Prepared Statement of Art Mayne

    Thank you, Mr. Chairman, for this opportunity to speak to the 
Subcommittee on the critical issue of a border fence. My name is Art 
Mayne. I am here today representing the Chain Link Fence Manufacturers 
Institute (CLFMI) and my company, Merchants Metals, but I want to make 
it clear that the views I am expressing are my own, based on years of 
experience with comprehensive security technology.
    The Chain Link Fence Manufacturers Institute is a 46-year old trade 
association whose members represent approximately 85% of the chain link 
fence products manufactured in the U.S.A have agreed to speak on behalf 
of the CLFMI today because I believe an optimal border fence should 
include anti-intrusion/anti-climb chain-link fencing such as I have 
designed specifically for this purpose.
    I have been involved as a specifications expert in the security 
field for over 25 years. I write specifications for a wide variety of 
fencing and other security products. In addition to my involvement with 
CLFMI, I have been active in the Construction Specifications Institute 
(CSI) and other professional groups. My experience with enhanced 
security systems goes back to the 1980's and 90's when I spent time 
teaching perimeter security at the Physical Security School, started by 
the Navy in Norfolk, Virginia. At the Physical Security School, I 
instructed security professionals from the Pentagon, FBI and Central 
Intelligence Agency.
    As a result of my long involvement with designing security fencing 
and other security systems, I have an in-depth knowledge not only of 
chain-link but also all other security fencing products, including 
expanded metal, ornamental and welded wire mesh.
    Mr. Chairman, in November of 2001, CLFMI's members, at their annual 
meeting, voted to redirect the institute's resources to assisting the 
enhancement of security efforts in both the private and public sectors. 
As part of that effort, CLFMI has worked with various entities to 
develop comprehensive systems that will meet these increased security 
needs. CLFMI has worked closely with the American Society of Testing 
and Materials (ASTM), Army Corps of Engineers, Sandia Labs, FAA, 
Pentagon and Consumer Product Safety Commission in an effort to promote 
safety and the efficient use of chain-link fence products.
    An excellent example of this is the anti-intrusion/anti-climb 
fencing that is described in the CLFMI's White Paper on security 
fencing, which I ask to be submitted for the record. (pause) Thank you, 
Mr. Chairman. By using the technology and innovative weaving processes, 
this chain-link fence system is the most versatile, cost-effective tool 
to reduce the flow of drugs and illegal intrusions into the U.S. across 
its Mexican and Canadian borders.
    The chain-link system's strengths are reflected in the four 
objectives the DHS identifies as critical: detect, deter, delay and 
deny. The fence is constructed with a tightly woven metallic coated 
steel wire mesh (as Congressman Hunter exhibited earlier), and when 
combined with an angled or curved 6-foot overhang, presents a deterrent 
that is extremely difficult to climb and even harder to cut through. 
The fence framework is designed to withstand the forces of a 90 MPH 
windload applied against the wind-resistant small mesh.
    For the border fence, I would recommend a double-row of fencing, 
one with the angled top and one vertically to further deter the 
intruder. Burying expanded metal, welded wire mesh or ornamental panels 
between the framework post's concrete footings can easily deter 
tunneling.
    Perhaps the most important advantage this type of fence offers is 
its see-through nature, which protects our personnel in border areas. 
Even with smaller mesh, border patrol professionals can obtain visual 
contact before and during any intrusions. With a solid fence, it is 
impossible to know what is happening on the other side. Knowing what or 
who is on the other side helps protect the law enforcement officer 
while exposing the intruders.
    To my knowledge, anti-intrusion/anti-climb chain-link is the most 
economical and cost-effective of all the building materials that can do 
this job. In response to a Congressional request, the CLFMI provided a 
cost estimate for materials and labor (actual costs will vary depending 
on locale, specifications, and competitive circumstances). We realize 
that this Committee is determined to spend taxpayer dollars wisely and 
my design reflects your prudence.
    Chain-link is versatile, and can be adapted to virtually any 
terrain without costly and time-consuming landscaping and grading. This 
fencing is durable and inexpensive to maintain.
    In addition, chain-link is strong enough to support additional 
surveillance equipment, and when combined with certain cabling devices, 
it is an effective vehicle restraint barrier to meet the State 
Department's K4, K8 or K12 crash Ratings. Moreover, chain-link fencing 
can conduct an electric current which will alert the Border Patrol that 
a breach may be in progress in specific sections.
    This newer, smaller gauge chain link has proven its ability to 
enhance security in numerous applications. Many correctional facilities 
have upgraded their deterrence system by installing anti-climb chain-
link fencing. This technology is also applicable to nuclear power 
plants, oil refineries, embassies, military bases and sea ports.
    Mr. Chairman, a full description of the value of this anti-
intrusion, anti-climb fence system is included in our White Paper. The 
Chain Link Fence Manufacturers Institute is prepared to assist the 
Government by providing not only the materials but also the technical 
expertise and consulting services necessary to design, build, and 
install a fencing system that will protect our borders.
    Thank you again for this opportunity to testify. I look forward to 
your questions.

                            For the Record 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Souder. Thank you. We will make sure all those 
materials are in the record.
    Mr. Mayne. Thank you again for the opportunity to testify, 
and I look forward to your questions.
    Mr. Souder. Thank you very much. Now Mr. Bonner, President 
of the National Border Patrol Council.

  STATEMENT OF T.J. BONNER, PRESIDENT, NATIONAL BORDER PATROL 
                            COUNCIL

    Mr. Bonner. Mr. Chairman, Ranking Member Cummings, thank 
you very much for the opportunity to present the views of the 
front line Border Patrol agents. I myself have 28 years of 
experience as a Border Patrol agent, and I would like to share 
some of that experience with you.
    As a younger officer back in the late 1980's, I was part of 
a special task force in the San Diego sector assigned to patrol 
the border and look for bandits who were preying upon illegal 
immigrants. I was frankly appalled at the number of people who 
would gather on the United States side of our border. There 
were no fences at the time. People would just wander across. 
Literally thousands of people would be on the United States 
side of the border awaiting the opportune moment to move north 
and on an unspoken command literally thousands of people would 
push northward, generally at shift change, and our officers 
would manage to apprehend perhaps a few hundred of those 
several thousand. And I am talking upwards of 5 to 10,000 
people along that 14-mile stretch of border.
    That changed when fencing was put into the area. It pushed 
the traffic elsewhere. It didn't stop the traffic, it pushed it 
elsewhere.
    It took a long time for that traffic to push, however. It 
wasn't just the fencing, because the fencing started in 
September of 1990. The traffic did not move for 7 years. By the 
time the traffic moved, we had 2,100 Border Patrol agents 
assigned where we previously had 800.
    The traffic after about a year settled into Tucson, Arizona 
and, until very recently, it remained in the Tucson sector.
    By the time the traffic moved out of the Tucson sector we 
had increased manpower up to 2,400 agents to patrol that 261 
miles of border. And now, triple fencing, double fencing, has 
been installed in most of that 14 miles of San Diego, yet we 
are seeing a marked increase in traffic. First 9 months of this 
year, traffic increased 23 percent in San Diego, proving 
conclusively that it is not fencing that stops people from 
coming across the border. It is boots on the border.
    If we don't have Border Patrol agents in place to respond 
to the traffic, then no amount of fencing is going to make a 
difference.
    But I would like to focus on a larger problem--well, before 
I hit the larger problem, let me talk a little bit about some 
of the problems with the multiple layered fencing.
    Sandia Labs came up with the proposal that you have a 
triple fence and they made three predictions. One, it would 
dramatically decrease the amount of traffic. Two, it would make 
it very simple for the people who dared to cross through the 
multiple layers of fencing, make it very simple to apprehend 
them. And, three, it would push the remaining traffic out to 
remote areas where it would be very easy for the Border Patrol 
to apprehend these people.
    They could not have been more wrong on all three counts. 
Illegal immigration today is just as high as if not higher than 
when we started the big crackdown at the border, invested 
billions of dollars on additional agents, fences, technology, 
which brings me to the real reason that people come across the 
border.
    Most people are coming across the border looking for jobs. 
I suggest that what we need to do is build an invisible fence, 
not the virtual fence that the Department of Homeland Security 
talks about, an invisible fence that turns off the jobs magnet. 
I compare it to the system that we have of banking in this 
country. We have automated teller machines all over the 
country. In this city alone there are thousands of them. I can 
take my credit card, put it into that machine, put in my 
personal identification number, access my account, a phone call 
is made through a modem, it accesses my account, says that I do 
have money to take out. If I don't it won't me allow me to take 
out any of my money. But yet when it comes to employment 
verification, we are in the Stone Age.
    We allow someone to come up with any one of about 100 
different paper documents to prove who they say they are. And 
we are not getting much closer to the solution with the basic 
pilot program. That would be like an ATM machine that doesn't 
require a card but just requires a series of numbers, punch in 
the account number, punch in an access code, and yet anyone 
could compromise that because what we have in effect right now 
is millions, tens of millions of Social Security, name, number, 
date of birth combinations that have been compromised, and that 
is the only information required by the basic pilot program.
    Until we come up with a single counterfeit proof document 
to establish a person's eligibility to work in this country, we 
are going to have millions of people breaching our border every 
year in search of employment.
    In effect, we are transforming otherwise honest people into 
criminals. We are holding out the lure of jobs in America, much 
as if we took away the ATM machines and just put cardboard 
boxes of money out on every street corner and said we are going 
to do this in the honor system. How many people can resist? 
When you have impoverished people who are making on average 
less than $5 a day knowing they can come to the United States 
and make 15 to 50 times that amount of money, you can't blame 
them for coming across the border. And as long as you have 
those millions--yes, millions--of people coming across the 
border every year--because we catch 1.2 million. And our agents 
on the ground estimate that for every person that we catch, two 
or three get by us.
    Mr. Bonner. As long as those millions of people are coming 
across the border, it makes it extremely difficult for us to 
concentrate on the criminals, the drugs and, yes, even the 
terrorists who are exploiting the weaknesses of our border.
    We really have to change the whole dynamic if we hope to 
gain control of our borders. Fencing to a limited degree can be 
effective. It can channel traffic around. But it's not going to 
turn off the lure that causes people to come across the border. 
These are people that when they initially launched Operation 
Gatekeeper in San Diego, they said people will not cross 
through the deserts because it is so--the climate and the 
terrain is so forbidding. They severely underestimated the 
level of desperation of people coming across the border. They 
will find ways to go over fences, under fences, around fences, 
or through fences. I don't care how impenetrable you think that 
fence is, you still have gaps at every designated port of 
entry. And I am sure the image is burned into the minds of 
every Member of Congress, if not most of the American public, 
of hundreds of people streaming through the port of entry at 
San Ysidro, California. There are many ways to defeat these 
barriers. What we need to do is eliminate the reason that 
people are coming into this country illegally, which will allow 
the Border Patrol to focus its limited resources on the 
criminals and terrorists who are exploiting the weaknesses of 
our border.
    And before I close, one final thing that I have neglected 
to talk about. Our agents in these multiple layers of fencing 
are being trapped in between, rocks are thrown at them, gunfire 
is ringing out. It is an untenable situation. These were 
designed to trap the aliens in there, and what they have done 
is endangered the lives of our brave men and women who are out 
there enforcing immigration laws. Multiple fencing is not 
effective. Barriers can be very effective at stopping vehicles 
from coming across. A single layer of fencing can channel 
traffic away from heavily populated areas, but the longer you 
build that fence, the more likely it is you are not going to 
move the traffic. They are going to figure out ways over, 
under, or around, or through. And when I say around means 
through that port of entry as well.
    Thank you very much for the opportunity once again to hear 
from the men and women who are actually out there doing the 
job, and hopefully our opinion will weigh heavily in this 
matter.
    [Prepared statement of Mr. Bonner follows:]

                   Prepared Statement of T.J. Bonner

    The National Border Patrol Council appreciates the opportunity to 
present the views and concerns of the 10,500 front-line Border Patrol 
employees that it represents regarding border fencing options and 
related issues. In order to determine what types of physical barriers 
should be placed at the border and the extent to which they should be 
utilized, it is essential to evaluate their intended purposes, the 
effectiveness of the various types that are in use, and the reasons 
that they have succeeded or failed.
    The United States Border Patrol is responsible for interdicting 
people and contraband that illegally cross our land borders between 
designated Ports of Entry. Every year, Border Patrol agents apprehend 
more than one million illegal aliens and seize more than one million 
pounds of marijuana and other illegal drugs. Front-line agents estimate 
that for every person they apprehend, two or three manage to slip by 
them, and also acknowledge that they only seize a small fraction of the 
drugs being smuggled across the border. Although there is an increasing 
trend for the same criminal organizations to be involved in smuggling 
both people and contraband, the appropriate preventive measures and 
responses for each differ considerably.
    During the past 15 years, the Federal Government has spent billions 
of dollars on various initiatives to curb the smuggling of people and 
drugs across our Nation's borders. When these efforts began, the 
majority of the illegal traffic was concentrated along the westernmost 
14 miles of border, just south of San Diego, California. Within that 
small stretch of border, thousands of illegal aliens would gather just 
inside the United States on a daily basis, waiting for the opportune 
moment to proceed north. Bandits frequently preyed upon them, sometimes 
raping and/or murdering their helpless victims. Drug smuggling was 
rampant as well. Anarchy reigned, and there was no semblance of control 
over that section of the border.
    In 1990, Representative Duncan Hunter began facilitating the 
construction of fencing fashioned from surplus military steel landing 
mats, as well as the placement of stadium lights, along most of those 
14 miles of border. Although these measures dramatically reduced the 
amount of crime, they did little to diminish the number of illegal 
crossings in that area. While drug seizures tapered off within several 
years, apprehensions of illegal aliens in the San Diego Border Patrol 
Sector continued to average about one-half million annually for the 
next six years.
    In September of 1993, Representative Silvestre Reyes, who at the 
time was the Chief Patrol Agent of the El Paso Border Patrol Sector, 
launched Operation Blockade, later renamed Operation Hold-the-Lie. 
Additional Border Patrol agents were temporarily reassigned from nearby 
locations and deployed at strategic crossing points along the Rio 
Grande River just north of Mexico to disrupt smuggling routes and 
prevent criminals from crossing the border. The results were immediate 
and dramatic. Cross-border crimes plummeted almost immediately. The 
following year, apprehensions of illegal aliens dropped about 72%. 
Unfortunately, the smuggling traffic did not disappear; it merely 
shifted to other areas along the border.
    Encouraged by this limited success in El Paso, the Border Patrol 
attempted to export the Strategy to San Diego the following year. 
However, significant differences in geography and demographics thwarted 
the initial efforts to replicate the results of Operation Hold-the-
Line. While El Paso and Ciudad Juarez are separated by the Rio Grande 
River, which has few crossing points, San Diego and Tijuana are 
separated by land, and there are few natural barriers that deter people 
from crossing. Moreover, while many of the people crossing into El Paso 
illegally had been day laborers who returned home to Mexico every 
night, most of San Diego's traffic consisted of people who intended to 
travel to interior locations and remain there for long periods of time. 
San Diego remained the smuggling corridor of choice until 1997. At that 
point, Border Patrol staffing in the San Diego Sector had increased to 
about 2,100 agents, compared to about 800 in 1990.
    At about the same time that a significant portion of the illegal 
alien traffic shifted away from San Diego, construction began on triple 
fencing in that area. This coincidence caused some confusion about the 
precise reason(s) for the displacement of the traffic. The triple fence 
concept was originally advocated in a January 1993 report issued by 
Sandia National Laboratories entitled Systematic Analysis of the 
Southwest Border. The study recommended placing a triple layer of 
fencing along approximately 90 miles of the Southwest border's urban 
areas. It predicted that these multiple barriers would significantly 
reduce the number of illegal crossings; allow for early detection and 
easy apprehension of the few who attempted to cross through the 
multiple barriers; and channel the remainder of the traffic to remote 
areas where it could be readily apprehended. Experience has proven all 
of these forecasts to be extremely inaccurate. Even worse, these 
barriers have been responsible for a dramatic increase in the number 
and intensity of assaults against Border Patrol agents. Smugglers have 
adopted tactics that take advantage of agents' vulnerabilities as they 
patrol between these barriers, ambushing them with barrages of rocks 
and even gunfire. Although the Border Patrol meticulously tracks the 
number and types of assaults against its agents, there is no separate 
category for those that occur between the multiple layers of fencing. 
Given the large number of such assaults, this statistical gap is both 
puzzling and troubling.
    Experience in San Diego and other parts of the border has 
conclusively proven that additional staffing, not fencing, is 
responsible for modifying smuggling patterns. When the Tucson Border 
Patrol Sector's area of operations became the favored smuggling 
corridor in 1998, only about 900 agents were assigned to patrol its 261 
miles of border. By the time the smuggling traffic started to shift 
away from the Tucson Sector this year, staffing had increased to about 
2,400. Although total nationwide apprehensions are only slightly higher 
this year compared with last year, they have increased about 25% in the 
San Diego, despite the fact that most of the westernmost 14 miles of 
border now has multiple layers of reinforced fencing. Staffing in San 
Diego has declined substantially, however, with 500 fewer agents at the 
present time than there were in 1997.
    While barriers and fences are not the panaceas that some had 
predicted or hoped, they nonetheless can play a legitimate role in 
border security if the proper types are strategically placed in 
suitable locations. Barriers can be extremely effective in preventing 
vehicles from driving across the border between designated Ports of 
Entry. Such vehicles often contain large quantities of illegal drugs, 
and their drivers generally speed away from law enforcement officers 
when they are encountered. Thus, it is extremely important to prevent 
these types of incursions. Roads and terrain on the other side of the 
border will dictate where these barriers are needed most, and as some 
areas are secured, others will certainly emerge as problems that need 
to be addressed.
    Additionally, strategically placed reinforced singl-layer fencing 
can serve to channel smuggling traffic away from relatively small 
areas, such as heavily-populated cities. The overuse of such fencing 
will only cause smugglers to seek ways to circumvent it, however, by 
going over, under, around, or through it. These counter-strategies are 
already being employed in areas such as San Diego:
        <bullet> Makeshift ladders welded from reinforcing steel bars, 
        commonly known as re-bar, are often used south of the border 
        fences to assist illegal aliens in climbing over them. Numerous 
        illegal aliens are injured when they drop from these tall 
        fences onto the U.S. side of the border. Border Patrol agents 
        are instructed not to ascertain whether injured people are 
        illegal aliens so that the Federal Government does not have to 
        pay for their medical expenses or assign agents to guard them 
        at hospitals. Criminal aliens are well aware of this unwritten 
        policy and exploit it by feigning injury to gain entry into the 
        United States without being fingerprinted and having their 
        criminal records checked.
        <bullet> It is no coincidence that almost all of the dozens of 
        cross-border tunnels that have been discovered within the past 
        decade run underneath reinforced border fencing. Large 
        quantities of people and contraband can be moved through these 
        tunnels without being detected. The potential use of these 
        tunnels by terrorists and other criminals greatly concerns law 
        enforcement authorities.
        <bullet> Hundreds of illegal aliens walk around existing 
        fencing every day as they cross our borders. Even if a 
        ``continuous'' fence were built from the Pacific Ocean to the 
        Gulf of Mexico, it would nonetheless require openings at 
        designated Ports of Entry for legitimate cross-border traffic. 
        It was once common for large groups of illegal aliens to run 
        north through the lanes of traffic at the San Ysidro Port of 
        Entry. This strategy would undoubtedly resurface if long 
        stretches of fencing were built.
        <bullet> Steel fencing is easily cut with a blowtorch. A hole 
        large enough to drive a vehicle through can be cut in a ten-
        foot high steel fence in just a few minutes. Of course, the 
        repairs take considerably longer.
    To the extent that the current illegal immigration debate focuses 
on how much fencing is necessary to secure the borders, it distracts 
the discussion from the root cause of the problem, and delays the 
implementation of meaningful solutions. As long as illegal aliens can 
readily obtain employment in the United States, neither barriers nor 
increased staffing will discourage millions of impoverished people from 
illegally crossing our borders annually. At best, such measures will 
only serve to push the problem from one location to another. The only 
effective way to solve the illegal immigration crisis is by eliminating 
the employment magnet. The only sure means of achieving this goal is by 
implementing an employment verification system that enable employers to 
easily and reliably determine who has a right to legally work in this 
country, at the same time facilitating the punishment of those 
employers who choose to disregard or disobey the law. H.R. 98, the 
``Illegal Immigration Enforcement and Social Security Protection Act of 
2005,'' achieves both of these objectives, and would be infinitely more 
effective at stopping illegal immigration than any amount of fencing or 
even additional staffing. In effect, this system would act as an 
``invisible fence,'' providing a powerful disincentive for people to 
cross our borders illegally. Without the ability to work in the United 
States, people will simply not undertake the expensive and dangerous 
journey across our borders. Instead of being overwhelmed by several 
million illegal aliens annually, the Border Patrol would be able to 
concentrate its scarce resources on the thousands of criminals and 
handful of terrorists who are currently exploiting the weaknesses of 
our unsecured borders. Of course, the Border Patrol would still need 
substantial increases in staffing, equipment and technology in order to 
secure the borders against these very serious threats. H.R. 4044, the 
``Rapid Response Border Protection Act of 2005,''' would provide many 
of these resources, and would also facilitate recruitment and retention 
efforts.
    In summary, recent experience has amply demonstrated that 
geographic fluctuations in border smuggling activity are almost 
exclusively influenced by the amount of law enforcement personnel 
assigned to an area rather than by the length or type of fences and 
barriers. However, even with significant increases in staffing, the 
overall level of smuggling activity has grown and will continue to do 
so until the root cause of illegal immigration is addressed. As long as 
destitute illegal aliens can find work in the United States, millions 
of them will cross our borders every year. The failure to effectively 
confront this crisis leaves our borders unacceptably vulnerable to 
infiltration by criminals and terrorists. The security of our Nation 
demands swift and decisive action.

    Mr. Souder. Thank you.
    Mr. Mann.

     STATEMENT OF CARLTON MANN, CHIEF INSPECTOR, OFFICE OF 
INSPECTIONS & SPECIAL REVIEWS, OFFICE OF INSPECTOR GENERAL, DHS

    Mr. Mann. Good afternoon, Mr. Chairman, Ranking Member. 
Thank you for inviting me to testify at this hearing this 
afternoon. My testimony will be slightly different from what 
you have heard so far.
    Both border security and contract management continue to be 
major challenges for the Department of Homeland Security. The 
Office of Inspector General has paid and is paying close 
attention to both issues. Last November, the Department 
announced a multi-year strategy to secure the administration's 
borders called the Secure Border Initiative, or SBI.
    SBI includes SBInet, the SBInet program, which replaced 
America's Shield Initiative. SBInet is much more complex than 
its predecessor programs and will present a greater challenge 
with Customs and Border Protection to manage the procurement 
and acquisition processes. We have not fully assessed the 
organizational SBI activities. However, we are paying more 
attention to their procurement.
    Last month the Office of Inspector General initiated a 
review of SBInet's acquisition strategy to determine whether 
the Department had applied lessons learned from its experience 
with other major acquisition programs and to forewarn the 
Department of potential contract pitfalls before a significant 
expenditure of time, resources and money occurs.
    We are focusing on two critical areas: First, operational 
requirements, which is the ability to maintain effective border 
security and, two, organizational capacity, the Department's 
ability to manage complex procurement activities.
    Earlier this year, the Department issued a request for 
proposal to select a system integrator for SBInet using an 
indefinite quantity, indefinite delivery performance-based 
acquisition strategy. Requirements are described in a broad 
statement of objectives to the bidders providing the 
flexibility for them to propose innovative solutions. It 
remains to be seen whether the proposed solutions fully address 
the Border Patrol's needs, what measurements or performance or 
effectiveness can be applied to the contract, how soon the 
program can be implemented and a reliable estimate of cost.
    We see evidence of early risks manifesting themselves in 
SBInet. For example, the Department has set a tight deadline of 
September 2006 for contract award, requiring Customs and Border 
Protection to press hard to meet that deadline while mitigating 
risk and avoiding mistakes.
    Next, a statement of objectives type contract is made high 
risk by broadly defined performance requirements. Scoping a 
series of task orders over a number of years will entail not 
only vigilant contract administration but also continuing 
program decisions, system engineering efforts, business case 
analysis and making a substantial program management office.
    Third, the lack of defined stabilized and validated 
requirements increases the likelihood of program changes, 
interoperability problems, and excessive costs. A broadly 
defined statement of objectives approach coupled with undefined 
requirements leaves a program vulnerable to failure and cost 
overruns.
    And finally, building a program management office entails 
not only recruiting and contracting for qualified acquisition 
managers and technical experts, but also establishing 
comprehensive business processes. With a new start program, a 
myriad of tasks such as developing staffing plans, providing 
facilities, and setting office procedures distract from the 
mission's accomplishment, but nevertheless must be done.
    The Office of Inspector General will continue to monitor 
these developments closely and provide our recommendations to 
Customs and Border Protection and the Department.
    Mr. Chairman, Ranking Member, this concludes my statement. 
I look forward to answering your questions.
    [Prepared statement of Mr. Mann follows:]

                   Prepared Statement of Carlton Mann

    Good afternoon Chairman Lungren, Chairman Souder, and Members of 
the Subcommittees. Thank you for inviting me to testify before the 
joint committee hearing today on ``Expanding the Border Fence.''
    The Department of Homeland Security (DHS) Office of Inspector 
General (OIG) has paid and is paying close attention to the issues of 
border security and DHS contract management, and I appreciate the 
opportunity to discuss our work in these areas.
    In a recent report outlining the major management challenges facing 
DHS, we emphasized that both border security and contract management 
continue to be major challenges for the Department.\1\
---------------------------------------------------------------------------
    \1\ DHS OIG, Major Management Challenges Facing the Department of 
Homeland Security (Excerpts from the FY 2005 DHS Performance and 
Accountability Report), Office of Audits, OIG-06-14, December 2005, at 
pages 112 and 116.
---------------------------------------------------------------------------
    Contract Management Continues to Present Major Challenges to DHS
    We have identified a number of issues related to the challenge of 
building an effective contract and acquisition management 
infrastructure for the significant level of contracting activities in 
the Department. Excluding credit card purchases, in fiscal year 2004, 
DHS processed almost 60,000 procurement actions and purchased almost 
$9.8 billion worth of goods and services.\2\
---------------------------------------------------------------------------
    \2\ DHS OIG, Department of Homeland Security's Procurement and 
Program Management Operations, Office of Audits, OIG-05-53, September 
2005, at page 2.
---------------------------------------------------------------------------
    We view the Department's lack of an institutional capacity for 
managing major investment programs as the primary factor in the string 
of failed, delayed, and over cost programs. Certainly a sense of 
urgency has prevailed to date in making the Department's investment 
decisions. Moreover, the urgency of the Department's mission will 
continue to demand rapid pursuit of major investment programs. To meet 
urgent schedule demands, the Department needs to develop a cadre of 
skilled acquisition management personnel, as well as, robust business 
processes and information systems to have the capacity to move forward 
quickly and effectively implementing programs and initiatives.

    More Comprehensive Acquisition Guidance Needed
    In our reports, we noted a general need for more comprehensive 
acquisition guidance and oversight and recommended that DHS (1) require 
expanded procurement ethics training for senior program and procurement 
officials; (2) ensure that procurement and program management oversight 
processes monitor departmental procurement activities for potential 
standards of conduct violations; (3) create and staff a DHS 
organization to develop program management policies and procedures; (4) 
provide independent technical support to DHS senior management and 
organizational component program managers on an as-required basis; and 
(4) identify and foster best practices.\3\
---------------------------------------------------------------------------
    \3\ DHS OIG, Department of Homeland Security's Procurement and 
Program Management Operations, Office of Audits, OIG-05-53, September 
2005.
---------------------------------------------------------------------------
    In response to our reports, management began action to correct many 
of these deficiencies. Specifically, the Office of the Chief 
Procurement Officer is developing a training class on procurement 
ethics for senior program and procurement officials that is emphasizing 
real examples of procurement fraud in addition to teaching applicable 
regulations. The Office of the Chief Procurement Officer issued a DHS 
management directive on the Acquisition Oversight Program in December 
2005 and is hiring additional staff to conduct oversight of other 
acquisition offices.

    More Procurement Management and Contract Management Personnel 
Needed
    We have reported that both the Chief Financial Officer and Chief 
Procurement Officer need more staff and authority to effectively carry 
out their general oversight responsibilities.\4\ The Government 
Accountability Office (GAO) reported in 2005 that the Office of the 
Chief Procurement Officer had only two people to conduct oversight on 
the eight separate procurement offices, which handled nearly $10 
billion in procurement activity during fiscal year (FY) 2004.\5\ GAO 
recommended that DHS provide the Office of the Chief Procurement 
Officer with sufficient resources and enforcement authority to enable 
effective department-wide oversight of acquisition policies and 
procedures. We made a similar recommendation.
---------------------------------------------------------------------------
    \4\ DHS OIG, Major Management Challenges Facing the Department of 
Homeland Security (Excerpts from the FY 2005 DHS Performance and 
Accountability Report), Office of Audits, OIG-06-14, December 2005
    \5\ GAO, Homeland Security Successes and Challenges in DHS's 
Efforts to Create an Effective Acquisition Organization, GAO-05-179, 
March 2005, at page 15.

    Integrated Surveillance Intelligence System Procurement
    The procurement of cameras for border surveillance is an example of 
contracting difficulty. In our report on Border Patrol's remote 
surveillance technology, our primary objective was to review Border 
Patrol's use of remote surveillance technology, including Remote Video 
Surveillance equipment, rather than audit its procurement practices.\6\ 
Nonetheless, while conducting our review, we encountered certain 
contract management issues that adversely affected the timely 
installation of Remote Video Surveillance equipment.
---------------------------------------------------------------------------
    \6\ DHS OIG, A Review of Remote Surveillance Technology Along U.S. 
Land Borders, Office of Inspections and Special Reviews, OIG-06-15, 
December 2005. However, in a series of audit reports beginning in early 
2003, the General Services Administration OIG identified inadequate 
management controls and numerous improper contract activities on the 
part of GSA's Federal Technology Service, including activities related 
to Remote Video Surveillance installations and contracting. See: GSA 
OIG Compendium of Audits of the Federal Technology Service Client 
Support Centers, December 14, 2004.
---------------------------------------------------------------------------
    The Border Patrol, a part of Customs and Border Protection (CBP), 
is the primary federal law enforcement organization responsible for 
detecting and preventing illegal aliens, terrorists, and contraband 
from entering the U.S. between official ports of entry. Border Patrol 
used a Blanket Purchase Agreement through the General Services 
Administration (GSA) with a contractor to install Remote Video 
Surveillance equipment. We reported that Border Patrol's oversight of 
Remote Video Surveillance equipment contract activities was 
ineffective, Border Patrol certified few contractor invoices prior to 
payment, and contract accountability was confused.

    Border Patrol's Oversight of Remote Video Surveillance Equipment 
Contract Activities was Ineffective
    To test the adequacy of contracting oversight, we reviewed 
procurement documents for a sample of seven Remote Video Surveillance 
installation Technical Directives, six issued under the Blanket 
Purchase Agreement and one issued prior to the Blanket Purchase 
Agreement. Weak project management and contract oversight, exacerbated 
by frequent turnover of program managers, resulted in Remote Video 
Surveillance camera sites being incomplete, leaving large portions of 
the border without camera coverage. Additionally, completed work was 
not finished in a timely manner.
    For example, according to our analysis of Border Patrol and GSA 
records, most contractor invoices were paid without Border Patrol 
certification. Procedurally, Border Patrol should have certified 
correct and properly supported invoices, thereby accepting services, 
and returned the certifications to the contractor, who would forward 
the invoices and certifications to GSA for payment. Border Patrol was 
obligated to certify invoices; but there was minimal evidence that it 
fulfilled that obligation. This resulted in payment to the contractor 
for unverified goods and services. As of August 2005, Border Patrol was 
certifying invoices after the invoices had been paid.

    Contract Accountability was Confused
    The involvement of both the Border Patrol and GSA in the Blanket 
Purchase Agreement created confusion. GSA agreed that, in practice, 
there was confusion about the responsibilities of the two agencies and, 
as the project grew and became more complex, and pressure to keep on 
schedule increased, so did the potential for error.
    For example, Border Patrol did attempt to bring the contractor into 
compliance with the Blanket Purchase Agreement. The Integrated 
Surveillance Intelligence System program manager wrote a detailed 
letter to the contractor citing inefficient financial tracking and cost 
control, inefficient inventory control, a failure to meet required 
deadlines and deliverable due dates, and a failure to notify the 
government of impediments to installations. The letter made several 
recommendations for remediation.
    Meanwhile, GSA concluded that Blanket Purchase Agreement could not 
be used for construction-related items. The GSA contracting officer 
wrote a letter to the contractor instructing the company not to submit 
any invoices for non-information technology (IT) related work and to 
disregard Border Patrol's letter. (The GSA contracting officer is the 
only authority who can provide contractual direction.) Despite GSA's 
correspondence, GSA continued to pay invoices for non-IT related work 
that the contractor submitted after this letter was sent. In essence, 
the letter from the GSA contracting officer was a stop work order 
because installing the cameras and related infrastructure was 
impossible without the non-IT related work.

    Border Security Remains a Major Challenge Facing the Department
    A primary mission of DHS is to reduce America's vulnerability to 
terrorism by controlling the borders of the U.S. This mission is shared 
by a number of agencies within the Department, with the Border Patrol 
as the primary agency responsible for preventing illegal aliens, 
terrorists, and contraband from entering the U.S. between official 
ports of entry from entering the U.S. To accomplish its mission, Border 
Patrol uses a mix of agents, information, technology, and equipment.
    The technology Border Patrol uses includes cameras and sensors to 
detect and identify illegal border intrusions. Last year we conducted 
an analysis of remote surveillance technology used by the Border Patrol 
to detect illegal entry into the U.S.\7\ Border Patrol's technology is 
managed under the auspices of the Integrated Surveillance Intelligence 
System. We determined that more than 90 percent of the responses to 
sensor alerts resulted in ``false alarms''--something other than 
illegal alien activity, such as local traffic, outbound traffic, a 
train, or animals. On the southwest border, only two percent of sensor 
alerts resulted in apprehensions; on the northern border, less than one 
percent of sensor alerts resulted in apprehensions.
---------------------------------------------------------------------------
    \7\ DHS OIG, A Review of Remote Surveillance Technology Along U.S. 
Land Borders, Office of Inspections and Special Reviews, OIG-06-15, 
December 2005.
---------------------------------------------------------------------------
    Border Patrol agents are spending many hours investigating 
legitimate activities because sensors cannot differentiate between 
illegal activity and legitimate events and because there are too few 
operational Remote Video Surveillance camera sites, consisting of 
cameras mounted on poles or other structures, available for Border 
Patrol personnel to evaluate the cause of an intrusion alert remotely. 
According to Border Patrol officials, the Remote Video Surveillance 
system currently deployed provides approximately five percent border 
coverage given an average tower height of 70 feet and viewing range of 
1.5 miles.
    DHS faces several formidable challenges in securing U.S. borders. 
These include development of an effective, automated entry-exit system 
(US-VISIT); disruption of alien smuggling operations; identifying, 
locating, detaining, and removing illegal aliens; fielding effective 
border surveillance technologies; providing timely, accurate, and 
complete intelligence to support border security operations; and 
developing effective overseas operations, including improved controls 
over the Visa Waiver Program and lost and stolen passports.
    A further challenge for DHS was the difficulties CBP and ICE 
experienced coordinating and integrating their respective operations. 
When DHS was formed, CBP and ICE did not come together to form a 
seamless border enforcement program. Their operations had significant 
interdependencies that created conflict between the two agencies. 
Jurisdictional, operational, and communication gaps existed between the 
two organizations that had to be addressed by DHS leadership.\8\ The 
Department has recognized these problems and, through its ``Second 
Stage Review'' initiatives, has reorganized to address them. We are now 
following up to evaluate whether the reorganization has improved 
coordination and integration.
---------------------------------------------------------------------------
    \8\ See: DHS OIG, An Assessment of the Proposal to Merge Customs 
and Border Protection with Immigration and Customs Enforcement, OIG-06-
04, November 2005.

    Secure Border Initiative
    On November 2, 2005, the Department of Homeland Security announced 
a multi-year strategy to secure America's borders and reduce illegal 
immigration, called the Secure Border Initiative (SBI). SBI includes 
the SBInet program, which replaced the America's Shield Initiative, but 
is much more complex, presenting a greater challenge to CBP We have not 
fully assessed the organizational structure for SBI procurement 
activities. However, we are paying close attention to the SBI 
procurement. Last month (June 2006), our Office of Audits initiated a 
review of the SBInet acquisition strategy to determine whether the 
department has applied lessons learned from its experience with other 
major acquisition programs.
    The purpose of our ongoing review is to alert the Department of 
potential contracting pitfalls before a significant expenditure of 
time, resources, and money is made. We are focusing on two critical 
areas: (1) operational requirements and (2) organizational capacity.

    SBI Procurement Risks
    The Department issued a Request For Proposal to select a system 
integrator for SBInet using an indefinite quantity/indefinite delivery 
performance-based acquisition strategy. Requirements are described in a 
broad statement of objectives to the bidders, providing the flexibility 
for them to propose innovative solutions. It remains to be seen whether 
the proposed solutions fully address the Border Patrol's needs, what 
measures of performance and effectiveness can be applied to the 
contract, how soon the program can be implemented, and what a reliable 
estimate of the program's cost would be. We anticipate scrutinizing the 
program's performance management plan, acquisition program baseline, 
schedules, cost controls, and cost estimates when they are prepared. We 
will also assess the effect on the program and its costs as CBP's 
operational requirements are set and adjusted after award. CBP faces 
some tremendous challenges and risks in pursuit of SBInet. These 
challenges and risks include:
    Acceleration: The Department has set a tight deadline of September 
2006, requiring CBP to press hard to meet tight deadlines while 
mitigating risks and avoiding mistakes. The urgency underscores the 
need for institutional capacity, including a cadre of acquisition 
management personnel and robust business processes, to accomplish the 
tasks needed to set-up a new program and ensure the program office is 
ready to implement the program, administer the contract, and establish 
cost/schedule/performance control.
    Loose contract requirements: High-risk acquisition strategies call 
for mitigators and controls. A Statement of Objectives type of contract 
is made high-risk by broadly defined performance requirements. We have 
reported on previous DHS major acquisitions with similar strategies 
that have failed. Will the SBInet contract have the incentives, 
penalties, and metrics to ensure performance? Scoping a series of task 
orders over a number of years, will entail not only vigilant contract 
administration, but also continuing program decisions, systems 
engineering efforts, and business case analyses necessitating a 
substantial program management office.
    Unstable operational requirements: Lack of defined, stabilized, 
validated requirements increases likelihood of program changes, 
interoperability problems, equitable adjustments, and cost overruns. A 
broadly defined Statement of Objectives approach coupled with undefined 
requirements leaves programs vulnerable to failure and cost overruns.
    Lack of Organizational Capacity: Building a program management 
office entails not only recruiting and contracting for qualified 
acquisition managers and technical experts, but also establishing 
robust business processes. With a new program, a myriad of tasks, such 
as developing staffing plans, providing facilities, and setting office 
procedures, distract from mission accomplishment, but they, 
nevertheless, must be done.
    This concludes my prepared remarks. I would be happy to answer any 
questions.

    Mr. Souder. Thank you all very much and for your patience.
    Mr. Barnhart, the Calexico offense that you talked about, 
was that----
    Mr. Barnhart. The Calexico border crossing station 
constructed by my company, yes, sir.
    Mr. Souder. What type of fence was that?
    Mr. Barnhart. We just used regular chain link fence at the 
border crossing. Well, you know, at that particular location 
the All American Canal runs through there and don't be confused 
with the word ``canal.'' Because I know when my estimators 
brought it, I thought the canal like 12 or 10 feet wide. We 
were going to bridge cross this thing. So I go down there and 
it is the Colorado River that we have actually herded in there 
to irrigate all of that land. So you have a pretty substantial, 
in that particular area where the border crossing is, a pretty 
substantial water barrier there. It's not like the Rio Grande 
at Texas.
    Mr. Souder. You said--and is it a single fence or triple 
fence? I can't remember.
    Mr. Barnhart. At Calexico? It is the regular--the Calexico 
border station was a GSA job and, you know, just had the 
regular GSA government specifications.
    Mr. Souder. So if you estimated that that given the number 
of miles would take an extensive period of time, how much does 
that change the cost estimates, do you think?
    Mr. Barnhart. Well, my estimates were not based off of 
Calexico. My reference to Calexico, to border crossings and the 
jobs we currently do in Calexico is you are going to get a good 
work force out of San Diego along the coast. You are going to 
pay people and you are going to pay them subsistence and travel 
and everything else to work when it is 117 degrees out there in 
the summer, when they can work on the coast and it's 77 in San 
Diego. So my only point in bringing that up is anyone who 
happens to be working somewhere else and thinks they are going 
to go out in the middle of the California desert and life is 
going to be wonderful and going to find a great work force and 
everything else better wake up and smell the coffee.
    Mr. Souder. Have those of you who have worked with fences, 
do you believe there is sufficient labor if we accelerated this 
process that you would be able to meet these kind of demands?
    Mr. Barnhart. Well, that is what they did. The estimators 
contacted about 10 or 12 companies that are in the business of 
erecting fences. Now we are a large and general engineering 
contractor. So if we have--now we have concrete crews and those 
kind of crews for the barrier wall and for the flagpole 
footings and all of that. The actual fence erection, if you use 
a steel fence, it is probably--you are probably going to use 
some steel workers or you are going to use somebody that is a 
fence--depending on the labor classification code that that is 
going to come under. So they went to about 10 of those 
companies.
    Now I am not surprised we got 10 different prices, right? 
So, and they ran the gamut. And so what the estimators did was 
they used a blended production rate, and what I did on my visit 
now when I talk to the Army personnel down there, when I was 
asking them what their production rate was and I was asking 
them some general questions well, how many people did you do 
this with and kind of that, what I was really trying to do was 
double check my own estimators and what this information that 
they had received from these, you know, from these fencing 
companies.
    So the rate that you see in here is actually a blended 
rate, a blended erection rate of those 10 companies.
    Mr. Souder. Thank you for putting that together.
    Mr. Williams, I wanted to ask you a question on the New 
Mexico barrier fence.
    When I went out and looked at that, it was just completed, 
what, 3 weeks ago?
    Mr. Williams. New Mexico was completed very recently. In 
fact, we are now engaging in a brand new 3-mile sector in the 
Yuma area that is beginning August 1st.
    Mr. Souder. When you looked at the locations, in your 
testimony you seemed to imply that there were many variances 
but one of the primary variables was where you could put the 
fence as opposed to where the greatest risk of illegal activity 
was going to be. What kind of blend do you look at in that 
area? There is one barrier fence that is the lowest type of 
style and they are looking for a more effective barrier fence.
    Give you a couple combinations of questions here. One is 
does that mean we only had money for 1 mile because you only 
built 1 mile there? Does it mean that you felt it will only 
sustain 1 mile? And what is your reaction to Congressman King's 
proposal for a more full fence that would also affect illegal 
immigration, not just vehicles.
    Mr. Williams. A couple of things. I would like to kind of 
address your initial question as far as manpower. The system 
that we are presently using that you saw in New Mexico is 
anchored by what we call metal thin pipe foundation. This 
application along with a, what we call ``push it'' machine 
lessens the number of people per crew per manpower that you'd 
have to get for each one of the crews that you install. This 
would be very important when you get into some of the areas 
where you're in mountainous terrain. You are in the most remote 
areas. And that is what I was referring to with easy access 
because the equipment actually will go into places where you 
really don't have to go to build a road. You don't have to 
bring concrete. You don't need concrete trucks. You don't need 
all of that type of stuff with this particular system and it 
makes it more conducive.
    Back to your initial question about the 1 mile. The 
original project we did was a pilot project in that we did 3 
miles in Yuma and that was done in more of a sandy/silty area 
and then we were asked to do a mile in New Mexico to see how 
the reaction would be with the different walks and different 
multi-soles in that area. So it wasn't necessarily as an 
evaluation what was applicable, but it was an area that we 
really started right after; and I think you saw that right 
after the original, what we call traditional permanent vehicle 
barriers, and then we did the PVB with the metal pipe 
foundation.
    We have also found, as I indicated in my statement, that 
the rate of production with the metal thin pipe foundation is a 
tremendous savings both in the three layered fence proposals 
and also in the permanent vehicle barrier proposals, and that 
part of what you do with the manpower and the equipment that 
does the work really is the rapid deployment that the system 
allows us to do. And rapid deployment in this whole thing I 
heard today hasn't been talked about much. How long does this 
really take? How long are we really, you know, we are talking 
about the different types of methods of things. I think the 
really important--one of the important factors is, you know, 
feasibly common sense wise, how long is this really going to 
take to stop what we all have been talking about, the diversion 
of once you seal off one area, then they go to another area. 
That is normal. That is going to happen.
    So I think some of the research, we have done--some of the 
products that we have here that have really been on the ground 
level really have worked. That barrier that I'm referring to 
that you saw also prevents a 40 mile per hour vehicle from 
ramming it. It won't move at all. It's been jammed and that is 
really some of these things we are talking about, making sure 
the drugs won't come through in a big truck or, you know, 
people won't get smuggled through. I think that this method is 
very conducive to helping some of the problems and, as everyone 
said, one is not the total solution but this is really a 
solution that will help out.
    Mr. Souder. Congressman King, you led off this panel. You 
heard all of the witnesses. Do you have additional comments?
    Mr. King. Reflecting I think particularly on Mr. Bonner's 
testimony and I just can't--I can't accept the idea that having 
a solid barrier that prohibits human traffic of all kinds 
wouldn't become something that would allow the officers on the 
ground to be far more effective, and I asked that question, I 
know, down in Laredo of the sector chief down there, I believe 
it was Mr. Reynaldo Garza at a hearing we had 2 or 3 weeks ago, 
if it would take more or less people to defend the border if we 
had the kind of barriers that I described here and his answer 
was less, although I will say that it wasn't something that 
came forth eagerly.
    I wanted to point out a couple of things. I have got a 
couple of visuals if I could add that I think might help the 
panel. And like if you could put up the one first on the 
bollards that were spoken to by the chief officer right behind 
you there to the left. And just so that I can describe what 
that is.
    I think that is a very good design. This exists, I took 
that picture, some place down around Organ Pipe Cactus and that 
is those steely beams that are set up in kind of a double layer 
that let the water through that let some of the wildlife 
through like snakes and that kind of thing, but it is a 
defective way where we have got an arroyo in our waterway that 
needs to be handled. I want to define that.
    And also I have another picture that has to do with the 
environmental issues that I wish Mr. Dicks were here to see. I 
think it really lays out something and makes the case very 
well, and this is the issue on the--let's see, Cabeza Prieta 
National Wildlife refuge in Arizona. This is where endangered 
species of bat, the long-nosed bat, they only nest in four 
caves that we know of. This is one of them. And the illegals 
were coming into the national refuge and using that cave, and 
they scared the bats out and so for several years the bats 
wouldn't nest in the cave. So we built a fence, our taxpayers 
built a fence around that bat cave at the cost of about 
$75,000. It has kept the illegals out of the cave and now the 
bats have returned. So that is an idea of that, we are looking 
at fences do work. They keep the--at least in this particular 
case they do.
    And I want to emphasize this issue of what is the business 
model. I mean we always revert back to illegal immigrants and 
the focus on cutting back on illegal immigrants, but I want to 
emphasize this. $65 billion worth of illegal drugs, how 
powerful is that force? I don't know if any of us can estimate 
how powerful that is. But shutting off the jobs magnet is 
important. Cutting down on that huge human haystack of humanity 
is important. But if we leave an open border, that is not even 
marked across most of New Mexico, for example, you are going to 
have people hauling drugs across there one way or another, if 
they are burros with 50 pounds of marijuana on their back or if 
they are coming across there on motorcycles or horses or burros 
or whatever it might be. Until we make it more difficult to 
cross there than somewhere else, they are going to do the thing 
that is as least difficult and the most efficient for them.
    And this business model, the model of $8 billion on our 
southern border, $4 million a mile, no one here at this panel 
has brought a number per mile that exceeds, I don't believe, 
half of that $4 million a mile. And this is a one-time 
expenditure for all of these structures that are here. And if 
we are going to look at raising the numbers of border patrol 
people from 12,000 to 20,000, maybe 30,000, as Mr. Cummings 
said, or 40,000, as you mentioned, those figures need to be 
plugged in here.
    If I am looking at this from a business model and I have to 
sit here and look at the miles where I live out on rural land, 
what if someone gave me the responsibility to control, say, the 
two miles right there where I happen to live that I know and 
love. And if I had that responsibility and if I would bid that 
like the contractor that I am or like some of my colleagues 
here on the panel, you see the best business model by asking 
business people to come forward and to put out an RFP for the 
best business model on how we can ensure the real true border 
control. And I would submit that business model is going to 
include the kind of structure that allows you to cut down on 
the numbers of manpower because the initial upfront investment 
in a solid fixture, a series of them, returns every single year 
after that. And more and more people on the ground, increasing 
that number.
    We have done that. I am willing to continue doing that, but 
I am not seeing the results. 1.2 million arrests on our 
southern border. Many of them came right back again. And if I 
agree with Mr. Bonner's testimony, that perhaps stopping one 
out of three or one out of four, but when I asked the people on 
the ground in those meetings that I mentioned earlier, those 
private quiet meetings off at obscure ranch houses or sitting 
there till 2:30 in the morning, and I asked them what 
percentage are you stopping and you know the most consistent 
number I got was 10 percent, I am not sure they have the full 
picture either.
    So I don't want to say I think that is right, but I am not 
hearing people that are on the line saying it is a number even 
25 percent. So I think it's a huge problem. I don't think we 
can measure the people that are here in this country. I think 
we must get a handle on it for the four reasons I said.
    People smuggling, the most important difficulty is going to 
be $65 billion worth of drug smuggling. Terrorists that come in 
like the needles in the haystack of humanity and the criminals 
that are associated with all of them. And so that's the 
questions that are on my mind, and I appreciate the privilege 
to give testimony.
    Mr. Souder. Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman. I am just 
sitting here trying to take all of this in and I must tell you 
that I have a lot of mixed feelings about this testimony.
    As a lawyer and as one who has heard a lot of testimony 
over the years, I am trying to figure out if I am an American 
citizen who is watching this, do I harken back to Katrina and 
the way we spent our money and what we have gotten for it? Do I 
think about companies like that, and I have only named 
companies that have spent money of the United States' citizens, 
many of them in my district, hard working Americans who are 
watching this probably right now and thought they were getting 
one thing and then to have companies basically admit that they 
were not doing the things that they were supposed to be doing 
over in Iran and--I mean Iraq and Afghanistan.
    I mean, these are key questions and the reason why I raise 
it is mainly because of Mr. Bonner's testimony. See, the 
President and I agree on this to a degree. And I think, 
Congressman King, you alluded to it. You talk about the people 
that you listen to. I have a tremendous, tremendous respect, as 
I know all of us do, for law enforcement. I do believe that it 
is a thin, a very thin blue line. And when I hear somebody like 
a Bonner, Chief Bonner, say what he said, I do believe that 
he's--and I heard what was said in the earlier panel with the 
Chief who spoke. I do believe that they are on the ground. They 
are trying to figure it out. They are talking--they are not 
directly on the ground. They are talking to people who are on 
the ground dealing with the problem every day. And then I hear 
them say that well, you know, there are different things that 
we need and I hear Bonner saying well, if you can stop the 
employment situation, that is get to the employers, that will 
make a major difference. But yet and still we seem to be 
putting that aside to a large degree and not dealing with that, 
and I agree with you, Congressman King, that we also have to 
deal with the drugs. After all, that is the subject matter of 
my subcommittee, the one that Congressman Souder chairs. So we 
are concerned about that.
    But it seems like there is a disconnect. And if I am an 
American citizen and I am sitting here and I am listening to 
this, I am saying to myself OK, the plans sound nice, but are 
we going to solve our problems? And Mr. Barnhart, I appreciate 
your testimony. You were very, very clear, but one of the 
things that you said that Chairman Souder even went back to, 
and that is you talk about the permitting process and that it 
would possibly take 7 to 12 years to get through this. And let 
us assume that 4 million people come into the country every 
year. I mean, in other words, let us assume two million. Take 
it even lower than that. Let us assume one in 7 years. That is 
7 million people. And it seems to me that if I am just a 
regular fellow, a lady, just got home from work, and I turned 
on C-SPAN, I would just do a little bit of math. And I said now 
wait a minute, hold it. One of the major concerns is 
employment. My Congressman is up there, they are talking about 
fences, all kinds of fences and, you know, that is good. But 
why aren't they what about dealing with this job situation?
    Mr. Souder. We don't have any jurisdiction----
    Mr. Cummings. Mr. Chairman, you have got to hear me out. I 
was patient with you. Please be patient with me. I am going 
somewhere with this.
    And so we just heard the Border Patrol Chief talk about how 
there was--and this is the relevance. He talked about a list of 
items that he needed to do his job. I specifically asked him 
what that list was, and he named all kinds of things, and the 
reason why I am bringing all of this up is that I want to make 
sure that whatever we do is practical because I am telling you 
at the rate we are going, and any logical thinking person would 
ask the question, you know, are they wasting their time because 
it seems as if it's kind of hard to get to the solution that we 
are looking for that is keeping people who are not supposed to 
be in this country out at the rate we are going with the fence 
proposal.
    Now Mr. Bonner, Chief Bonner, let me just go back to you 
for one moment. I think Congressman King made an excellent 
point that you have got four different reasons why people may 
come into this country illegally. And the whole idea is well 
what about the drug smugglers. What about them? And I am just 
following up on testimony you have already given. What about 
them? And you talked about employment stopping and you thought 
that would be great, but he makes a very good point. And I am 
just trying to speak up for the person who just got home from 
work and turned this on.
    Mr. Bonner. Congressman King makes an excellent point. We 
need to focus on those drug dealers, those drug smugglers; but 
what is happening right now, Congressman, is the same people 
who smuggle drugs have transitioned over and are smuggling 
illegal aliens and using them as decoys. They will send a group 
of 50 illegal aliens, knowing it is going to take 3 or 4 hours 
of our time to round them up, guard them, process them and send 
them back and in the meantime the border is wide open for that 
load of drugs that they want to get through.
    As long as we are dealing with this haystack of illegal 
workers, we are not going to get to the point where we can 
intercept most of the drugs coming across. We know that we are 
highly ineffective in intercepting drugs. You can go on any 
street corner in America, look at the price of drugs. It is 
staying flat, which means that the supply is very plentiful. 
It's outpacing the demands. Otherwise the price would be going 
up.
    We are doing a terrible job of intercepting illegal drugs 
at the border and the coastlines. You know, we have 95,000 
miles of coastline; also, that if we crack down at the border, 
we know it is going to flow up to those areas. But, you know, 
let us get to the point at least where we can control our 
borders. And in order to do that, we have to turn off the job 
magnet, eliminate those millions of people coming across who 
are looking for work.
    Mr. Cummings. The fencing that we were talking about here. 
Did you listen to all of this testimony? I am wondering are you 
saying that we should not have fencing or are you saying we 
should have fencing in certain places? What are you saying?
    Mr. Bonner. I am saying there is a strategic use for 
fencing. Barriers that stop vehicles from driving through are 
essential on the roads that the drug smugglers are using 
because once they hit the American highways they know that they 
have the upper hand. The Border Patrol, for example, has a 
policy that prohibits its agents from chasing people who break 
traffic laws unless we get supervisory approval, which is 
generally not forthcoming. I have been involved in incidents 
where you could see the bales of marijuana. You knew that this 
was a truck with a camper shell laden down with probably a ton 
of marijuana and the agents were told to back off because the 
driver of that vehicle hit the accelerator and was breaking 
traffic laws.
    So there was a ton of drugs that made it into the streets 
of America because of the crazy policies of the Border Patrol. 
But once those vehicles come into the country, much more 
difficult to get them stopped. Why not stop them before they 
can get into the country? I wholeheartedly support barriers in 
strategic locations. I think that fencing has a place in 
limited areas, strategically placed to channel the traffic 
away. But I think if you try to build a fence from one part 
of--from the Pacific Ocean all the way to the Gulf of Mexico, 
all you are going to do is encourage more tunnels, more people 
to climb over those fences.
    One of the problems we are experiencing now in San Diego, 
at least as people drop across the fence, many people are 
injured, as Chief Stevens testified. We are also finding that 
criminals are exploiting that. They know that we won't take 
them, that we won't run record checks on them because the 
Federal Government doesn't want to bear that expense of 
hospitalizing the people and guarding them. So criminal aliens 
fake injuries so that they get taken to a hospital and then 
they are released into the streets of the United States of 
America. It is appalling.
    Mr. Cummings. Who are the best folks to determine where 
fencing should go?
    Mr. Bonner. The best folks are the people working right 
there at the border. Chief patrol agencies are generally 
political appointees. They are going to say whatever they are 
told to say. If you want to know where the fencing should go, 
ask the men and women who patrol that every day. They have the 
best sense of what it is going to take to deal with the 
situation. But give them some help. Cut off the job magnets so 
they are not dealing with millions of people every year. Pare 
it down to a number that we can deal with, and I believe it 
would take probably somewhere between 25 and 30,000 Border 
Patrol agents just to stop the other types of traffic, leaving 
the workers, those millions of workers out of the equations.
    Mr. Cummings. Mr. Barnhart, let me ask you this, your 
example. Mr. Barnhart? Is that Mr. Barnhart? I don't have my 
glasses on.
    Mr. Barnhart, you talked about the structure. How deep does 
that go into the ground, the one that you proposed?
    Mr. Barnhart. The cutoff wall? 4 feet. That is what it is 
now. What I did was I looked at what they were doing now. You 
know, they've been doing this for quite a while. There is a 
sergeant down there that's been down there many, many years, 
and I found him. Because when I went down and looked at the 
fence, I had all kinds of questions: Why this, this, and that 
and that? And along come a car and had three Army personnel in 
it and I flagged them down. I said talk to me about this fence. 
They said oh, you need to go talk to--I have got his name 
written down in my office--Sergeant so and so. He knows 
everything about this. So I did. I hunted him down. I walked 
right in his office and then started asking him questions. And 
so we basically mirrored what they were doing then and what he 
has done over the past years, you know. They've adapted to make 
the fence more efficient.
    Mr. Cummings. Speaking of efficiency, the reason why I 
asked you that is that have you looked at the problems with the 
tunneling and how would that design help with regard to 
tunneling? In other words, people that tunnel under.
    Mr. Barnhart. Well, the tunneling that I saw, and I only 
saw it on the television screen in San Diego, they started in 
one house on the border on the Mexican side and then tunneled 
under and then came up on the U.S. side. And certainly, if you 
want to go into a rural area, but I don't think that is the way 
they will do it. The reason they went to the sleeves in these 
flagpole footings, because I was amazed when I saw that. I saw 
these steel posts and these 7-foot deep flagpole footings and 
we put millions of these in place for basketball poles or 
whatever you want to do. And they had a plastic sleeve around 
it and I was curious. What is that plastic sleeve doing? So 
when I got over to the sergeant, I asked him and the testimony 
referred to it. They come across with torches and they actually 
just take the post out. So rather than tunnel under, they just 
burn that baby out and then go on in. And what the sleeve does 
is they lift--it is a maintenance thing. They just let the new 
post in, bolt that baby back up and the repair is much quicker.
    So to answer your question, yes, you can tunnel it under 
but that is not what they'll do. They will come in and cut the 
post out with the cutting torch and then you'll be in there 
maintaining it and whatever fence you build, that is not the 
end of it. Get ready for a maintenance crew.
    Mr. Cummings. Mr. Bonner, just one last question. I mean at 
the rate we are going, one of the things I am always concerned 
about is I believe this is our watch. This is our watch. We are 
the ones who are responsible today. We are the ones that must 
prepare this country for the future. And I often wonder whether 
when under our watch we are doing the right thing so that 
future generations look back and say they did the right thing.
    And I am just wondering, I mean, what do you--I mean, 
looking at the lay of the land, the fencing proposals, 
everything that we have seen so far, we continue to do what we 
are doing right now, right now, what do you see for the future?
    Mr. Bonner. If we continue along the road that we are 
following, I foresee us 20 years from now having this same 
discussion. Not you and I. It will probably be different 
players, but I see the problem being intractable as long as we 
continue to pursue the same so-called solutions. We are not 
focusing on the root of the problem. We are just focusing on 
the symptoms. And to the extent that we do that, we will push 
the traffic from--we have already pushed it from San Diego to 
Tucson, and now we are seeing it go to New Mexico into Texas.
    But just picture one of those long skinny balloons. What we 
are doing is squeezing the balloons. We are not deterring 
people despite what the Border Patrol claims. People aren't 
staying home. The number of people coming across the border in 
fact is probably increasing. Why? Because there are jobs that 
pay so much more in the United States compared not just to 
Mexico but to a number of developing nations throughout the 
world.
    Mr. Cummings. Congressman King, I hope you understand what 
I am saying. You know, I want us to--I really want us to find a 
solution to the problem. You know, I mean I listen to the folks 
on--and I know you do and you have been going to the border and 
sitting there and it has got to bug you too--but I am just 
trying to make sure that whatever we do that we use the 
taxpayer dollars efficiently and effectively and when I have 
got some folks who are saying--border patrol types who say, 
well, maybe we should have fencing here and there and maybe we 
should do something else here, you know, that to me, I mean, I 
can't just discard that kind of testimony as--I just can't. If 
I can trust my police officers in any city to say this is what 
we need from the Federal Government, will you help us, you 
know, they are the ones who are putting their lives on the 
line. You might want to comment, but I want you to understand 
what my concerns are.
    Mr. King. Well, I especially appreciate the in-depth 
questions you have asked and the tone that you bring and the 
concern. I know every bit of it is absolutely sincere. And I've 
been sitting here trying to rationalize this all myself and 
trying to think of what if someone had an invention that they 
could lay out on the border that was a hundred percent certain 
to shut off all the traffic and put it all through the ports of 
entry. How many border patrols would we need then? And my 
answer would be of course a lot less than we are at least 
proposing we need, and we know we would have a lot of problems 
at the ports of entry because that would focus that human 
traffic there.
    My effort is to put some kind of structure in place so we 
can be more efficient with the humanity that we have, and I 
cannot accept the argument that having a wall like I have 
designed and a fence like these gentlemen have designed is not 
going to cut down on that need for boots on the ground, at 
least the numbers, or make those numbers more efficient. So 
that is where I come with this, but if we are going to fix this 
thing--and Mr. Bonner is absolutely right on shutting off the 
job market. I am with that a hundred percent. I have introduced 
legislation called the New IDEA Act that would allow the IRS to 
come in and do an audit and then deny Federal deductibility for 
wages and benefits paid to illegals and give safe harbor for 
using the basic pilot program. If we did that, that is another 
deterrent to turn off the job market, and there is quite a few 
co-signatures on that.
    But in the end we are this. With the illegal drug portions 
of it, we do interdiction and we do rehabilitation. But in the 
United States of America we do a lousy job of providing 
incentives for deterrence from becoming drug addicts and that 
is where, if I am already up to this, the magic wand, then I 
would do random testing in the workplace. I would do it in the 
educational field and I would do it on welfare. If we could do 
that, we would shut down that force of the drug. But it still 
comes back to if we shut off the drug magnet, if we shut off 
the demand for illegal drugs, then we only have criminals and 
terrorists that want to come across the border.
    So it is a much larger problem than we can address with one 
single thing. I do agree with that.
    But I want to focus on the big problem that we have. We 
have this huge bleeding at the border, this 11,000 a day and 
perhaps 12,000. Santa Anna's army was 6,000 when they came 
across. They split in half to take the Alamo. That gives you an 
idea how big this is. Every time a baby is born in the United 
States, an illegal comes across our southern border, and that 
doesn't include the 300 to 350,000 anchor babies that start 
here, that start the chain migration as well.
    So with that 46 to 48 percent of Mexicans who want to come 
to the United States and with a Senate bill over there that 
would essentially legalize anyone who wants to come here within 
the next generation, that empties out Mexico. And I had a 
conversation with the Ambassador from Mexico to the United 
States just last week, a long in-depth conversation and very 
meaningful one. And he agrees that there is no solution for 
Mexico if we open our borders to all of those who want to come 
here. They need their best people down there to help recover 
themselves.
    So it is a North American problem. It's a drug problem. It 
is a criminal problem, and it is a terrorist problem.
    And some of the other testimony that we saw was that, let's 
see, we had I believe it was the GAO that ran a couple of 
chests to try to bring in radioactive material through our 
ports of entry. They were successful in the northern and the 
southern border. So even if we seal off our border and we can 
be successful in our ports of entry, we still have a lot of 
work to do. And some of the testimony I have received in the 
other hearings indicate that actual--that more drugs come 
through the ports of entry than come across the border in 
between the ports of entry. But as I went down to Ajo/Why, 
Arizona at the border patrol station there, the border station, 
the port of entry there, I was informed that there are illegal 
crossings on either side of that port of entry that get more 
traffic every day than our legal port of entry does. And while 
I was there, there was a knifing just across the border in 
Mexico. They brought him across in a Mexican ambulance and 
airlifted him out of Tucson wherein that hospital loses about 
$14 million in billings every year providing health care for 
illegals. And this particular individual was legal. He was 
paroled into the United States but we paid for all that health 
care, $14 million a year, and that is the only trauma center 
there in southern Arizona that covers all of Arizona.
    This case gets bigger and bigger. I wanted to say one more 
brief comment and then conclude.
    With the tunnels, to be concerned about the tunnels I think 
that some--a concern in the urban areas where you can tunnel 
from a building to a building, but if you are going to dig a 
tunnel out into the open areas, you have to go with your dirt 
somewhere. So unless it is a very short tunnel, just underneath 
and up again, it is going to be very hard for anyone to conceal 
that excavation because you have a dirt pile coming out the 
other end. So I am not as concerned about that. I agree with 
Mr. Barnhart that it is going to take maintenance, but the 
stronger you build it the less maintenance it takes, and we can 
still use the UAVs, we can use infrared. We can use vibration 
sensors. We can set up all of that and be very effective and 
keep our Border Patrol as efficient as they can be.
    Mr. Souder. Mr. Mayne, could you comment on the blow torch? 
We have heard a lot about the blow torches in your fence. You 
had several variations of your fence. Are some of those easier 
to cut? How long does it take a blow torch to cut through? 
Isn't that fairly visible? If we expand the number of Border 
Patrol agents, aren't they going to be better able to see that? 
If we have central systems, aren't they going to be able to see 
that quicker? Is that something that can be done easily? The 
chain link is done differently.
    Mr. Mayne. The particular chain link that we are proposing, 
what we call a mini-maze, which I have here, this is a 9-gauge 
zinc coated product and you can see the number--well, someone 
mentioned about standard chain link. This is a piece of 
standard chain link. This is what you see in the industrial 
areas. This is 9-gauge. So you can see there is not very much 
steel here. But when you get into the mini-mesh, which is also 
a 9-gauge, this has a minimum 199-pound break load on. To take 
a blow torch and cut this, it would obviously, there is no 
question you can cut this with a blow torch, any type of metal 
fencing you can certainly burn through it.
    Because of this method that we attach this chain link, you 
need a much larger hole to burn through, and hopefully with the 
sensitive devices we have available now someone will realize 
that someone is burning a hole through this. To my knowledge we 
have never done an actual test on how long it would take. I 
know I heard some numbers from the landing mat and how long it 
took to burn through that. I think the advantage someone has in 
burning a hole through the landing mat is because no one can 
see that. They are on the other side. With this type of 
fencing, because it is open, you know, any one out there 
burning, you know, people, it is going to be very, very highly 
visible.
    But to answer your question, Mr. Chairman, I have no 
numbers that would tell you how long it would take to burn a 
hole in it.
    Mr. Souder. You also seem to think that a double layer 
fencing is more efficient than a triple. Does that depend on 
the area? What did you mean by the comment in your testimony? 
Is that a financially driven thing to say go down to two 
because you couldn't afford three?
    Mr. Mayne. Or--I'm sorry?
    Mr. Souder. Was it financially driven, because we can't 
afford three, go down to two?
    Mr. Mayne. I think the double fence obviously, as we heard 
testimony earlier from the Border Patrol, that they are looking 
for something that will delay entrance. Obviously they are 
looking to deter the 4-gauge which is very popular with the 
Homeland Security: Detect, deter, delay, and deny. But the 
double fence I think is really critical because I don't know of 
any type of fence that you can't get through. So the longer you 
delay, and as we heard testimony from the Border Patrol, they 
certainly recommend the double fence because once you penetrate 
one, you have got them in this clear zone, and it gives them a 
better opportunity to make the arrest and to stop them. So I 
think that a double fence would certainly do the job in keeping 
out the drug dealers.
    Mr. Souder. Well, I thank you all very much for your 
patience today. It's been a long hearing process. I tried, not 
very successfully at times, to keep this focused on the fence. 
There are many hearings going on on many subjects. There has 
never been a hearing where we have actually looked at the 
details of the fence before in any congressional committees. 
That is why you have to take each part like we are looking at 
IDs, why we are looking at--we have had multiple hearings 
looking at driver's licenses, all that type of thing in the 
United States. This is trying to focus on the fence.
    As you reflect on what you heard today, if you have any 
additional information you want to submit, any additional 
statements you want to submit, but I do want to make a couple 
of comments.
    One is we have heard in this committee one of the 
difficulties, we obviously need to go to watermarks, probably 
fingerprints on our IDs in the United States. You know what? 
The States that are already moving on that. Guess what? No 
police car has a machine that can read it. No agency has a 
machine that can read it. We are talking 7, 10 years if we 
accelerate this and put the money in to even get that type of 
system in place. Everything takes time. Everybody looks at 
everybody else. If you did this over here, there is the magic 
bullet. You can't play magic bullet. Do your own zone.
    The fact is that it is unconscionable that we don't have 
control of our southwest border better. It doesn't mean we are 
going to stop everybody. It is unconscionable that we have 
millions, 12, 18 million people wandering around. We don't know 
who they are in the United States, that clearly we are going to 
have to deal with the work question of trying to figure out 
where people are working, and we are already moving in that 
direction. States are moving in that direction. You start to 
get to realize it isn't the main building contractor. It is the 
subcontractor, and they are going to the job site and you don't 
have an easy way to track it even if 5 years from now, 2 years 
from now, 3 years from now, we get a secure ID system, that 
that is a huge challenge.
    And then we have a multi-billion dollar, tens of billions 
of dollars underground economy, and that it's the cash 
transaction business in America that grows as we increase 
taxes. That underground economy is huge. It is the plumber who 
shows up with an assistant and does a cash deal and that isn't 
going to be found in FICA. It's not going to be found in a 
driver's license. It's not going to be found in a work permit. 
That the idea that somehow we are going to suddenly eliminate 
the jobs magnet when you talk about the rich and poor, you have 
got to have some kind of border in there to attempt to manage 
that and you don't say because there is a dog that is tempting 
to somebody, don't build a fence. That you don't say because 
the TV and the neighborhood has a lot of welts in it let us 
don't build a fence around it. Let us eliminate the welts. Let 
us eliminate the dog. It's not a logical construct. It doesn't 
mean it is going to stop it. It doesn't mean we don't work with 
the work permit, but you can't get rid of the magnet which in 
America is a fast growing economy. So we have to have some kind 
of combination of fencing with the other.
    I know every Border Patrol agent I have ever met talks 
about the jobs magnet. We do need to do that. Everybody who is 
on the ground talks about the ID. But you know what, other 
people are working on those parts. ICE is partially responsible 
for that. It will not fix the problem. They still have to work 
on the border with the fencing. And I don't believe--I believe 
some types of fencing are harder to get through than other 
types of fencing, but the bottom line is you still have to have 
a second tier defense in the border. We are going to have to 
tighten up the ports of entry. We are going to have to have 
other people working in the next tier behind the ones that get 
through because in terrorism we are looking at near zero 
tolerance, whereas we have always had in illegal immigration 
and narcotics, a different battleground. Here one nuclear piece 
through there, we are all dead. Or at least a big sector is 
dead and this is a huge challenge. And fencing has to be a part 
of it. Now how much, what type, where, is a legitimate question 
and we've had the opportunity today to participate in a 
discussion because it is clearly going to be part of the 
solution, as is electronics.
    And Mr. Mann, I don't think there is anything more 
frustrating than the Government Reform Committee and in 
Homeland Security or in Armed Services of when we try to do 
something and then have contractors or others take advantage of 
the necessity, particularly when we are having a speed pressure 
like we are having. And people who don't do that so all of us, 
while sometimes it's not good news for Congress that's what an 
inspector general is supposed to do. Keep the heat on because 
sometimes when you are trying to go fast, you put pressures to 
cut corners all over the place. We need to do it right. We need 
to make sure people are responsible. Thank you for adding that 
to the testimony, too.
    Mr. King, did you--it looked like you wanted to say 
something here at the end before I close.
    Mr. King. It will just be thank you, Mr. Chairman.
    Mr. Souder. Anybody else have a comment?
    Mr. Williams. I just wanted to say one more thing about the 
rapid deployment and the speed that you were just talking 
about. I think there is the technology and methods there 
available for the correct officials to take a look at that can 
do rapid deployment with minimum crews to get this fence 
accomplished. So I am just a proponent. I have some 
information. I am going to submit it to be part of my 
testimony.
    Mr. Souder. Thank you. That would be very helpful. Any 
others who would talk about how we would do that? What kind of 
cost structure? That was some of what we run into when we do a 
big transportation bill and do a bump-up, it changes the cost 
estimates, too, and legitimate. That is a legitimate cost 
question, is how much does this change the cost structure. You 
are out in hard areas to work. We only touched here on that.
    Mr. Williams. I would like to submit that also.
    One other thing about the breaching of the fences. We found 
some material that is basically used in the airplane or the 
aircraft industries that limits the ability to burn, which 
makes the breaching of these particular products very 
difficult. So that type of information on the granule level I 
would like to submit with my proposal to try to help out to 
show there is some ways that this can get accomplished in a 
very expeditious manner and a cost efficient manner with the 
new technology.
    Mr. Souder. Mr. Mayne.
    Mr. Mayne. Yes, sir, Mr. Chairman. I would like to respond 
to Mr. Barnhart's comment earlier about how you--why they put 
the PVC sleeve over the post. Because of easy repair. One 
feature you'll see as I am unweaving this section of fence, the 
same principle here is if you get someone comes out and burns a 
hole, you can go out there and we have a new section of fence 
there and restretch it. So it becomes very cost effective. It's 
not as if you come out and replace whole sections of solid 
fencing or something if someone burns a hole through it. So 
this is a very positive thing as far as the chain link fence.
    Mr. Souder. I thank you, and the importance of being able 
to see through and if you do have a more solid fencing sensors 
on the top and kind of break areas that the border patrol can 
move through because we do not want to repeat what happened in 
San Diego where we got Border Patrol agents trapped on the 
wrong side outarmed and many of them on single patrols. I think 
that is one of the scariest things right now as you see the 
intensity of the drug battles and the potential terrorist 
battles. If somebody has got a real high value product and you 
have been out there and you have been sent all by yourself to 
go take them down, this is a challenge we have to do, and I 
think we are going to have to start to calculate that in.
    That means if we can get this human picket fence adjusted 
where the Border Patrol is doing more skilled and team-type 
pressure points because I think we are going to see much more 
sophistication in moving human trafficking, high value targets 
for terrorism, high value contraband, and that is a different 
challenge for the Border Patrol than the traditional kind of 
human fence that we have had and quite frankly, a different 
type of level of skill in the agents which hopefully will be 
compensated, which is another whole question that we have on 
the Border Patrol.
    Mr. King. Thank you, Mr. Chairman.
    Kind of as an afterthought, I've been to Israel to visit 
the fence and the wall that they've built there and for them it 
is life or death. Much of what they have is what we have 
proposed here. It has worked for them 95 percent effective and 
they are alive today because it worked. They've got more at 
stake than we do.
    Mr. Souder. I thank you all again. With that, our joint 
subcommittee stands adjourned.
    [Whereupon, at 6:40 p.m., the joint subcommittee was 
adjourned.]

                             For the Record

Prepared Statement of the Honorable Ginny Brown-Waite, a Representative 
                 in Congress from the State of Florida.

    Thank you Chairman Lungren and Chairman Souder for holding this 
important hearing today.
    Though I do not serve on either of your distinguished 
subcommittees, as a member of the Homeland Security Committee, I could 
not pass up the opportunity to participate in this discussion about 
immigration reform.
    When my mother was really mad, I always heard her say ``I'm so 
angry, I could spit nails.'' Every time I hear about the Senate's 
proposed immigration bill, I think the same thing. Since the Senate 
passed their flimsy excuse for immigration reform, citizens have had to 
take matters into their own hands and help guard our borders. Because 
my constituents know the House has a real border security fence 
included in our version of immigration and security reform, some of 
them have sent me bricks to suggest that they go to help build a wall 
on our border. I am sure many of you have received these bricks as 
well. When constituents have to step in so Congress will do its job, we 
know we have a problem.
    Like most Americans, I see the Senate bill as granting a free pass 
to law breakers. Our friends, parents, or ancestors all jumped through 
immigration hoops to become citizens the right way. These people are 
angry that those who snuck in through the ``back door'' will get 
preference over those patiently waiting in line--and they are right to 
be angry. If Congress condones the crime of crossing our borders 
illegally, then what have those who have been protecting them been 
fighting for? If the United States does not enforce our current laws, 
why have laws on the books at all?
    We need to examine these issues today. The Senate touts that their 
bill includes a fence along the Mexican border. What they don't tell 
the American people, however, is that their fence would be subject to 
approval by the Mexican government. When I read that, I was in total 
disbelief. How much more outrageous can the Senate bill get? Making our 
border security subject to approval by a foreign government borders on 
insanity. Frankly, it makes me wonder whether my colleagues in the 
Senate started representing Mexico instead of their American 
constituents.
    I visited the border not long ago with several of my colleagues and 
saw firsthand the daily struggle our law enforcement faces there. Many 
of the sheriffs told us what a difference a fence has made in stopping 
the flow of illegal immigration. We need to seriously examine the House 
and Senate fence provisions and hear from our first responders what 
would make a legitimate difference for them. I appreciate the 
opportunity to do that today.
    Thank you Chairman Lungren and Chairman Souder, and I look forward 
to hearing from our witnesses today on this vital issue.

                                 <all>

</pre></body></html>
